1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
IMMUNEX CORPORATION, AMGEN
MANUFACTURING, LIMITED,
Plaintiffs-Appellees
HOFFMANN-LA ROCHE INC.,
Plaintiff
v.
SANDOZ INC., SANDOZ INTERNATIONAL
GMBH, SANDOZ GMBH,
Defendants-Appellants
2020-1037
Appeal from the United States District Court for
the District of New Jersey in No. 2:16-cv-01118-CCCMF, Judge Claire C. Cecchi.
Decided: July 1, 2020
CONSTANTINE L. TRELA, JR., Sidley Austin LLP, Chicago, IL, argued for plaintiffs-appellees. Also represented by STEVEN J. HOROWITZ; VERNON M. WINTERS,
San Francisco, CA; JOSHUA JOHN FOUGERE, JEFFREY
PAUL KUSHAN, Washington, DC; JAMES ASA HIGH, JR.,
Amgen Inc., South San Francisco, CA; DREW DIAMOND, JOSEPH E. LASHER, DENNIS J. SMITH, WENDY A.
WHITEFORD, Thousand Oaks, CA.
WILLIAM M. JAY, Goodwin Procter LLP, Washington, DC, argued for defendants-appellants. Also

2a
represented by BRIAN TIMOTHY BURGESS; CINDY
CHANG, New York, NY; GERARD JUSTIN CEDRONE, DAVID ZIMMER, Boston, MA; DAN HOANG, GEORGE C.
LOMBARDI, MAUREEN L. RURKA, JULIA MANO JOHNSON, Winston & Strawn LLP, Chicago, IL.
MATTHEW S. HELLMAN, Jenner & Block LLP, Washington, DC, for amicus curiae Association for Accessible Medicines. Also represented by ADAM G. UNIKOWSKY; YUSUF ESAT, Chicago, IL; JEFFREY FRANCER, The
Association for Accessible Medicines, Washington,
DC.
JOHN CAMERON ADKISSON, Fish & Richardson PC,
Minneapolis, MN, for amicus curiae Samsung Bioepis
Co., Ltd. Also represented by ELIZABETH M. FLANAGAN, DEANNA JEAN REICHEL; JONATHAN ELLIOT
SINGER, San Diego, CA.
Before O’MALLEY, REYNA, and CHEN, Circuit Judges.
Opinion for the court filed by Circuit Judge O’MALLEY.
Dissenting opinion filed by Circuit Judge REYNA.
O’MALLEY, Circuit Judge.
Patent owner Hoffmann-La Roche Inc. (“Roche”), its
exclusive licensee Immunex Corp., and exclusive sublicensee Amgen Manufacturing, Ltd., initiated this
patent infringement suit pursuant to the Biologics
Price Competition and Innovation Act (“BPCIA”).1
Sandoz, Inc., Sandoz International GmbH, and
Immunex Corp. and Amgen Manufacturing, Ltd. are collectively referred to as “Immunex.” Although Roche joined the
district court litigation, it did not enter an appearance in this
appeal.
1

3a
Sandoz GmbH filed abbreviated Biologics License Application (“aBLA”) No. 761042.2 This action followed
shortly thereafter. In the aBLA, Sandoz sought approval to market Erelzi, a biosimilar version of Immunex’s biologic drug, Enbrel®.
Enbrel® is covered by the patents-in-suit: U.S. Patent Nos. 8,063,182 (“’182 patent”) and 8,163,522
(“’522 patent”). Prior to trial, Sandoz stipulated to infringement of the asserted claims of the patents-insuit. After a two-week bench trial, the United States
District Court for the District of New Jersey entered
final judgment for Immunex and Roche, holding that
Sandoz had failed to prove that the asserted claims of
the patents-in-suit were invalid.
Sandoz appeals from the district court’s judgment.
On appeal Sandoz argues, as it did before the district
court, that the patents-in-suit are invalid for (1) obviousness-type double patenting; (2) failure to meet the
written description requirement; and (3) obviousness.
For the reasons discussed below, we affirm.
I. BACKGROUND
A. The Claimed Technology and Patents-in-Suit
The patents-in-suit are directed to the fusion protein etanercept and methods of making the same.
Etanercept is the active ingredient in Immunex’s biologic drug Enbrel®, which is primarily indicated for
reducing the signs and symptoms of moderately to severely active rheumatoid arthritis, an autoimmune
disorder. Etanercept is made by combining a portion
Sandoz, Inc., Sandoz International GmbH, and Sandoz
GmbH are collectively referred to as “Sandoz.”
2

4a
of a 75 kilodalton (“kDa”) human tumor necrosis factor receptor protein with a portion of immunoglobulin
G1 (“IgG1”).
IgG1 is a type of antibody. Antibodies are proteins
deployed by the immune system to identify and neutralize foreign objects—such as bacteria and viruses—
called antigens. Each antibody contains a region that
binds to a portion of an antigen. Through this binding
mechanism, an antibody can either neutralize the target antigen directly— for example, by blocking the
part of a virus that is essential for the survival of the
virus—or tag a microbe or an infected cell for attack
by other parts of the immune system. Like all proteins, antibodies are made up of amino acids connected to form chains called polypeptides. The polypeptides fold into three-dimensional structures that
impart structural and functional characteristics to the
antibodies.
Structurally, each antibody (including IgG1) consists of four chains of amino acids: two identical
“heavy chains” and two identical “light chains,” arranged in a Y-shape. All four chains in the antibody
contain two different segments: a constant region (denoted by CH for the heavy chain constant region and
CL for the light chain constant region) and a variable
region (VH for the heavy chain variable region and VL
for the light chain variable region). The variable regions are segments of the antibody that determine
whether, and how effectively, an antibody will bind to
a given antigen. The constant regions, on the other
hand, interact with other components of the immune
system through “domains”—areas of the protein that
have a specific structure and can serve a specific function. The light chain constant region consists of the

5a
CL domain. The heavy chain constant region includes
the CH1, the hinge, CH2, and CH3 domains.
The human immune system also contains cytokines—cell signaling proteins that effectuate a variety
of immune responses. Tumor necrosis factor (“TNF”)
is one type of cytokine produced in the human body.
It is associated with autoimmune inflammatory diseases such as rheumatoid arthritis. TNF binds to
TNF receptors (“TNFRs”), transmembrane receptors
that contain three distinct regions: intracellular,
transmembrane, and extracellular. There are two
types of TNFRs, p55 (a 55 kDa protein) and p75 (an
approximately 75 or 80 kDa protein). The extracellular region of TNFRs binds to TNF. This region can be
split off to make a soluble protein that binds to TNF,
allowing for removal or neutralizing of excess TNF
from the body.
Etanercept—a fusion of the extracellular region of
p75 and the hinge-CH2-CH3 portion of the constant
region of the IgG1 heavy chain—binds to excess TNF
and neutralizes it. In this way, it reduces the autoimmune inflammatory response in patients with rheumatoid arthritis.
The claims of the ’182 patent are directed to etanercept, and the claims of the ’152 patent are directed to
methods of making etanercept. Both patents-in-suit
claim priority to European Patent Application No.
90116707.2 (“the EP ’707 Application”), filed on August 31, 1990, and U.S. Application No. 07/580,013
(“the ’013 Application”), filed on September 10, 1990.
Roche, the party that originally filed the applications
in this patent family, abandoned the ’013 Application,
but filed a continuation, U.S. Application No.

6a
08/965,640 (“the ’640 Application”) on July 21, 1993.
This application was subject to a restriction requirement by the United States Patent and Trademark Office (“USPTO”). As a result of the restriction requirement, on May 19, 1995, Roche filed two divisional applications claiming priority to the ’640 application.
These applications matured into the ’182 and ’152 patents, which issued on November 22, 2011 and April
24, 2012, respectively.
B. License Agreements Between
Immunex3 and Roche
To understand the parties’ arguments on appeal, a
basic understanding of the historical relationship between Immunex and Roche, as well as certain licenses
between them, is necessary. By 1990, both Roche and
Immunex Corp. were separately engaged in researching TNF and investigating whether targeting this
molecule could provide any therapeutic benefits. In
April 1990, Roche published the complete amino acid
sequence of the p55 TNFR. In May 1990, Immunex
Corp. published an article containing the full amino
acid sequence of the p75 TNFR. And, in July 1990,
Roche published the complete amino acid sequence of
p75, along with part of its encoding DNA. As noted
above, it was Roche that filed the priority application
for the patents-in-suit in 1990, as well as the applications for the patents-in-suit in 1995.
Immunex Corp., working independently on TNFRIgG fusion proteins, obtained FDA approval of
For simplicity, we refer to the licensee of the primary
agreement at issue as “Immunex,” because all rights initially
granted to the original licensee, Amgen, Inc., and its affiliates
were ultimately consolidated in Immunex Corp.
3

7a
Enbrel® in 1998. Almost a year later, Immunex Corp.
and Roche entered into a license (the “ImmunexRoche agreement”), effective as of the approval date of
Enbrel®, pursuant to which Immunex obtained a license to, inter alia, the EP ’707 Application and the
’013 Application, and all patents that issue from those
applications. J.A. 25867. Immunex agreed to pay
Roche royalties on the sales of Enbrel®. J.A. 2587680.
In 2002, non-party Amgen, Inc. acquired Immunex
Corp. Subsequently, in 2004, Amgen, Inc., Immunex
Corp., Roche, and non-party Wyeth entered into an
“Accord & Satisfaction” agreement concerning the
same patent family. J.A. 25836. The purpose of the
agreement was “to eliminate the continuing obligations to pay royalties to Roche” pursuant to the Immunex-Roche agreement. Id.
Under the terms of the Accord & Satisfaction, Immunex has a paid-up, irrevocable, exclusive license to
the U.S. patent family for the patents-in-suit. It has
the sole right to grant sublicenses, to make, have
made, use, sell, offer for sale and import products covered by the patent family. J.A. 25839. With respect
to patent prosecution, Immunex has the exclusive
right to prosecute patent applications in the U.S. patent family. J.A. 25840. Thus, as of 2004, Immunex
controlled the prosecution of the patents-in-suit.
Under the terms of the agreement, Immunex has
the first right to rectify any suspected infringement of
the licensed patent family at its sole expense and under its sole control, by instituting suit or by sublicense. And, Immunex may retain the entirety of any
award of damages or lost profits resulting from such

8a
an infringement suit. Roche is obligated to cooperate
in any such suit, including by participating as a party
to the extent required by the court in order to bring
suit. Id. Immunex also has the right to an assignment of the patents-in-suit upon request and upon the
payment of $50,000. Id. (“If requested . . . Roche shall
execute an assignment of” the patents).4
Under the terms of the Accord & Satisfaction, Roche
is required to cooperate with Immunex regarding
prosecution and enforcement of the patents-in-suit,
including by providing evidence and testimony in connection with any proceeding affecting the validity of
the patents-in-suit. Id. Roche also retains the right
to practice the patents for internal, non-clinical research only. In addition, Roche retains the secondary
right, but not obligation, to sue if Immunex fails to
rectify infringement or initiate an action for such infringement within 180 days after written notification
by Roche. The agreement further provides that, once
Roche’s secondary right to sue is triggered, Roche
may, at its sole expense and under its sole control and
direction, initiate suit and may retain the entirety of
any award of damages or lost profits as a result of such
suit. J.A. 25841.
C. Procedural History
In February 2016, Immunex, together with Roche,
filed this patent infringement action against Sandoz
under the BPCIA. The district court held a two-week
bench trial in September 2018. Sandoz did not contest
infringement of the ’182 and ’522 patents.
By contrast, non-party Wyeth obtained an assignment of
the European patents in the patent family.
4

9a
Accordingly, the only issues before the district court
at trial were the validity of the asserted claims of the
patents-in-suit. Specifically, the district court considered whether claims 11–12 and 35–36 of the ’182 patent, and claims 3, 8, and 10 of the ’522 patent were
invalid for lack of written description and enablement;
obvious in light of certain asserted prior art references; and invalid for obviousness-type double patenting.
On August 9, 2019, in a detailed opinion, the district
court issued its findings of fact and conclusions of law,
holding that Sandoz had not proven that the patentsin-suit were invalid. Immunex Corp. v. Sandoz Inc.,
395 F. Supp. 3d 366, 374 (D.N.J. 2019). The court entered final judgment for Immunex and Roche on October 8, 2019. Sandoz timely appeals. We have jurisdiction pursuant to 28 U.S.C. § 1295(a).
II. DISCUSSION
On appeal, Sandoz argues that the patents-in-suit
are invalid for (1) obviousness-type double patenting;
(2) failure to meet the written description requirement; and (3) obviousness. We address each issue in
turn.
A. Standards of Review
Following a bench trial, we review a district court’s
conclusions of law without deference and its findings
of fact for clear error. Ferring B.V. v. Watson Labs.,
Inc.-Fla., 764 F.3d 1401, 1406 (Fed. Cir. 2014). “A factual finding is clearly erroneous if, despite some supporting evidence, we are left with the definite and firm
conviction that a mistake has been made.” Id.

10a
B. Obviousness-Type Double Patenting
Obviousness-type double patenting is a judiciallycreated doctrine aimed at preventing claims in separate patents that claim obvious variants of the same
subject matter where “granting both exclusive rights
would effectively extend the life of patent protection.”
In re Hubbell, 709 F.3d 1140, 1145 (2013) (quotations
omitted); Eli Lilly and Co. v. Barr Labs., Inc., 251 F.3d
955, 967 (Fed. Cir. 2001) (“The judicially-created doctrine of obviousness-type double patenting . . . prohibit[s] a party from obtaining an extension of the
right to exclude through claims in a later patent that
are not patentably distinct from claims in a commonly
owned earlier patent.”). The doctrine applies to all
commonly-owned patents, even in cases where the obvious variants are invented by different inventors. In
re Longi, 759 F.2d 887, 895 (Fed. Cir. 1985). As we
have previously recognized, there are two justifications for this doctrine: (1) to prevent timewise extension of the right to exclude; and (2) to prevent multiple
infringement suits by different assignees. Hubbell,
709 F.3d at 1145. “[T]he ultimate conclusion that a
patent is invalid under the doctrine of obviousnesstype double patenting is reviewed de novo.” Novartis
Pharm. Corp. v. Breckenridge Pharm. Inc., 909 F.3d
1355, 1361 (Fed. Cir. 2018). “[P]redicate findings of
fact” are reviewed for clear error. Eli Lilly & Co. v.
Teva Parenteral Medicines, Inc., 689 F.3d 1368, 1376
(Fed. Cir. 2012).
At trial, Sandoz asserted that the patents-in-suit
are invalid for obviousness-type double patenting over
several patents filed by Immunex Corp. in the years
leading up to and shortly after the approval of
Enbrel®.
The district court rejected Sandoz’s

11a
contentions, finding in favor of Immunex on several
layers of analysis: (1) that Sandoz’s proposed test for
common-ownership does not apply; (2) even if that test
applies, the patents-in-suit and the asserted doublepatenting reference patents are not commonly owned;
(3) even if they are commonly owned, the two-way, rather than the one-way test for obviousness-type double patenting applies as to some of the double-patenting references; and (4) the patents-in-suit are patentably distinct from each of the asserted double patenting references. On appeal, Sandoz limits its arguments to two patents, U.S. Patent Nos. 7,915,225
(“Finck ’225”) and 5,605,690 (“Jacobs ’690”) (collectively, the “Immunex Patents”). It concedes that it
must prevail at each step of the district court’s analysis to garner a reversal of the court’s decision regarding obviousness-type double patenting; losing at any
one of these steps is fatal to Sandoz’s arguments. Oral
Arg. at 1:23-54, available at http://oralarguments.cafc
.uscourts.gov/default.aspx?fl=2020-1037.mp3) (“[Counsel for Appellant:] I agree that there are multiple steps
that we would ask this court to take.”).
As to the first step of the court’s analysis, in a novel
theory of common ownership, Sandoz argues that,
even though the patents-in-suit are assigned to Roche,
Immunex effectively owns both the Immunex Patents
and the patents-in-suit because all substantial rights
in the patents-in-suit transferred to Immunex pursuant to the Accord & Satisfaction. Borrowing from our
35 U.S.C. § 281 case law, Sandoz argues that an
agreement that conveys “all substantial rights” in a
patent is tantamount to an assignment of ownership.
Appellants’ Br. 27-28 (citing Morrow v. Microsoft
Corp., 499 F.3d 1332, 1340 (Fed. Cir. 2007)). In

12a
Sandoz’s view, this “all substantial rights” test—to
date used only to determine who may sue for infringement as a “patentee” pursuant to 35 U.S.C. § 281—
should apply in the obviousness-type double patenting
context as well. And, Sandoz contends, the relevant
agreement here transferred all substantial rights in
the patents-in-suit to Immunex.
As discussed below, although we agree with Sandoz
that the “all substantial rights” test can be informative in determining common ownership in the obviousness-type double patenting context, we conclude that
the agreement at issue here did not transfer all substantial rights from the assignee, Roche, to the exclusive licensee, Immunex. Accordingly, we need not address the other layers of the district court’s detailed
analysis on obviousness-type double patenting.
1. The All Substantial Rights Test
Under Sandoz’s theory of common ownership, if a
party is the effective patentee for purposes of the ability to bring an infringement suit, then it is also an effective patentee for purposes of obviousness-type double patenting. Sandoz contends that a contrary rule
would allow circumvention of patent term limitations
by simply reclassifying an assignment as a license.
Appellants’ Br. 28-29. And, Sandoz argues, if a party
acquires all substantial rights in a patent application,
including the right to control prosecution, then obviousness-type double patenting should apply to prohibit issuance of claims that are not patentably distinct from claims in patents already owned by that
party. Appellants’ Reply Br. 9.
Immunex responds that common ownership-based
obviousness-type double patenting arises only where

13a
the relevant inventions were owned by the same entity at the time of the invention. Appellees’ Br. 36. Immunex cites to the Manual of Patent Examining Procedure (“MPEP”), which states that “[a]pplications or
patents are ‘commonly owned’ pursuant to 35 U.S.C.
102(b)(2)(C) or pre-AIA 35 U.S.C. 103(c)(1) if they
were wholly or entirely owned by the same person(s),
or organization(s)/business entity(ies), at the time the
claimed invention was filed or made, respectively.” Id.
at 37 (quoting MPEP § 804.03(II)). In Immunex’s
view, this test applies because common ownership in
the obviousness-type double patenting context “exists
to fill a narrow statutory gap,” created by the Patent
Law Amendments of 1984, Pub. L. No. 98-622, § 104,
98 Stat. 3383 (“the 1984 Act”). Id. at 37–38 (citing
1984 Act (codified in 35 U.S.C. § 103(c))). Prior to the
1984 Act, Immunex argues, the USPTO recognized
that common ownership-based double patenting rejections were unnecessary, because examiners could
simply use anticipation or obviousness rejections to
avoid issuing multiple patents claiming the same invention or obvious variants. Id. at 37 (citing Commissioner’s Notice on Double Patenting, 834 O.G. 1615,
1616 (Jan. 9, 1967)). But the 1984 Act prohibited rejections based on prior art owned by the same person
or subject to an obligation of assignment to the same
person. Id. at 37–38 (citing 1984 Act). Immunex argues that Congress expected double patenting to fill
the gap where the USPTO could no longer rely on
§§ 102 and 103 to avoid issuing multiple patents on
the same invention in cases involving common ownership. Id. at 37–38. According to Immunex, the
MPEP’s test for common ownership is “narrowly

14a
tailored to close the gap created by the 1984 Act.” Id.
at 39.
We have previously rejected Immunex’s reading of
the history of the 1984 Act. See In re Longi, 759 F.2d
887, 893 (Fed. Cir. 1985). In Longi, rejecting the argument that obviousness-type double patenting
should not apply to commonly-owned applications
with different inventive entities, we ruled that such a
broad proposition was inconsistent with recent legislation, i.e., the 1984 Act. Id. We explained that we
have never endorsed the Commissioner’s Notice on
which Immunex now relies because the notice was
merely a procedural memorandum and, importantly,
was inconsistent with many of our predecessor court’s
decisions. Id. at 894. Indeed, directly refuting Immunex’s arguments is our express acknowledgement
in Longi that common ownership-based obviousnesstype double patenting existed even before 1984. Id. at
893; see also In re Rogers, 394 F.2d 566, 569 (C.C.P.A.
1968). Examining the very 1984 Act that, in Immunex’s view, created a “statutory gap” that common
ownership-based obviousness-type double patenting
is designed to close, we said that the Act seemed “not
intended to affect the doctrine of double patenting, but
seem[ed] rather to reaffirm its viability.” Longi, 759
F.2d at 895. Thus, we have already considered and
rejected Immunex’s argument that common ownership-based obviousness-type double patenting is a
narrow gap-filling rule in response to the 1984 Act.
Immunex’s “time of invention” test is also inconsistent with more recent case law. For example, we
have applied common ownership-based obviousnesstype double patenting where a party “merged with the
original assignees of” the double-patenting references

15a
at issue. Geneva Pharm., Inc. v. GlaxoSmithKline
PLC, 349 F.3d 1373, 1377, 1386 (Fed. Cir. 2003). And,
although the Board of Patents Appeals and Interferences (“BPAI”), predecessor to the Patent Trial and
Appeals Board, applied the MPEP definition of “common ownership” (from the 35 U.S.C. § 103(c) context)
to double patenting cases, it expressly did not do so
with respect to the timing of the invention. Ex Parte
Maurice, No. 2005-2463, 2005 WL 4779419, at *2
(B.P.A.I. Sept. 19, 2005). In Ex Parte Maurice, while
accepting that “commonly owned” for double patenting purposes must be read to be consistent with common ownership in the context of 35 U.S.C. § 103(c),
the BPAI clarified that “[b]y ‘consistent,’ appellants
presumably mean consistent with regard to the required interest of each co-owner, and not necessarily
consistent in terms of the time frame in which ownership is considered.” Id.
We see no justification for applying Immunex’s
“time of filing” requirement in the obviousness-type
double patenting context. Indeed, adopting Immunex’s rule might lead to the absurd result where,
even if originally applied for by inventors working under an obligation of future assignment to an employer,
patents may not be considered “commonly owned” because, at the “time of invention,” the assignment had
not been effectuated. Such a result would effectively
eviscerate common ownership-based obviousnesstype double patenting. Accordingly, we conclude that
Immunex’s “time of filing” test for common ownership
does not apply.
By contrast, Sandoz’s proposed test for common
ownership—determining whether a party controlling
prosecution was the “effective patentee” under the “all

16a
substantial rights” test—appears consistent with both
principles underlying obviousness-type double patenting, namely, preventing unjustified patent term extensions and preventing harassment from multiple
suits. Applying Sandoz’s test would prevent an effective patentee from unjustifiably extending its patent
term by using the nominal label of licensee. The second consideration underlying obviousness-type double
patenting—preventing harassment through multiple
infringement suits by different assignees asserting essentially the same patented invention—also undergirds our 35 U.S.C. § 281 jurisprudence. See Hubbell,
709 F.3d at 1145; see also Lone Star Silicon Innovations LLC v. Nanya Tech. Corp., 925 F.3d 1225, 1233
(Fed. Cir. 2019).
We are mindful, however, of the existing complexities in applying the equitable doctrine of obviousnesstype double patenting and see no reason to import into
this judicially-created doctrine the entirety of our
body of law analyzing who is a statutory “patentee”
pursuant to 35 U.S.C. § 281. We conclude only that
where one of the rights transferred is the right to prosecute the patent at issue, identification of the effective
“patentee” is informative in evaluating whether the
patents are “commonly owned” for purposes of obviousness-type double patenting. Where, as here, a
party ultimately controls prosecution of both sets of
patents, the “all substantial rights” test aids in preventing the unjustifiable issuance of claims that are
patentably indistinct from claims already owned by
that party. Under these circumstances, looking to the
“all substantial rights” test achieves the proper balance between deterring gamesmanship in prosecution, on the one hand, and avoiding any chilling effect

17a
on routine collaborations and licensing between parties working in the same field of research, on the
other.
2. The Accord & Satisfaction Did Not
Transfer All Substantial Rights in the
Patents-in-Suit to Immunex
We now turn to the agreement at issue, and
whether, as Sandoz argues, it is effectively an assignment because it transferred all substantial rights in
the patents-in-suit to Immunex. “To determine
whether an exclusive license is tantamount to an assignment, we must ascertain the intention of the parties to the license agreement and examine the substance of what was granted.” Alfred E. Mann Found.
v. Cochlear Corp., 604 F.3d 1354, 1359 (2010) (alterations and quotations omitted); see also Vaupel Textilmaschinen KG v. Meccanica Euro Italia S.P.A., 944
F.2d 870, 874 (Fed. Cir. 1991). The focus is on the
substance of what was granted. Id. We have recently
reaffirmed that “we examine the ‘totality’ of the agreement to determine whether a party other than the
original patentee has established that it obtained all
substantial rights in the patent.” Lone Star, 925 F.3d
at 1229; Prima Tek II, LLC v. A-Roo Co., 222 F.3d
1372 (Fed. Cir. 2000). Although we have “never purported to establish a complete list of the rights [that
can] . . . render an exclusive licensee the owner of a
patent,” Alfred E. Mann, 604 F.3d at 1360, “we have
often focused on two salient rights: enforcement and
alienation,” Lone Star, 925 F.3d at 1231. Thus, we
have considered factors such as the scope of the licensee’s right to sublicense, the nature of license provisions regarding reversion of rights, the duration of the
license grant, and the nature of any limits on the

18a
licensee’s right to assign its interests in the patent.”
Alfred E. Mann, 604 F.3d at 1360-61.
As a threshold matter, the parties dispute the applicable standard of review. Sandoz argues that de novo
review applies to this determination, whereas Immunex maintains that also at issue is the district
court’s factual determination of the parties’ intent,
which should be reviewed deferentially. Appellants’
Reply Br. 11–12; Appellees’ Br. 47–48. As we explained in Alfred E. Mann, the substance of what was
granted is determined by interpreting the license. 604
F.3d at 1359. Here, the contract is governed by Delaware law, which provides that the district court’s interpretation presents a question of law to be reviewed
de novo. In re Viking Pump, Inc., 148 A.3d 633, 643–
44 (Del. 2016). As to the question of whether the provisions effectuated a transfer of all substantial rights
such that Immunex, not Roche, is the “patentee,” that
is a legal question we review de novo under our own
law. Prima Tek, 222 F.3d at 1377. But, to the extent
determining the intention of the parties requires evaluation of parol evidence, that “evaluation presents a
question of fact that we review deferentially.” Alfred
E. Mann, 604 F.3d at 1359.
The district court treated this as a two-part inquiry,
looking first to the parties’ intent and then to the
agreement provisions to determine “the substance of
what was granted.” Immunex, 395 F. Supp. 3d at 415–
17. The court found that Roche and Immunex “specifically intended for the Accord & Satisfaction to be a
license such that Roche would remain the owner of the
patents-in-suit.” Id. at 415. It looked to “the face of
the [agreement] itself,” which calls the grant to Immunex a “license.” Id. at 416. The court also relied on

19a
the testimony of an Amgen corporate witness to conclude that the parties intended for the agreement to
be a license. Id.
Absent ambiguous provisions, however, there is no
need to resort to parol evidence to determine the parties’ intent. The court did not find that the Accord &
Satisfaction was ambiguous. Accordingly, it should
not have made any factual determinations regarding
the intent of the parties as shown by witness testimony.5 As to the fact that the agreement is called a
“license,” we have clarified that “whether a transfer of
a particular right or interest under a patent is an assignment or a license does not depend upon the name
by which it calls itself, but upon the legal effect of its
provisions.” Lone Star, 925 F.3d at 1230 (emphasis in
original) (quoting Waterman v. Mackenzie, 138 U.S.
252, 256 (1891)). Here, it does not matter that the
grant to Immunex was titled a “license”—what matters is the effect of the agreement on the parties’ respective rights. Indeed, in arguing for a deferential
standard of review, Immunex cites to no cases where
we have looked beyond the contract at issue to determine the parties’ intent. We therefore look only to the
substance of what was transferred under the Accord
& Satisfaction, which we review de novo.
Review of the 2004 Accord & Satisfaction reveals
the following: Section 3.5 of the agreement gives Immunex the first right to rectify any suspected
The dissent likewise points to witness testimony in support of its conclusion that Roche transferred all substantial
rights in the patents-in-suit to Immunex. Dissent Op. at 5-6. We
do not think the analysis in this case should be guided by parol
evidence.
5

20a
infringement, at Immunex’s sole expense and under
its sole control, by instituting suit or by sublicensing
the patents. J.A. 25840. Immunex may retain the entirety of any award of damages or lost profits as a result of such suit. Roche is required to cooperate in any
Immunex-initiated infringement suit, including by
participating as a party only to the extent required by
the court in order to bring suit. But, under Section
3.6, Roche retains the secondary right to sue if Immunex fails to rectify any infringement within 180
days after written request by Roche. J.A. 25841. After this 180-day notice period, Roche may, at its sole
expense and under its sole control and direction, initiate suit. Id. Roche may retain the entirety of any
award of damages or lost profits as a result of a Rocheinitiated suit. Immunex further has a duty to cooperate in such a Roche-initiated suit. Notably, “the right
to rectify infringement under . . . Section 3.6 is solely
with” Roche. Id. As to alienation rights, under Section 11.4, neither party may assign its rights to third
parties without the written consent of the other. J.A.
25849.
On appeal, Sandoz argues that these provisions,
taken together, effectuated a transfer of all substantial rights from Roche to Immunex. Sandoz points to
Immunex’s “paid-up, irrevocable, exclusive license”
and “first right to rectify any alleged infringement” on
the one hand, and Roche’s loss of control over licensing
and litigation activities on the other, to argue that
Roche was “stripped of any of the traditional attributes of ownership.” Appellants’ Br. 31–32. Sandoz
also contends that Immunex’s ability to drive the prosecution of the patents is another indication that Roche
transferred all substantial rights.

21a
Immunex responds that Roche is still the effective
patentee because it retained several key rights under
the Accord & Satisfaction. Immunex points to:
(1) Roche’s secondary right to sue; (2) Roche’s right to
practice the patents for internal, non-clinical research; (3) Immunex’s option to convert the license
into an assignment by paying an additional consideration of $50,000; and (4) Roche’s right to veto the assignment of Immunex’s interest under the agreement
to any unrelated party. Appellees’ Br. 49–53.
The enforcement and alienation rights under the
Accord & Satisfaction make clear that Roche did not
transfer all substantial rights in the patents to Immunex. We have explained that the nature and scope
of the licensee’s right to sue, together with the nature
of the licensor’s retained right to sue, is “[f]requently
. . . the most important consideration.” Alfred E.
Mann, 604 F.3d at 1361. Here, although Immunex obtained the first right to sue, Roche retained the secondary right to sue. Like the license at issue in Alfred
E. Mann, although Roche’s “right to choose to sue an
infringer does not vest until [Immunex] chooses not to
sue that infringer, [that right] is otherwise unfettered.” Id. at 1362. Once Roche’s secondary right to
sue vests, the ability to rectify infringement is “solely”
with Roche, and may not pass to Immunex. After the
180-day notice period, Roche can decide “whether or
not to bring suit, when to bring suit, where to bring
suit, what claims to assert, what damages to seek,
[and] whether to seek injunctive relief.” Id. Retention
of “such broad right[s]” is “thoroughly inconsistent”
with a conclusion that the patents-in-suit were effectively assigned to Immunex. See id.

22a
Sandoz cites Speedplay, Inc. v. Bebop, Inc., 211 F.3d
1245 (Fed. Cir. 2000), for the proposition that Roche’s
secondary right to sue is “illusory” because Immunex
can “undercut Roche’s ability to sue by granting a royalty-free sublicense to an alleged infringer.” Id. at 33–
35 (citing Speedplay, 211 F.3d at 1251). In Speedplay,
we concluded that the licensor’s retained right to sue
was illusory because the licensee could render that
right nugatory by granting the alleged infringer a royalty-free sublicense. 211 F.3d at 1251. Sandoz argues
that, here, because the license is fully paid-up, there
are no pass-through royalties, just like in Speedplay,
rendering the secondary right to sue illusory. But, as
we have explained, “Speedplay . . . held that a licensee’s right to grant royalty-free sublicenses to defendants sued by the licensor rendered illusory the licensor’s right to sue.” Alfred E. Mann, 604 F.3d at 1362
(emphasis added). That is precisely what the licensee
Immunex cannot do here: under Section 3.6 of the
agreement, once Roche’s secondary right to sue is triggered, Immunex no longer has any right to rectify any
infringement and cannot frustrate a Roche-initiated
suit by granting a royalty-free sublicense to defendants sued by Roche, and Roche retains the entirety of
any award of damages. We reject Sandoz’s contention
that Section 3.6 “does not modify Immunex’s sublicensing rights.” Appellants’ Reply Br. 13.
Thus, unlike the licensor in Speedplay, Roche’s secondary right to sue is not illusory.6

Adopting Sandoz’s arguments, the dissent urges that
“[t]he focus of the Speedplay inquiry is whether a licensee can
nullify a licensor’s secondary right to sue, pre- or post-suit.” Dissent Op. at 7. But like Sandoz, the dissent fails to account for
6

23a
Roche’s right to veto any assignment of Immunex’s
interest in the patents-in-suit also weighs in favor of
the conclusion that all substantial rights were not
transferred. We have previously made clear that restrictions on the ability to transfer patent rights are
inconsistent with a transfer of all substantial rights.
Lone Star, 925 F.3d at 1222–23; see also Abbott Labs.
v. Diamedix Corp., 47 F.3d 1128, 1132 (Fed. Cir.
1995). Here, under Section 11.4 of the agreement, Immunex may not assign its rights in the patents-in-suit
to a third party without Roche’s written consent. This
restriction on alienation of rights is a further indication that Roche transferred less than all substantial
rights in the patents-in-suit.
We reject Sandoz’s argument—also relied upon by
the dissent—that Immunex’s ability to convert the license into an assignment upon payment of $50,000
somehow evinces a transfer of all substantial rights.
See Appellants’ Br. 17; Dissent Op. at 5. This option
to purchase the patents-in-suit is merely one provision in the “totality of the transfer agreement” that
guides our inquiry. See Lonestar, 925 F.3d at 1231.
The Accord & Satisfaction makes clear that the purpose of the agreement was “to eliminate the continuing obligations to pay royalties to Roche” pursuant to
our decision in Alfred E. Mann, where we explained that the
holding in Speedplay turned on the licensee’s ability to frustrate
a licensor-initiated suit. See Alfred E. Mann, 604 F.3d at 1362.
We also highlighted the importance of the licensor’s ability to
control litigation “[o]nce its right to sue an infringer activates.”
Id. The dissent’s singular focus on Immunex’s ability to prevent
Roche’s secondary right to sue from vesting is, therefore, misguided. The proper inquiry must account for the parties’ respective rights once Roche’s secondary right to sue activates.

24a
the Immunex-Roche agreement. J.A. 25836. Under
the terms of the Accord & Satisfaction, Immunex paid
Roche tens of millions of dollars as consideration. The
additional consideration for an outright assignment
should be viewed in the context of the entirety of the
agreement.7
Given the totality of the Accord & Satisfaction, we
hold that Roche did not transfer all substantial rights
in the patents-in-suit to Immunex. As such, the Immunex Patents and the patents-in-suit are not “commonly owned,” and obviousness-type double patenting
does not apply. Accordingly, we decline to address
Sandoz’s remaining arguments regarding obviousness-type double patenting.8 We thus affirm the district court on this point.9
B. Written Description
“Written description is a question of fact, judged
from the perspective of one of ordinary skill in the art
as of the relevant filing date.” Falko-Gunter Falkner
7
We are likewise unpersuaded by Sandoz’s argument that
Roche cannot terminate the agreement once it has received payment. Appellants’ Br. 17; see also Dissent Op. at 5. This argument overlooks the fact that Immunex’s ability to terminate the
agreement is also restricted. Even though Immunex has the
right to terminate the Accord & Satisfaction, several provisions
of the agreement survive any such termination, including § 3.6,
which governs Roche’s secondary right to sue.

We note, however, that contrary to the dissent’s view
that the record here demonstrates “gamesmanship in prosecution,” Dissent Op. at 3, we see no clear error in the district court’s
finding that Immunex “acted in good faith to diligently prosecute” the patents-in-suit. Immunex, 395 F. Supp. 3d. at 421.
8

To the extent the district court considered parol evidence,
we consider this harmless error.
9

25a
v. Inglis, 448 F.3d 1357, 1363 (Fed. Cir. 2006). The
written description test involves “an objective inquiry
into the four corners of the specification from the perspective of a person of ordinary skill in the art. Based
on that inquiry, the specification must describe an invention understandable to that skilled artisan and
show that the inventor actually invented the invention claimed.” Ariad Pharm., Inc. v. Eli Lilly & Co.,
598 F.3d 1336, 1351 (Fed. Cir. 2010). As a question of
fact, written description is “to be reviewed under the
clearly erroneous standard.” Vas-Cath Inc. v. Mahurkar, 935 F.2d 1555, 1563 (Fed. Cir. 1991).
On appeal, Sandoz argues that the district court
erred in concluding that the priority application for
the patents-in-suit disclosed possession of the claimed
invention. Specifically, Sandoz argues that the priority application did not include written description
support for (1) the full-length p75 DNA sequence; and
(2) the claimed p75-IgG1 fusion protein. We disagree
with Sandoz on both points.
1. The ’013 Application Disclosed
Full-Length p75
According to Sandoz, the ’013 Application described
a fusion protein based on the truncated/mutated p75
DNA sequence disclosed in Figure 4 of the patent, not
the full-length p75 sequence used in etanercept. Appellants’ Br. 50–52. Sandoz contends that the fact
that the full-length p75 sequence was known in the
prior art is of no moment because the real issue is exactly which p75 sequence Roche had in its possession
as of the time of the filing of the priority application.
Id. at 57. In Sandoz’s view, the district court’s finding

26a
of adequate written description impermissibly rests
on information outside the patent.
Immunex responds that sequence identification
numbers for p75 are mentioned in the specification,
and, as its witness testified, those sequences would
have led a person of skill (“POSA”) to the complete p75
sequence using GenBank, a well-known genetic sequence database that houses a collection of all publicly
available DNA sequences. Appellees’ Br. 63–64. Immunex further points to the reference in the specification to the Smith 1990 publication, which, in its view,
would have directed a skilled artisan to the full-length
p75 sequence.
We agree with Immunex. It is well-established that
a patent specification need not re-describe known
prior art concepts. See Capon v. Eshhar, 418 F.3d
1349, 1357 (Fed. Cir. 2005) (“The ‘written description’
requirement must be applied in the context of the particular invention and the state of the knowledge.”); see
also Zoltek Corp. v. United States, 815 F.3d 1302, 1308
(Fed. Cir. 2016) (“The written description need not include information that is already known and available
to the experienced public.”)). Operating under the
guidance of these principles, the district court
properly concluded that the inventors possessed the
full-length p75 DNA sequence. The specification identifies both p55 and p75 TNFRs. And, as the district
court noted, it “embraces allelic variants and DNA sequences resulting from deletions, substitutions, and
additions of one or more nucleotides of the sequences
provides in Figures 1 and/or Figure 4.” Immunex, 395
F. Supp. 3d. at 382 (citing ’182 patent, 4:1-5:24). Example 6 of the specification explains that the inventors isolated the 75 kDa full-length p75 TNFR. Id. at

27a
385 (citing ’182 patent, 15:30–39). We see no error in
the district court’s reliance on these disclosures to conclude that the inventors possessed full-length p75, not
just the truncated p75 disclosed in Figure 4.
Importantly, the district court also found that the
p75 sequence was known to a POSA at the time of the
invention. Id. According to the district court, the
Smith 1990 article, referenced in the priority application, shows that a POSA would have known the entire
p75 sequence at the time of the invention. The Smith
1990 article guided a POSA that the “entire nucleotide
sequence is available upon request and has been deposited with GenBank, accession number M32315.”
Id. (citing J.A. 26980). And, the district court pointed
to a July 1990 Roche publication, the Dembic article,
which also disclosed the entire p75 amino acid sequence. Id. The court also credited the testimony of
Immunex’s expert, who opined that a POSA would
have been encouraged from the disclosure in the priority application to look to Smith, and therefore, the
full-length p75 protein. Id. at 384. The district court
also pointed to the two C-terminus and N-terminus
p75 sequences disclosed in the specification and concluded that, in addition to Figure 4 and the reference
to Smith 1990, these two disclosed sequences would
have directed a POSA to the full p75 sequence at the
time of the invention. Although Sandoz criticizes this
finding, the district court credited expert testimony
that a POSA would be led to the complete p75 sequence using these disclosures. Id. Thus, Sandoz’s
argument that the district court erred by looking outside the four corners of the specification or engaged in
an “obviousness-based” written description analysis is

28a
without merit. The district court properly considered
how a POSA would understand the specification.
As to Sandoz’s arguments that later amendments
show that the Roche inventors did not have possession
of the full p75 sequence at the time of invention, the
district court correctly noted that actual reduction to
practice is not required to show possession. Immunex,
395 F. Supp. 3d. at 387–88. The court rejected
Sandoz’s arguments that these amendments added
new matter. We see no error in these findings.
Accordingly, we conclude that the district court did
not err in finding that the priority application disclosed and demonstrated possession of full-length p75.
2. The ’013 Application Demonstrates
Possession of the Claimed Fusion Protein
Sandoz also argues that the priority application did
not adequately demonstrate possession of the claimed
p75-IgG1 fusion protein. Sandoz repeats its arguments that the Figure 4 truncated sequence was “preferred,” and points out that to arrive at the claimed
invention, a POSA would have had to select the
“never-referenced” full Smith sequence. Appellants’
Br. 58–59. Sandoz also argues that the specification
disclosed a range of immunoglobulin classes, and even
if the IgG1 and exon-encoded hinge were described as
possible options, the priority application provided no
“blaze marks” that would have led a POSA to their selection. Id. at 59. Sandoz’s primary argument is that
the district court relied on the claims themselves as
evidence of the “required blaze marks.” Id. at 60.
Immunex responds that the specification identified
four preferred fusion proteins, including the claimed

29a
p75-IgG1 fusion protein, and that Example 11 provided the steps required to make these fusion proteins. Appellees’ Br. 68. And Immunex points to the
reference in the specification to deposited vectors,
which is an adequate description of the precise IgG1
sequence to be used in the claimed fusion proteins. Id.
We again agree with Immunex.
Contrary to Sandoz’s arguments, the district court’s
written description analysis was not premised on the
language of the issued claims. The district court correctly noted that the specification refers to the use of
deposited vectors that contain DNA sequences encoding the exon-defined hinge-CH2-CH3 region of the human IgG1 heavy chain. Immunex, 395 F. Supp. 3d at
386–87. And, the court noted that Example 11
teaches how to fuse a soluble TNF-binding fragment
directly to that hinge-CH2-CH3 region. Id. at 385 (citing ’182 patent, 9:3–8). Citing expert testimony, the
court concluded that Example 11 discloses this concept with p55, and a POSA would have followed that
example to create etanercept based on the claims and
specification. Id. Finally, the court noted that “the
IgG1 hinge-CH2-CH3 was also known in the prior art
as of August 1990.” Id. at 386.
The district court’s findings are supported by the asfiled specification and are not based on the language
of the issued claims. First, the district court noted
that the claim language “identifies the requisite elements of the subject invention,” but at the same time
it concluded that the examples further demonstrate
that the Roche inventors had possession. Id. Second,
as Immunex correctly points out, the as-filed patent
claims included claim 19, which claimed a fusion

30a
protein of a TNF-binding protein and IgG1 or IgG3.
Appellees’ Br. 69 (citing J.A. 25129).
Accordingly, we conclude that the district court’s
written description analysis is not clearly erroneous.
C. Obviousness
Obviousness is a question of law reviewed de novo,
with underlying factual questions reviewed for clear
error. Honeywell Int’l, Inc. v. United States, 609 F.3d
1292, 1297 (Fed. Cir. 2010). “The presence or absence
of a motivation to combine references in an obviousness determination is a pure question of fact.” Novartis AG v. Torrent Pharm. Ltd., 853 F.3d 1316, 1327
(Fed. Cir. 2017).
Sandoz appeals the district court’s obviousness
analysis, arguing that (1) the district court’s motivation to combine analysis erroneously focused on the
inventors’ subjective motivation rather than the
claims’ objective reach; and (2) the district court’s
analysis regarding objective indicia of non-obviousness was legally erroneous. As explained below, we
do not find Sandoz’s arguments persuasive.
1. Motivation to Combine
Sandoz challenges the district court’s finding that a
POSA would not have been motivated to either select
p75 or to combine it with an immunoglobulin. Appellants’ Br. 62. The district court concluded that a
POSA would be deterred from pursuing the claimed
combination by concerns of stimulating inflammation
and aggregation, the opposite effect from that needed
to treat inflammatory conditions like rheumatoid arthritis. According to Sandoz, this was legal error because the claims are not directed to treatment of any

31a
disease or condition, and because it was known that,
in addition to any therapeutic benefits, TNFRs and
TNFR/IgG fusion proteins were useful as diagnostic
and research tools as well. Sandoz also points out that
the specification does not mention rheumatoid arthritis or contain any data regarding treatment efficacy.
Appellants’ Br. 62. Sandoz argues that this contravenes the teachings of KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398 (2007) that “neither the particular motivation nor the avowed purpose of the patentee controls. What matters is the objective reach of the
claim.” Id. (citing KSR, 550 U.S. at 419).
Immunex responds that it was Sandoz’s burden to
prove motivation to combine, and at trial, Sandoz focused on these therapeutic goals as evidence of motivation to combine. Appellees’ Br. 71–72. Immunex
points to Sandoz’s trial arguments that focused on the
use of TNFR-IgG1 fusion proteins for treatment of autoimmune disorders. Id. According to Immunex, this
focus on therapy made sense, because certain asserted
claims cover pharmaceutical compositions, not “research tools.” Id. at 73. Immunex argues that the district court properly focused on the evidence presented
and found that a POSA would not have been motivated to select the components of etanercept. Id. at
73–74. We agree with Immunex that the district
court’s analysis was not legally erroneous.
Although Sandoz and the amici criticize the district
court’s focus on the therapeutic anti-inflammatory effect of TNFR binding proteins, that focus was a result
of the arguments and evidence presented at trial and
in the parties’ post-trial submissions. For example, in
its post-trial brief, Sandoz presented the dispute
about motivation as limited to the following question:

32a
“Would a person of ordinary skill in the art in August
1990 have been motivated to construct a fusion protein of the p75 extracellular region fused to the hingeCH2-CH3 of a human IgG1—i.e., etanercept?” J.A.
60195. Sandoz’s own post-trial “findings of fact” focused on the fact that, at the time of the invention,
several diseases were associated with overactive TNF,
and that there was a tremendous interest in studying
TNF activity and inhibition to provide a therapeutic
benefit. J.A. 60081–84 (“To a POSA [prior art] references provide a strong incentive to identify TNF inhibitors that may have therapeutic use.”). Likewise,
Sandoz emphasized that a POSA would have considered fusing soluble receptors (like the p75 extracellular domain) advantageous for many reasons, including extending the half-life of the soluble receptor to
prevent it from being rapidly lost from the patient’s
blood stream into the urine. J.A. 60084–86. Finally,
Sandoz focused on the primary asserted prior art reference (Immunex’s ’760 patent) to argue that a POSA
would have been motivated to modify the disclosures
of that reference to create etanercept. J.A. 60086–97.
In its post-trial submissions, Sandoz addressed the
fact that the prior art “suggests using TNF-binding
proteins as a tool in ‘diagnostic assays for TNF.’” See,
e.g., J.A. 60083. It also noted that “the asserted claims
are not directed to any specific treatment or in vivo
effects and only require the fusion protein to, at most,
specifically bind TNF . . . Such fusion protein would
indisputably be useful for in vitro testing and diagnostics at a minimum.” J.A. 60123. And, Sandoz noted
that the claims at issue do not require any therapeutic
effect. J.A. 60137–38. But these arguments were presented in response to Immunex’s arguments that a

33a
POSA would be discouraged from creating a TNFRhuman IgG1 fusion protein because of concerns of aggregation and effector functions.
The focus of
Sandoz’s motivation to combine argument remained
the therapeutic benefits of the claimed invention, and
it was not error for the district court to frame its analysis accordingly.
We conclude that the district court’s analysis regarding motivation to combine was not legally erroneous because the treatment of illnesses that involve
TNF is a stated objective of the claimed invention; the
arguments at trial were focused on therapeutic effects
of the claimed invention (and not on their benefits as
diagnostic and research tools); and at least two of the
asserted claims are directed to pharmaceutical compositions. On this record, the district court properly
weighed the evidence presented and concluded as a
matter of fact that a POSA would be dissuaded from
selecting or combining the components as claimed.
We identify no clear error in this finding.
2. Objective Indicia of Non-Obviousness
Sandoz argues that the district court incorrectly analyzed the required nexus between the claims and the
objective indicia of non-obviousness, such as clinical
success, long-felt need, and failure of others. Appellants’ Br. 63–64. Sandoz further argues that the court
did not properly consider evidence of simultaneous invention, as shown by earlier patents claiming etanercept, including Immunex’s Jacobs ’690 patent. Id.
Sandoz’s arguments are without merit.
As Immunex correctly argues, “there is a presumption of nexus for objective considerations when the patentee shows that the asserted objective evidence is

34a
tied to a specific product and that product is the invention disclosed and claimed in the patent.” WBIP,
LLC v. Kohler Co., 829 F.3d 1317, 1329 (Fed. Cir.
2016) (quotations omitted); Appellees’ Br. 75–76.
Nexus is appropriately presumed in this case where
the court concluded that the claims are directed to the
active ingredient in Enbrel® and its method of manufacture. The district court found that there was a sufficient nexus between the claimed invention and the
various objective indicia of non-obviousness. Immunex, 395 F. Supp. 3d at 401–05. Sandoz failed to
rebut the presumption of nexus.
As to simultaneous invention, Immunex correctly
notes that the district court found that three of the alleged instances of “simultaneous invention” were directed to different fusion proteins, not etanercept. Id.
at 407; see also Appellees’ Br. 76. As to invention by
Immunex, the court properly noted that the “patent
applications were already pending when Immunex
created etanercept in November or December 1990.
Immunex’s subsequent decision to license the Patents-in-Suit from Roche demonstrates etanercept’s
inventive nature and undermines an obviousness
finding.” Id. at 408. Finally, as we have discussed
above, the district court correctly concluded that the
Jacobs ’690 patent does not cover etanercept, but is
directed to fusion proteins with an unmodified constant region. It also issued from a continuation-inpart filed two years after the original applications for
the patents-in-suit. At bottom, Sandoz’s arguments
regarding objective indicia are merely disagreements
with the district court’s weighing of the evidence. We
see no clear error in the district court’s findings regarding the objective indicia of non-obviousness.

35a
III. CONCLUSION
We have considered the parties’ remaining arguments and find them unpersuasive. For the foregoing
reasons, we affirm the district court’s judgment that
Sandoz has not shown that the patents-in-suit are invalid.
AFFIRMED

36a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
IMMUNEX CORPORATION, AMGEN
MANUFACTURING, LIMITED,
Plaintiffs-Appellees
HOFFMANN-LA ROCHE INC.,
Plaintiff
v.
SANDOZ INC., SANDOZ INTERNATIONAL
GMBH, SANDOZ GMBH,
Defendants-Appellants
2020-1037
Appeal from the United States District Court for the
District of New Jersey in No. 2:16-cv-01118-CCC-MF,
Judge Claire C. Cecchi.
REYNA, Circuit Judge, dissenting.
The majority determines that obviousness-type double-patenting does not apply here because appellee
Immunex is not a common owner of the patents-insuit. The majority’s common ownership determination hinges on its interpretation of the 2004 Accord &
Satisfaction between Roche1, the licensor of the patents-in-suit, and Immunex, the exclusive licensee.
Because I interpret the 2004 Accord & Satisfaction as
an effective assignment of the patents-in-suit to Immunex, I would hold that Immunex is a common
Roche was a party in the district court litigation but has
not entered its appearance in this appeal.
1

37a
owner for obviousness-type double patenting purposes. I would also hold that Immunex’s patents-insuit are invalid for obviousness-type double patenting
in view of Immunex’s previously issued U.S. Patent
No. 7,915,225 (“the ’225 patent”) under the one-way
test. For this reason and the reasons discussed below,
I respectfully dissent.
I also provide additional views concerning the applicability of the one-way test for ODP purposes.
I. Common Ownership
Obviousness-type double-patenting (“ODP”) is a judicially created doctrine designed to prevent a party
from extending its right to exclude through claims in
a later-filed patent that are patentably indistinct from
claims in a commonly-owned earlier filed patent. In
re Longi, 759 F.2d 887, 892 (Fed. Cir. 1985). A preliminary step for determining whether the doctrine of
ODP applies is whether the patents at issue are commonly owned. See Eli Lilly & Co. v. Barr Labs., Inc.,
251 F.3d 955, 968 (Fed. Cir. 2001); see also Longi, 759
F.2d at 895. The parties dispute whether appellee Immunex is a common owner of the patents-in-suit such
that the doctrine of ODP would be triggered.
Here, the majority accepts appellant Sandoz’s novel
theory that the “all substantial rights” test from the
Section 281 context can be used to determine common
ownership for ODP purposes. Maj. Op. at 11. Specifically, the majority explains that:
[w]here, as here, [Immunex] ultimately controls prosecution of both sets of patents, the
“all substantial rights” test aids in preventing
the unjustifiable issuance of claims that are

38a
patentably indistinct from claims already
owned by that party. Under these circumstances, looking to the “all substantial rights”
test achieves the proper balance between deterring gamesmanship in prosecution, on the
one hand, and avoiding any chilling effect on
routine collaborations and licensing between
parties working in the same field of research,
on the other.
Id. at 14–15 (emphasis added).
While I commend the majority for adopting the “all
substantial rights” test, the majority’s adoption of
that test was for naught. In applying the test, the majority permits the type of gamesmanship it sought to
prevent—gamesmanship in prosecution which could
result in unjustified extension of patent rights. Here,
under the 2004 Accord & Satisfaction, Roche transferred to Immunex the sole right to control prosecution, an exclusive license, the absolute right to exclude
Roche from commercializing the claimed inventions,
the first right to sue, and the right to nullify any
Roche-initiated suit by issuing a royalty-free license.
Specifically, Immunex’s sole right to control prosecution is significant in the ODP context, since the doctrine of ODP is meant to prevent applicants from receiving patents that extend the life of their existing
patents. See In re Hubbell, 709 F.3d 1140, 1145 (Fed.
Cir. 2013). The facts here reveal why.
When under Roche’s control for almost ten years,
the applications from which the patents-in-suit issued
did not claim the etanercept fusion protein, but rather
a different fusion protein and a mutated version of
etanercept. However, once Immunex retained control

39a
of prosecution, Immunex amended the applications to
claim etanercept, which Immunex itself had claimed
in its own patents and which was an active ingredient
in Immunex’s Enbrel® product. Thus, thanks to its
prosecution efforts, Immunex has effectively extended
to 2029 its right to exclude public use of the etanercept
fusion protein via the patents-in-suit (which Immunex
effectively owns in all material respects). Given this
backdrop, I would hold that Immunex effectively owns
the patents-in-suit for ODP purposes.
The majority, however, reasons that Roche remains
the true owner for ODP purposes because under the
2004 Accord & Satisfaction, Roche retained a secondary right to sue and a right to veto an Immunex-initiated assignment. See Maj. Op. at 18–20. However, as
explained below, Roche’s retained rights are illusory,
and, thus, do not interfere with Immunex’s control to
practice and enforce the patents-in-suit.
“[L]abels given by the parties do not control” the allsubstantial-rights inquiry. A123 Sys., Inc. v. HyrdoQuebec, 626 F.3d 1213, 1218 (Fed. Cir. 2010). Rather,
the court looks to the “substance” of the written agreement “rather than formalities or magic words.” Lone
Star Silicon Innovations LLC v. Nanya Tech. Corp.,
925 F.3d 1225, 1229 (Fed. Cir. 2019). Specifically, if
the licensor’s only remaining rights in the patents-insuit are “illusory,” then the licensor has effectively
transferred all substantial rights to the licensee. See
Speedplay, Inc. v. Bebop, Inc., 211 F.3d 1245, 1251
(Fed. Cir. 2000). A licensor’s right is illusory if it
“would not hinder [the licensee’s] enjoyment of the patent rights in any meaningful way.” Id. In other
words, the licensor’s right is illusory for ownership
purposes if it does not meaningfully interfere with the

40a
licensee’s control and enforcement of the patents at issue. See id.
Here, Roche’s two retained rights, i.e., a secondary
right to sue and a right to veto an Immunex-initiated
assignment, are illusory because these rights do not
prevent Immunex from enjoying the patents-in-suit in
any meaningful way. Id. Specifically, pursuant to the
2004 Accord & Satisfaction, Immunex can at any time
nullify Roche’s rights by ordering Roche to assign the
patents-in-suit to Immunex upon payment of $50,000.
J.A. 25840. Once Immunex forces Roche’s hand,
Roche has no choice but to assign the patents-in-suit
to Immunex, leaving Roche with no rights at all. Id.
(“If requested . . . Roche shall execute an assignment
of [the patents].” (emphasis added)). Roche cannot
terminate this arrangement for any reason. J.A.
25848 (“Roche will have no right to terminate this [Accord & Satisfaction] for any reason.”). Thus, if Immunex disagrees with Roche’s decision to initiate suit
or Roche’s decision to veto an assignment, Immunex
can undo Roche’s decisions by simply obtaining official
ownership of the patents-in-suit.
Additionally, the record shows that Immunex’s payment of $50,000 to Roche does not meaningfully hinder Immunex’s enjoyment of the patents-in-suit but
rather is a self-executing formality. First, the evidence shows Roche did not value its retained rights.
During negotiations for Immunex’s “license,” Roche
was willing to formally assign the patents-in-suit at
no additional cost. Specifically, Roche’s former Senior
Counsel, who drafted and negotiated the Roche-Immunex 2004 Accord & Satisfaction on behalf of Roche,
testified that “Roche wouldn’t have had a problem if
[Immunex] had asked for an assignment [and] not to

41a
charge them the $50,000 from day one.” J.A. 28335.
Yet, Roche included the $50,000 clause at the insistence of Immunex. Second, that Immunex would have
to pay Roche $50,000 is not a meaningful hinderance
to Immunex’s enjoyment of the patents-in-suit.
Speedplay, 211 F.3d at 1251. The record shows that
$50,000 is a de minimis amount for Immunex. Consider that Immunex paid approximately $45 million
for its alleged “license.” Additionally, etanercept, the
fusion protein claimed by the patents-in-suit, earned
$1.9 billion in revenue in 2004, the year Immunex received its “license.” Thus, it is unreasonable to conclude that $50,000 represents a meaningful hinderance to Immunex’s effective ownership over the patents-in-suit.
Roche’s secondary right to sue is rendered illusory
for an additional, separate reason. Pursuant to the
2004 Accord & Satisfaction, Roche’s “right” to commence a civil action for infringement is subject to Immunex’s approval. Specifically, under Section 3.6 of
the 2004 Accord & Satisfaction, Roche must notify Immunex of any infringement in a written request. Under Sections 3.1 and 3.5, Immunex may nullify
Roche’s right to sue by issuing a royalty-free sublicense to the alleged infringer. The sleight of hand
here is that Immunex retains full control over
whether Roche can initiate suit. To stop Roche from
pursuing an infringement action, Immunex need only
issue a royalty-free sublicense. See Speedplay, 211
F.3d at 1251 (noting that the licensor’s secondary
right to sue was “illusory” because the licensee “can
render [it] nugatory by granting the alleged infringer
a royalty-free sublicense”). Thus, “[e]ven though
[Roche] retained the right to sue, that right would not

42a
hinder [Immunex’s] enjoyment of the patent rights in
any meaningful way.” Id.
The majority reasons that Immunex’s sublicensing
right does not render Roche’s secondary right to sue
illusory. See Maj. Op. at 19–20. The majority’s sole
reason for concluding as much is that this case is different from Speedplay. The majority notes that
Speedplay “held that a licensee’s right to grant royalty-free sublicenses to defendants sued by the licensor
rendered illusory the licensor’s right to sue.” Id. (quoting Alfred E. Mann Found. for Sci. Research v. Cochlear Corp., 604 F.3d 1354, 1362 (Fed. Cir. 2010)) (emphasis in majority opinion).2 The majority reasons
that Speedplay does not apply because Immunex cannot issue a sublicense once Roche initiates suit, unlike
the Speedplay licensee. Id.

The majority asserts that the dissent “fails to account” for the
decision in Alfred E. Mann, “where we explained that the holding
in Speedplay turned on the licensee’s ability to frustrate a licensor-initiated suit.” Maj. Op. at 20. I respectfully disagree. The
majority reads Alfred E. Mann too narrowly. In Alfred E. Mann,
we acknowledged the Speedplay licensee’s “ability to settle licensor-initiated litigation by granting royalty-free sublicenses to the
accused infringers.” Alfred E. Mann, 604 F.3d at 1361. However,
like in Speedplay, we did not hold that a secondary right to sue
is rendered illusory only when a licensee can issue a royalty-free
sublicense post-suit. Rather, we explained that the illusory inquiry should be flexible, looking broadly to the “nature and scope
of the licensor’s retained right to sue.” Id. Contrary to the majority opinion, the key inquiry here should be whether a licensee
can issue a royalty-free sublicense, regardless of whether the
sublicense issued pre- or post-suit. For once the licensee issues
this unfettered sublicense, the licensee nullifies the licensor’s
secondary right to sue.
2

43a
That the Speedplay licensee could issue a sublicense
post-suit does not render Roche’s secondary right to
sue any less illusory. The focus of the Speedplay inquiry is whether a licensee can nullify a licensor’s secondary right to sue, pre-or post-suit. See Speedplay,
211 F.3d at 1251 (making no distinction as to the timing of issuance of a royalty-free sublicense); see also
Lone Star, 925 F.3d at 1231; AsymmetRx, Inc. v. Biocare Med., LLC, 582 F.3d 1314, 1320 (Fed. Cir. 2009);
Intellectual Prop. Dev., Inc. v. TCI Cablevision of Cal.,
Inc., 248 F.3d 1333, 1343 (Fed. Cir. 2001). Here, Immunex can issue a royalty-free sublicense within 180
days of receiving Roche’s written request to correct infringement and can thus prevent Roche’s secondary
right to sue from even vesting. If Roche ultimately
sues, it is only because Immunex allowed Roche to do
so. As in Speedplay, Roche’s secondary right to sue is
subject to neutralization and thus illusory.
Speedplay, 211 F.3d at 1251.
In sum, because Roche’s two retained rights in the
patents-in-suit are illusory, I would hold that Immunex owned the patents-in-suit for ODP purposes.
II. Additional Views
Although the majority does not reach this issue, I
briefly address the second prong to the ODP inquiry—
whether the patents-in-suit are patentably indistinct
from Immunex’s previously issued ’225 patent. Here,
the district court alternatively determined that the
doctrine of ODP does not apply because the patentsin-suit were patentably distinct from Immunex’s previously issued ’225 patent under the “two-way” test. I
would hold that the district court legally erred in

44a
applying the “two-way” test rather than the “one-way”
test.
The “two-way” test is a “narrow exception to the
general rule of the one-way test,” and it is only appropriate “where (1) a second-filed application issues
prior to a first-filed application, and (2) the PTO is
solely responsible for the delay in the issuance of the
first-filed application.” In re Janssen Biotech, Inc.,
880 F.3d 1315, 1325 (Fed. Cir. 2018) (internal quotation marks omitted) (emphasis added); see also In re
Basell Poliolefine Italia S.P.A., 547 F.3d 1371, 1376
(Fed. Cir. 2008) (noting that the two-way test is appropriate in “the unusual circumstance that the PTO
is solely responsible for the delay” (emphasis added)).
Whether the one-way test or two-way test applies is a
question of law. See In re Emert, 124 F.3d 1458, 1460
(Fed. Cir. 1997).
Here, the district court noted that both the PTO and
Roche/Immunex contributed to the delay in prosecution of the patents-in-suit yet concluded that the PTO
was “solely responsible” for the delay. This was legal
error. Our case law is clear that if the applicant’s “actions, or inactions, had a direct effect on the prosecution,” the PTO is not “solely” responsible for the delay,
and, thus, the “two-way test . . . does not apply.” In re
Basell, 547 F.3d at 1376; see also In re Fallaux, 564
F.3d 1313, 1316 (Fed. Cir. 2009); Eli Lilly, 251 F.3d at
968 n.7; In re Emert, 124 F.3d at 1461. Thus, both
Roche’s and Immunex’s contribution to the delay in
prosecution—mainly, their requests for extensions
and Roche’s delay in filing the etanercept claims during prosecution of the patents-in-suit—should have,
as a matter of law, triggered the application of the

45a
one-way test. See In re Basell, 547 F.3d at 1376; see
also Eli Lilly, 251 F.3d at 968 n.7.
There is no serious dispute that under the one-way
test—which asks whether the asserted patent claim is
obvious over or anticipated by the earlier-issued patent claim, see In re Hubbell, 709 F.3d at 1149—Immunex’s patents-in-suit are patentably indistinct
from Immunex’s ’225 patent. Thus, Immunex’s patents-in-suit are invalid for ODP in view of Immunex’s
’225 patent.
I respectfully dissent.

46a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
IMMUNEX CORP., et
al.,
v.

Civil Action No.:
16-1118 (CCC)
OPINION

SANDOZ INC., et al.
CECCHI, District Judge.
This patent case was brought by Plaintiffs Immunex
Corporation (“Immunex”), Amgen Manufacturing,
Limited (“Amgen”), and Hoffman-La Roche, Inc.
(“Roche”) (collectively, “Plaintiffs”) against Defendants Sandoz Inc., Sandoz International GmbH and
Sandoz GmbH (collectively, “Defendants”). Specifically, this action relates to the validity of claims 11-12
and 35-36 of U.S. Patent No. 8,063,182, which covers
the fusion protein etanercept, the active ingredient in
Immunex’s product Enbrel® (Joint Trial Exhibit
(“JTX”)-11 (“the ’182 Patent”)), and claims 3, 8, and 10
of U.S. Patent No. 8,163,522, which covers Enbrel®’s
method of manufacture (JTX-2 (“the ’522 Patent”))
(collectively, the asserted claims of the “Patents-inSuit”). See ECF No. 18 ¶ 9. Enbrel® is a brand name
biologic drug primarily used to treat rheumatoid arthritis. Id. ¶¶ 43, 45; ECF No. 688 at 11 ¶ 38.

JTX refers to the joint trial exhibits submitted by the parties.
These exhibits have been mutually agreed to as admissible.
1

47a
The Court held a two-week bench trial in this matter that began on September 11, 2018 and concluded
on September 25, 2018. ECF Nos. 621-622, 627, 629635. The parties submitted post-trial briefing and
proposed findings of fact and conclusions of law
through early November 2018. ECF Nos. 648 (corrected at 651-2 (“PFOF”)), 647 (corrected at 649-2 and
subsequently corrected at 650-1 (“DFOF”)), 645 (corrected at 651-1 (“Pls. Br.”)), 646 (corrected at 649-1
and subsequently corrected at 650-2 (“Defs. Br.”)). On
November 6, 2018, the parties submitted response
briefs. ECF Nos. 653 (“Pls. Reply Br.”), 652 (“Defs.
Reply Br.”). Closing arguments were held on November 19, 2018. ECF No. 656.
Enbrel® is the first U.S. Food and Drug Administration (“FDA”) approved fusion protein, approved in November 1998. PFOF ¶¶ 8, 10; DFOF ¶ 12. In August
2016, the FDA approved Defendants’ biosimilar version of Enbrel®, called Erelzi™. PFOF ¶ 11; ECF No.
688 at 11 ¶¶ 41-43. Defendants do not contest infringement of the ’182 Patent or the ’522 Patent. ECF
No. 619; PFOF ¶ 16. Therefore, the issue left for this
Court to decide is whether the Patents-in-Suit are invalid based on the following legal principles: (1) lack
of written description and enablement; (2) obviousness; and (3) obviousness-type double patenting.
This Opinion constitutes the Court’s findings of fact
and conclusions of law pursuant to Federal Rule of
Civil Procedure 52(a). The findings of fact are based
on the Court’s observations and credibility determinations of the witnesses who testified, and a thorough
review of all the evidence admitted at trial. While the
Court has reviewed all of the evidence presented,
given the length of the trial record, the Court includes

48a
references only to the evidence most pertinent to its
analysis. For the reasons set forth below, the Court
finds that the Patents-in-Suit are not invalid.
I. BACKGROUND
A. Parties
Plaintiff Roche was the first to file the patent applications that eventually issued as the Patents-in-Suit.
PFOF ¶ 51. Thereafter, Plaintiffs Amgen and Immunex obtained certain rights from Roche pertaining
to the Patents-in-Suit, pursuant to an agreement
called the Accord and Satisfaction, which included the
right to take over the prosecution of the relevant patent applications and the right to commence an infringement action. JTX-12. Plaintiff Roche is a New
Jersey corporation with its principal place of business
in New Jersey. ECF No. 18 ¶ 3. Plaintiff Immunex is
a Washington corporation with its principal place of
business in California and is a wholly owned subsidiary of non-party Amgen Inc. Id. ¶ 1. Plaintiff Amgen
is a corporation of the Territory of Bermuda with its
principal place of business in Puerto Rico and is also
a wholly owned subsidiary of non-party Amgen Inc.
Id. ¶ 2.
Defendant Sandoz Inc. is a Colorado corporation
with its principal place of business in New Jersey. Id.
¶ 4. Defendant Sandoz International GmbH is a German corporation with its principal place of business in
Germany. Defendant Sandoz GmbH is an Austrian
corporation with its principal place of business in Austria and is a subsidiary of Sandoz International
GmbH. Id. ¶¶ 6-7. Sandoz Inc. is the United States
agent for Defendants Sandoz International GmbH
and Sandoz GmbH. Id. ¶ 4. All parties are in the

49a
business of developing, manufacturing, marketing,
and selling biopharmaceutical products. Id.
B. Background of the Invention
The active ingredient in the biopharmaceutical drug
at issue in this case is a fusion protein known as
etanercept that is made by combining the extracellular region of a 75 kilodalton Human Tumor Necrosis
Factor Receptor with a portion of an IgG1 immunoglobulin. This section will first provide the scientific
background of the claimed invention, by explaining
each component and its purpose. Next, the Court will
provide the relevant research and patent history for
the Patents-in-Suit.
1. Scientific Background
Rheumatoid arthritis is an inflammatory auto-immune disease, i.e. a disease which occurs when “an
overactive immune system attacks an individual’s
own body,” and causes bone erosion, narrowing of joint
space, and irreversible joint damage. PFOF ¶¶ 32-33.
One way to treat rheumatoid arthritis is to “dampen
the immune system” and to “inhibit inflammatory reactions.” Id. ¶¶ 47-48. The immune system is made up
of various cells and antibodies that protect the body
from foreign invaders. Id. ¶ 23. Antibodies have two
primary functions: to bind foreign substances known
as antigens, and to recruit other immune system components to attack antigens. Id. There are many classes and subclasses of the antibody immunoglobulin or
“Ig”, of which IgG is one such class. Id. ¶¶ 99, 158.
There are four subclasses of human IgG: IgG1, IgG2,
IgG3, and IgG4. Id.

50a
IgG is a protein, and proteins are made up of “amino
acid residues connected in a strand called a ‘polypeptide,’ which folds into a three-dimensional shape that
imparts certain structural and functional characteristics.” Id. ¶ 20. Scientists can identify protein sequences based on the order of amino acids in the protein, with the beginning portion of the sequence referred to as the “N-terminus” and the end portion referred to as the “C-terminus.” Id. ¶¶ 21-22.
Structurally, an IgG protein, pictured below, consists of two heavy chains and two light chains, and
each chain contains variable and constant regions. Id.
¶ 24. The constant region is the portion that interacts
with other components of the immune system to elicit
a response. Id. The heavy chain constant region includes the CH1, the hinge, CH2, and CH3 domains
while the light chain constant region consists of the
CL domain. Id. The variable region of each chain,
labeled here as VH and VL, is what binds to the antigen. Id.

DFOF ¶ 208.

51a
Another component of the immune system, called a
cytokine, is a messenger protein that has a wide variety of functions, including to initiate an immune response. PFOF ¶ 27. The body makes dozens of distinct
cytokines, one of which is the Human Tumor Necrosis
Factor (“TNF”). Id. ¶¶ 27-29. TNF can be found in an
insoluble (membrane-bound) or soluble (free-flowing)
form. Id. ¶ 28. Originally discovered to kill tumor
cells, TNF has many functions and by August 1990,
scientists associated it with inflammatory diseases,
such as rheumatoid arthritis. Id. ¶¶ 28-33.
TNF plays a significant role in auto-immune disorders. Id. TNF binds to certain proteins called TNF
receptors (“TNFRs”) that extend beyond the outer
membrane of a cell. Id. ¶ 30. TNFRs have three regions: intracellular, transmembrane, and extracellular. Id. The extracellular portion of the TNFR, which
is the portion that “protrudes outside the cell,” can be
split off to produce a “soluble” fragment of the TNFR
that can bind to TNF. Id. ¶¶ 30, 76. Two types of
TNFRs have been identified, one that has a molecular
weight of approximately 55 kilodaltons (“p55 TNFR”
or “p55”) and one with a molecular weight of approximately 75 kilodaltons (“p75 TNFR” or “p75”). Id. ¶¶
36-38.
Etanercept, the active ingredient in the biopharmaceutical drug Enbrel® at issue here, is a fusion protein
that combines the extracellular region of a p75 TNFR
with an IgG1. Id. ¶ 9. “A fusion protein is made by
combining DNA sequences encoding parts of different
proteins into one sequence, introducing that sequence
into host cells, and using their natural internal machinery to produce the desired fusion protein.” Id. ¶ 19.
Specifically, etanercept is a “dimeric fusion protein

52a
consisting of the extracellular region of the p75 TNF
receptor” which, as the parties have stipulated, is
“fused to the exon-encoded ‘hinge-CH2-CH3’ of the
constant region of a human IgG1 antibody heavy
chain.” Id. ¶ 9; DFOF ¶ 93; ECF No. 688 at 20 ¶ 68.
Etanercept works by binding to and neutralizing excess TNF in patients with rheumatoid arthritis,
thereby reducing the auto-immune inflammatory response. PFOF ¶ 244. The graphic below depicts images of a p75 TNFR and an IgG1 on the left-hand side
and etanercept on the right-hand side. The Patentsin-Suit cover etanercept and the method of making
etanercept. Id. ¶ 76.

DFOF ¶¶ 208, 214.
2. Research and Patent History
By 1990, “there was a high level of interest in studying TNF and investigating whether targeting TNF
with a TNF-binding protein would provide a therapeutic benefit by inhibiting the binding of TNF to its
cell-bound receptors.” DFOF ¶¶ 1, 14. At that time,
scientific evidence pointed to at least two TNFRs expressed by the human body: p55 and p75 TNFR.
PFOF ¶¶ 37-38; DFOF ¶ 2. In April 1990, researchers

53a
at Roche (the “Roche Inventors”2) published the complete amino acid sequences for the p55 TNFR and the
cDNAs3 encoding it. PFOF ¶ 39; DFOF ¶¶ 15, 16; JTX21 at 1. In May 1990, Immunex published an article
containing the complete amino acid sequence for p75
and therein stated that the researchers isolated a
cDNA clone of the receptor. PFOF ¶ 40; Smith, C.A.,
et. al., A Receptor for Tumor Necrosis Factor Defines
an Unusual Family of Cellular and Viral Proteins,
Science 248: 1019-23 (1990) (JTX-24) (“Smith 1990”);
DFOF ¶ 4. Several months later in July 1990, the
Roche Inventors published the complete amino acid
sequence for the p75 TNFR and part of its encoding
cDNA. PFOF ¶ 39; Dembic, Z. et al., Two Human TNF
Receptors Have Similar Extracellular, But Distinct Intracellular, Domain Sequences, Cytokine 2(4): 231-37
(1990) (JTX-23) (“Dembic 1990”); DFOF ¶ 30.
Around the same time that the Roche Inventors
were publishing studies on the amino acid sequences
in p55 and p75 TNFR, they were also exploring the
possibility of TNFR-Ig fusion proteins. PFOF ¶ 46.
The Roche Inventors were ultimately successful in
creating fusion proteins using both p55 and p75
TNFRs. Id. ¶ 49. The initial fusion protein used an
IgG3 immunoglobulin, however the Roche Inventors’
The Roche Inventors were Manfred Brockhaus, Reiner Gentz,
Zlatko Dembic, Werner Lesslauer, Hansruedi Lötscher, and
Ernst-Jurgen Schlaeger.
2

“cDNA” stands for complementary DNA. The Roche Inventors
converted amino acid peptide sequences into DNA sequences and
used those DNA sequences as probes to create primers that
would allow the Roche Inventors to “fish” out cDNAs encoding
TNF receptors out of a cDNA library. PFOF ¶¶ 38-39; DFOF ¶¶
15-16.
3

54a
“pathway of experimental work leading to a TNFR fusion protein” also contemplated fusion proteins with
IgG1 and IgG2 immunoglobulins. Id. ¶¶ 50, 58-68.
On August 31, 1990, the Roche Inventors filed a patent application in Europe bearing Application No.
90116707 (“EP ’707 Application”) and on September
13, 1990, they filed a U.S. Patent with Application No.
07/580,013 (“’013 Application”). Id. ¶ 51. The Patentsin-Suit claim the benefit of the ’013 Application and
priority to the European ’707 Application. Id. The Patents-in-Suit, as well as the EP ’707 Application and
the ’013 Application, encompass a p75 TNFR-IgG1 fusion protein, but because the parties differ in their assessments of the patent specifications and validity of
the claimed invention, further details on the Patentsin-Suit will be discussed below. Id. ¶¶ 50-53; DFOF ¶¶
36-37.
C. Patents-in-Suit and Relevant Prosecution History
1. The ’182 Patent
The ’182 Patent, entitled “Human TNF Receptor Fusion Protein,” issued on November 22, 2011 and expires on November 22, 2028. PFOF ¶ 74; DFOF ¶ 83.
The asserted claims “define a fusion protein consisting
of parts of two different proteins: the extracellular region of p75 fused to all of the domains of the human
IgG1 constant region other than the first domain.”
PFOF ¶¶ 74-76; see also ’182 Patent (JTX-1) col. 39:6067, 42:26-34.
The initial ’013 Application was abandoned, and
U.S. Application No. 08/965,640 (“’640 Application”)
was filed on July 21, 1993 as a continuation. PFOF ¶

55a
57; DFOF ¶¶ 38-39. The ’640 Application was subject
to a restriction requirement by the United States Patent and Trademark Office (“USPTO”) and in response Roche elected to pursue claims related to the
p55 fusion protein, which issued as U.S. Patent No.
5,610,279 (“’279 Patent”) on March 11, 1997. PFOF ¶
57; DFOF ¶¶ 39-40; ECF No. 688 at 6 ¶ 9. As a result
of the restriction, Roche then filed two divisional applications on May 19, 1995: U.S. Application No.
08/444,790 (“’790 Application”), which issued as the
’182 Patent, and U.S. Application No. 08/444,791 (the
’791 Application”), which issued as the ’522 Patent.
See PFOF ¶ 57; DFOF ¶ 41.

In 2004, prior to issuance of the ’182 Patent, Amgen
and Immunex acquired the exclusive right to prosecute the Patents-in-Suit, among other rights, from
Roche pursuant to an Accord and Satisfaction between non-party Amgen Inc., Immunex, and Roche.
JTX-12 at 4-6, Article 3, ¶¶ 3.1-3.6; see also PFOF ¶ 34;
DFOF ¶¶ 54, 58, 62. Those rights were later consolidated in Immunex by a separate agreement. JTX-14.

56a
In 2005, Immunex amended the ’790 Application in
response to a USPTO office action requiring the ’790
Application to come into consonance with the restriction requirement. PFOF ¶ 285; DFOF ¶ 73. The
’790 Application was again amended in 2006. PFOF ¶
144; DFOF ¶ 74. Despite the amendments, the ’790
Application was rejected “for failing to comply with
the written description requirement and as obvious
over the applied prior art,” and the rejection was appealed to the Board of Patent Appeals and Interferences (“BPAI”). Plaintiffs’ Trial Exhibit (“PTX”)-6.456
(“BPAI Opinion”). The BPAI reversed the examiner’s
rejection. PTX-6.456 at 9 (BPAI Opinion reversing rejection by examiner). The ’182 Patent then issued on
November 22, 2011. See generally ’182 Patent (JTX1).
2. The ’522 Patent
The ’522 Patent, entitled “Human TNF Receptor,”
issued on April 24, 2012 and expires on April 24, 2029.
PFOF ¶ 74; DFOF ¶ 83. The asserted claims “define a
method of producing [the] fusion protein” defined in
the ’182 Patent. ’522 Patent (JTX-2) at 47-48 (claims
3, 8, 10); PFOF ¶ 75. The ’522 Patent issued from the
’791 Application, which was filed on May 19, 1995 as
a divisional of the ’640 Application, along with the ’790
Application which issued as the ’182 Patent. PFOF ¶
57; DFOF ¶ 48.
Prior to the ’522 Patent’s issuance, Amgen and Immunex amended the ’791 Application in 2004, 2007,
and 2010 to include several references related to the
full amino acid sequence for p75. See, e.g., ’522 Patent
(JTX-2) col. 3:1-3, Fig. 5; DFOF ¶¶ 78-80. Like the
amendments to the ’182 Patent, these amendments

57a
were triggered by two USPTO actions, which rejected
the ’791 application for obviousness and insufficient
written description. PTX-7.351. Despite the amendments, the ’791 Application was still rejected, and that
rejection was eventually overcome by citing the ’790
Application BPAI Opinion which dealt with similar issues. PFOF ¶ 323; JTX-4 at 4952-53. The ’522 Patent
then issued on April 24, 2012. See generally ’522 Patent (JTX-2).
II.

ISSUES TO BE DECIDED

Prior to the commencement of trial, Defendants advised that they did not contest infringement of the Patents-in-Suit. ECF No. 619. As discussed above, the
parties also stipulated that the term “all of the domains of the constant region of a human immunoglobulin IgG[1] heavy chain other than the first domain of said constant region” is construed as meaning
“the exon-encoded ‘hinge-CH2-CH3’ region of human
[IgG/IgG1].” ECF No. 688 at 20 ¶ 68. Accordingly, the
question before this Court is whether the ’182 and ’522
Patents are invalid due to lack of written description
and enablement, obviousness, and obviousness-type
double patenting.
III. DISCUSSION
Issued patents are presumed valid. See 35 U.S.C.
§ 282(a). To rebut this presumption, Defendants bear
the burden of proving invalidity by clear and convincing evidence. Titan Tire Corp. v. Case New Holland,
Inc., 566 F.3d 1372, 1376 (Fed. Cir. 2009) (“Because of
this presumption, an alleged infringer who raises invalidity as an affirmative defense has the ultimate
burden of persuasion to prove invalidity by clear and
convincing evidence, as well as the initial burden of

58a
going forward with evidence to support its invalidity
allegation.”).
A. Written Description and Enablement
(35 U.S.C. § 112)
A patent specification “shall contain a written description of the invention.” 35 U.S.C. § 112. The specification must “reasonably convey[] to those skilled in
the art that the inventor had possession of the claimed
subject matter as of the filing date.” Ariad Pharm. Inc.
v. Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir. 2010).
The test for written description “requires an objective
inquiry into the four comers of the specification from
the perspective of a person of ordinary skill in the
art.”4 Id. “[W]hether a patent complies with the written description requirement will necessarily vary depending on the context. Specifically, the level of detail
required . . . varies depending on the nature and scope
of the claims and on the complexity and predictability
of the relevant technology.” Id. (citation omitted).
When reviewing the patent according to these principles, “[w]ritten description is a question of fact, judged
from the perspective of [a POSA] as of the relevant filing date.” Falko-Gunter Falkner v. Inglis, 448 F.3d
1357, 1363 (Fed. Cir. 2006) (citing Vas-Cath, Inc. v.
Mahurkar, 935 F.2d 1555, 1563-64 (Fed. Cir. 1991)).
Additionally, as to enablement, a patent specification must describe “the manner and process of making
and using [the invention], in such full, clear, concise,
and exact terms as to enable any person skilled in the
art to which it pertains . . . to make and use the same
A person of ordinary skill in the art will hereinafter be referred
to as a “POSA.”
4

59a
. . . .” 35 U.S.C. § 112. Moreover, enablement requires
that the specification teach a POSA “how to make and
use the full scope of the claimed invention without undue experimentation.” Martek Bioscis. Corp. v. Nutrinova, Inc., 579 F.3d 1363, 1378 (Fed. Cir. 2009) (citation omitted). A patentee need not “include in the
specification that which is already known and available to [a POSA]” and “not every last detail is to be described, else patent specifications would turn into production specifications, which they were never intended to be.” Koito Mfg. Co. v. Turn-Key-Tech, LLC,
381 F.3d 1142, 1156 (Fed. Cir. 2004) (citation omitted). “Enablement is a question of law involving underlying factual inquiries.” Falkner, 448 F.3d at 1363
(citing Genentech, Inc. v. Novo Nordisk A/S, 108 F.3d
1361, 1365 (Fed. Cir. 1997), In re Wands, 858 F.2d
731, 737 (Fed. Cir. 1988)).
Defendants argue that the Patents-in-Suit are invalid because their specifications (1) lack a sufficient
written description of the invention and (2) do not enable a POSA to make or use the invention. Defs. Br.
at 20-35. By contrast, Plaintiffs contend that the specifications are adequate, and that Defendants failed to
prove their written description or enablement claims
by clear and convincing evidence. Pls. Br. at 12-21.
In support of their arguments, the parties relied
heavily on the testimony of the following four witnesses: (1) Defendants’ expert Daniel Capon, Ph.D.,
(2) Defendants’ expert Carl P. Blobel, M.D., Ph.D., (3)
Plaintiffs’ expert James Naismith, Ph.D, and (4)
Plaintiffs’ expert Hansruedi Loetscher, Ph.D.5 For the
Defendants’ expert Daniel Capon, Ph.D. has 37 years of experience in the field of biotechnology, including at Genentech, Inc.,
5

60a
reasons set forth below, the Court finds that Defendants failed to prove invalidity based on the written description and enablement requirements by clear and
convincing evidence, and therefore the Patents-inSuit are not invalid under 35 U.S.C. § 112.
1. The Specifications Meet the Written Description Requirement
Defendants argue that the specifications are deficient because they neither sufficiently describe
etanercept nor convey that the Roche Inventors had
possession of etanercept, and that further, the specifications in conjunction with the claims do not direct a
POSA to the specific embodiment of etanercept. Defs.
Br. at 20-32. Plaintiffs counter that the necessary elements of the claimed invention are adequately described throughout the specifications, were known
and available prior to August of 1990, and that the
specifications adequately describe the novel
Cell Genesys, Inc., Xenotech, Inc., and ViroLogic, Inc. Defendants’ expert Carl P. Blobel, M.D., Ph.D. is a Professor of Medicine, Physiology, and Biophysics at the Weil Medical College of
Cornell University and Virginia F. and William R. Salomon
Chair in Musculoskeletal Research and Director of the Arthritis
and Tissue Degeneration Program at the Hospital for Special
Surgery. ECF No. 688 at 131 ¶¶ 43-44. Plaintiffs’ expert James
Naismith, Ph.D. is a Professor of Structural Biology at the University of Oxford in the United Kingdom who has more than 20
years of research experience on the structure and function of proteins. Id. at 126-127 ¶¶ 35-37. Dr. Naismith’s post-doctoral research at the Howard Hughes Medical Institute in Dallas, Texas
focused on proteins specifically involved in TNF signaling. Id.
Plaintiffs’ expert Hansruedi Loetscher, Ph.D., an inventor of the
Patents-in-Suit, worked at F. Hoffman-La Roche AG from 1984
through 2016, where he most recently served as the Global Head
of Neuroscience Discovery. Id. at 117 ¶¶ 1-3.

61a
combination of those elements to create etanercept.
Pls. Br. at 13-21. Therefore, Plaintiffs contend that
the specifications demonstrate possession and the patents properly direct a POSA to etanercept. Id.
The ’182 Patent claims a fusion protein consisting of
the extracellular portion of the p75, as well as the
exon-encoded hinge, CH2 and CH3 domains of human
IgG1, while the ’522 Patent claims the method of making the fusion protein. ’182 Patent (JTX-1) col. 39:1442:34; 9/18 AM (Naismith) Tr. at 89:2-12, 91:8-14; ’522
Patent (JTX-2) col. 45:44-48:4. The patent specifications of the ’182 and ’522 Patents identify soluble fragments of p75 TNFR as one of two TNF binding proteins, i.e. p55 and p75, used in TNFR-IgG fusion proteins and include both figures and examples that are
referenced in the parties’ arguments. There are multiple figures in the Patents-in-Suit that provide nucleotide sequences for the TNF binding protein. See generally ’182 Patent (JTX-1); ’522 Patent (JTX-2). In analyzing the specifications, it appears that Figure 1 of
the specifications relates to a p55 TNFR and Figure 4
relates to a p75 TNFR.6 Figure 4 is a “[n]ucleotide sequence . . . and deduced amino acid sequence . . . for
cDNA clones derived from” a p75 TNFR, which consists of a long combination of letters representing
those amino acids and related cDNA combinations.
’182 Patent (JTX-1) col. 2:60-62, Fig. 4. The specifications additionally include multiple examples pertaining to a TNFR-IgG fusion protein. In the examples,
both the ’182 and ’522 Patents notably discuss and disclose two nucleotide sequences for portions of p75—
In the ’522 Patent, Figure 1 is broken down into Figures 1A-1D
and Figure 4 is broken down into Figures 4A-4D.
6

62a
SEQ ID NO: 10 (N-terminus) and SEQ ID NO: 7 (Cterminus).
The Patents-in-Suit disclose using “especially preferred vectors” pCD4-Hγl (DSM 5314, deposited on
Apr. 21, 1989) and pCD4-Hγ3 (DSM 5523, deposited
on Sept. 14, 1989) “[f]or the expression of proteins
which consist of a soluble fragment of non-soluble
TNF-BP [binding protein] and an immunoglobulin
fragment, i.e. all domains except the first of the constant region of the heavy chain.” ’182 Patent (JTX-1)
col. 8:56-9:8. The specifications further state that “the
present invention embraces not only allelic variants,
but also those DNA sequences which result from deletions, substitutions and additions from one or more
nucleotides of the sequences given in FIG. 1 or FIG. 4”
and yield TNF-binding proteins. ’182 Patent (JTX-1)
col. 5:17-22; ’522 Patent (JTX-2) col. 5:29-34. The Patents-in-Suit also reference the Smith 1990 article—
the Immunex publication that includes the complete
amino acid sequence for p75. ’182 Patent (JTX- 1) col.
5:22-24; ’522 Patent (JTX-2) col. 5:34-37.
a) The Requisite Components of the Fusion
Protein Were Disclosed in the Specifications and Known Prior to August 1990
The Court finds that the specifications of the Patents-in-Suit sufficiently describe the components of
etanercept. A patent must include sufficient details
such that a POSA could understand the subject invention and recognize that the inventor possessed it. Ariad, 598 F.3d at 1351. However, this requirement
does not necessarily mean that the specification of the

63a
patent must include every nuanced detail.7 Indeed,
“[a] patent need not teach, and preferably omits, what
is well known in the art.” Falkner, 448 F.3d at 1365
(quoting Spectra-Physics, Inc. v. Coherent, Inc., 827
F.2d 1524, 1534 (Fed. Cir. 1987)); see also Capon v.
Eshhar, 418 F.3d 1349, 1357-58 (Fed. Cir. 2005) (holding that a patent’s specifications do not need to reiterate the structure, formula, or chemical name of a
claimed invention to satisfy the written description
requirement when that information is already known
in the field). The Court will first analyze the sufficiency of the description of p75, followed by the sufficiency of the description of the IgG1 portion of the fusion protein.
i. p75 Is Adequately Described
Analyzing the Patents-in-Suit, the Court finds that
p75 is sufficiently described. The specifications of the
Patents-in-Suit identify two TNF receptors, p55 and
p75, and further note that the invention embraces
Defendants contend that Plaintiffs ignore the controlling precedent in Ariad, and improperly ask the Court to venture outside
of the specifications to find the requisite written description.
Defs. Reply Br. at 12-14. In other words, Defendants assume distinct requirements for an adequate written description before
and after the Ariad decision. However, the precedent is clear that
sequences disclosed in the prior art need not be repeated and the
standard has not changed in that regard following Ariad. See
Falkner, 448 F.3d 1357; Capon, 418 F.3d 1349; see also Zoltek
Corp. v. United States, 815 F.3d 1302, 1308 (Fed. Cir. 2016) (postAriad case confirming that “written description need not include
information that is already known and available to the experienced public”) (internal quotation marks and citation omitted).
The Court finds that the specifications meet the requirements of
Falkner and Capon, which are still current and applicable law,
and are not inconsistent with Ariad.
7

64a
allelic variants and DNA sequences resulting from deletions, substitutions, and additions of one or more nucleotides of the sequences provided in Figure 1 and/or
Figure 4. ’182 Patent (JTX-1) col. 4:1-5:24. Sequence
identification numbers, which correspond to p75, are
mentioned throughout the specification (including the
examples therein) and in the claims, and Example 6
explains that the inventors isolated the p75 TNFR.
Id. col. 15:31-39.
Furthermore, the prior art demonstrates that the
p75 amino acid sequence was well known to a POSA
at the time of the invention. The Court may look to
prior art and trial testimony when determining what
a POSA would have known at the time of the invention. See, e.g., Ariad, 598 F.3d at 1351 (relying on expert testimony and examples of prior art to make written description determination); Falkner, 448 F.3d at
1365-66. The parties agreed that by August 1990, the
p75 TNFR was well known to a POSA. PFOF ¶¶ 8687; DFOF ¶ 2. Both the Immunex Smith article and
the Roche Dembic article, which were published in
May 1990 and July 1990 respectively, contain a full
recitation of the p75 amino acid sequence. PFOF ¶¶
89-91; Smith 1990 (JTX-24) at 3-4, Fig. 3B; Dembic
1990 (JTX-23) at 1-2. The Smith 1990 article, expressly referenced in the Patents-in-Suit, also notes
that “[t]he entire nucleotide sequence is available
upon request and has been deposited with GenBank,
accession number M32315.” Smith 1990 (JTX-24) at
3-4, Fig. 3B. GenBank is an amino acid repository
which can match partial amino acid sequences with
full corresponding sequences that have been deposited
with GenBank. See 9/18 AM (Naismith) Tr. at 62:716. Sequences are provided to GenBank as “an

65a
information deposit” in which the DNA sequence letters are submitted and an “accession number” is the
particular identification number assigned to each submitted sequence. Id. at 73:17-74:1. Similarly, the
Dembic 1990 article contains the entire p75 amino
acid sequence.8 See Dembic 1990 (JTX-23) at Fig. 1.
Ultimately, neither party contests that the prior art
“definitively identified two TNF receptors: the p55
and the p75” by August 1990. Defs. Br. at 21; PFOF
¶¶ 36-38. The parties further agree that Immunex scientists in May 1990 and later the Roche Inventors in
July 1990 published the full-length p75 TNFR before
the related European priority patent application was
filed in August 1990.9 DFOF ¶ 2; PFOF ¶¶ 39-41.

The Dembic 1990 article also explains that TNFRs that have a
molecular weight of either 65 kD or 75 kD are both the p75 protein because the 65 kD TNFR is simply a derivative of p75. Dembic 1990 (JTX-23) at 1. The authors of the Dembic 1990 article
arrived at this conclusion because both the 65 and 75 kD TNFRs
bound “the same monoclonal antibody.” Id.; see also 9/18 AM
(Naismith) Tr. at 80:9-81:5 (Dr. Naismith testifying that proteins
can gain or lose weight depending on glycosylation which “is the
addition of sugar molecules” and concluding that TNF receptors
with molecular weights of either 65 or 75 kD are both the p75
protein used in etanercept).
8

By April 1990, the Roche Inventors were the first to discover
that there were two distinct TNFRs that specifically bound to
TNF, p55 and p75. 9/17 (Loetscher) Tr. at 20:1-18, 26:8-28:8;
JTX-22 at 1. In May 1990, Immunex scientists published the
Smith 1990 article containing the p75’s complete amino acid sequence and included a figure caption indicating that a cDNA sequence encoding the p75 had been deposited with GenBank.
Smith 1990 (JTX-24) at 3, Fig. 3B; 9/17 (Loetscher) Tr. at 38:624; see also 9/13 AM (Capon) Tr. at 85:3-11. Two months later, in
July 1990, the Roche Inventors published the complete amino
9

66a
Defendants, however, argue that because the specifications refer to Smith 1990 as an example of a “deletion” when compared to Figure 4 (when it was instead
the complete sequence of Figure 4), a POSA would not
have considered using the Smith 1990 sequence. Defs.
Br. at 25. Upon review of the disclosure, the Court
does not believe a POSA would have been deterred
from looking to Smith 1990 for use in the fusion protein due to the term “deletion.” Just prior to that language in the specification, the invention embraces not
only deletions but also all allelic variants including
“substitutions and additions.” ’182 Patent (JTX-1) col.
5:17-24. In fact, a POSA may have been encouraged
to look to an outside reference, such as the Smith 1990
article, that was expressly called out by name in the
specification. 9/18 PM (Naismith) Tr. at 52:23-53:8.
At trial, Plaintiffs’ expert Dr. Naismith credibly testified that the Smith 1990 reference would have communicated to the ordinary artisan that “[i]f you hadn’t
read the paper, go and read it. They’d think it was a
landmark paper.”10 Id. Thus, the Court agrees with

acid sequence of p75 and a cDNA sequence encoding part of it,
resulting in the Dembic 1990 article. 9/17 (Loetscher) Tr. at 33:133:23; Dembic 1990 (JTX-23) at 2, Fig. 1.
Defendants misconstrue part of Dr. Naismith’s testimony as
indicating that he believed the Smith reference would have discouraged a POSA from using the known complete p75 TNFR sequence. Defs. Br. at 25; 9/18 PM (Naismith) Tr. at 22:19-23,
23:20-24. Plaintiffs correctly counter that because Figure 4 is a
smaller sequence than the Smith 1990 sequence, a POSA would
have understood the passage to suggest Smith 1990 as a source
of p75 TNFR to use in the fusion protein. Pls. Br. at 21; 9/18 PM
(Naismith) Tr. at 22:15-24:3,52:19-53:8 (“I simply went and read
the paper to figure out what a scientist would do . . . Smith is a
10

67a
Plaintiffs that despite the word “deletion,” a POSA
would have been directed to Smith 1990 and therefore
the full p75 protein.
In further support of Plaintiffs’ arguments, Example 7 contains the N-terminus sequence designated
SEQ ID NO: 10. ’182 Patent (JTX-1) col. 16:22-30.
SEQ ID NO: 10 matches the first 18 amino acids at
the N-terminus of the known p75 as published in
Smith 1990. Id.; Smith 1990 (JTX-24) at 3, Fig. 3B.
The Patents-in-Suit also include the 18 amino acid sequences close to the C-terminus of the known p75 protein designated SEQ ID NO: 7. These two disclosed
nucleotide sequences for p75 would have, in addition
to Figure 4 and the Smith 1990 reference, directed a
POSA to the full p75 sequence at the time of the invention. See ’182 Patent (JTX-1) col. 39:13-42:34
(claims of the ’182 Patent specifically requiring the
use of the protein that “comprises the amino acid sequence . . . (SEQ ID NO: 10)”), col. 4:18-20, 16:36-38
(identifying SEQ ID NO:7 as a partial amino acid sequence that makes up a preferred protein); ’522 Patent (JTX-2) col. 45:44-48:4 (claims of the ’522 Patent
specifying the amino acid described in SEQ ID NO:
10), col. 4:31-32, 16:57-58 (listing SEQ ID NO:7 as an
example of a partial amino acid sequence to be used
in a preferred protein); see also ’182 Patent (JTX-1)
col. 5:17-22. With respect to the sequence identification numbers for SEQ ID NO: 10 and SEQ ID NO: 7,
Plaintiffs’ expert Dr. Naismith credibly testified that
there was less than a one-in-a-million chance that the
wrong protein would be produced by GenBank if an
complete sequence, which was known; and Figure 4 is a partial
sequence of many less residues.”).

68a
inquiry was made to retrieve the complete p75 sequence corresponding to one of the sequence identification numbers.11 See 9/18 AM (Naismith) Tr. at
68:13-16. Moreover, Dr. Naismith testified that there
was “zero chance” that any other protein would be returned by GenBank if the request included both SEQ
ID NO: 10 and SEQ ED NO: 7 at that time. Id. at
68:17-25; see also 9/12 PM (Blobel) Tr. at 14:6-12 (Defendants’ expert Dr. Blobel also testifying “if you took
a sequence of this receptor, you would presumably get
this receptor back. That’s how it works.”).12 Accordingly, the Patents-in-Suit sufficiently describe the
Defendants cite to In re Wallach, 378 F.3d 1330 (2004) to argue
that a partial amino acid sequence is insufficient to describe the
full protein when it could not be used to obtain the full protein.
However, given Dr. Naismith’s testimony that the partial sequences as disclosed would allow a POSA to obtain the fulllength sequences from Genbank, the Court finds that the instant
case is distinguishable from Wallach.
11

Defendants’ expert, Dr. Capon, opined that a POSA would not
have been able to obtain the correct full p75 sequence from GenBank if provided with the sequence identification number or the
accession number as listed in Smith 1990 because there would
have been too many results. Dr. Capon, however, stated that he
was not qualified to opine in that area and conceded that he had
only first accessed GenBank five years after 1990. 9/13 PM (Capon) Tr. at 20:1-6, 20:18-23, 21:10-22:25 (Capon testifying that “I
don’t know what the requirements of accessing something from
GenBank were . . . I’m not qualified to testify [about that]” and
“the first time I believe I accessed GenBank was in 1995”). By
contrast, Plaintiffs’ expert, Dr. Naismith, limited his opinion to
what a POSA would have been able to obtain “at [the] time” of
the invention. See 9/18 AM (Naismith) Tr. at 68:21-25. The timing is significant here because the sequence match is based on
the smaller number of deposits GenBank had in 1990. See id. at
68:2-9. Thus, the Court accords little weight to Dr. Capon’s opinion on this topic.
12

69a
subject fusion protein using the known full p75 sequence.
ii. IgG1 and the Fusion Protein are Adequately Described
The disclosure of the second necessary part of
etanercept was also adequate because the specification clearly refers to use of deposited vectors (including “pCD4-Hγl”) that contain DNA sequences encoding the exon-defined hinge-CH2-CH3 region of a human IgG1 heavy chain as confirmed by the declaration
of Defendants’ expert, Jeffery Kittendorf, Ph.D., an
expert in biochemistry and a Research Assistant Scientist at the University of Michigan Life Sciences Institute. ECF No. 688 at 132 ¶ 47; JTX-16 at 32-34; see
also 9/17 (Loetscher) Tr. at 57:4-58:25.
Example 11 then provides a recipe to fuse a soluble
TNF-binding fragment directly to that exon-encoded
hinge-CH2-CH3 region of an IgG heavy chain, thereby
providing a POSA with the full fusion protein. ’182
Patent (JTX-1) col. 9:3-8; 9/17 (Loetscher) Tr. at 56:1057:13, 58:18-59:5; 9/18 AM (Naismith) Tr. at 54:16-21,
90:10-91:7, 92:21-93:8. This example illustrates utilizing a cDNA fragment that encodes the extracellular
region of a TNF-binding protein, and describes the
process generally using a p55 TNFR as an illustration.
9/17 (Loetscher) Tr. at 56:5-58:24. A POSA would
have followed that example and used p75 to create
etanercept based on the claims in the Patents-in-Suit
and the specification.13 See 9/12 PM (Blobel) Tr. at 8:5Defendants claim that Centocor Ortho Biotech, Inc. v. Abbott
Labs., 636 F.3d 1341 (Fed. Cir. 2011) supports their argument
that the Patents-in-Suit are invalid because they contend that
the specifications do not describe the claimed fusion protein.
13

70a
10:2, 14:6-12; 9/17 (Loetscher) Tr. at 56:5-58:24; 9/18
AM (Naismith) Tr. at 67:14-68:25, 72:15-73:1, 73:1774:8, 94:10-14, 94:20-95:6.
Moreover, the parties agree that the IgG1 hingeCH2-CH3 was also known in the prior art as of August
1990. DFOF ¶ 167; PFOF ¶¶ 99-100. Thus, because
the p75 TNFR sequence and the IgG1 sequence were
well known and accessible to a POSA, a reproduction
of the known sequences was not required to be explicitly included in the Patents-in-Suit in order to claim a
novel combination of those sequences. See Falkner,
448 F.3d at 1368 (holding that genes and their nucleotide sequences must not be recited or incorporated by
reference where “accessible literature sources . . . as
of the relevant date” contain such information, because “forced recitation of known sequences in patent
disclosures would only add unnecessary bulk to the
specification”).

Defs. Br. at 31; Defs. Reply Br. at 14. Centocor is distinguishable
from the instant case for two main reasons. First, unlike in
Centocor, the Patents-in-Suit issued from divisional applications
as a result of a USPTO restriction requirement, so the specification should contain disclosures from the parent application. See
Pfizer, Inc. v. Teva Pharms. U.S.A., Inc., 518 F.3d 1353, 1359
(Fed. Cir. 2008); Manual of Patent Examining Procedure
(“MPEP”) § 201.06; see also supra at I.C. Second, amendments
here were made as a result of that restriction requirement and
in accordance with an agreement between Plaintiffs Roche, Immunex, and Amgen, and not, as in Centocor, in an “attempt to
claim as its own the fruit of [Defendants’] innovative work.”
Centocor, 636 F.3d at 1349. Further, Centocor is consistent with
the Court’s analysis above that the written description requirement is satisfied.

71a
b) The Patents-in-Suit Demonstrate Possession
To the extent Defendants assert that Roche14 never
made the claimed p75-IgG1 fusion protein, such contention is legally insignificant. Ariad holds that “the
written description requirement does not demand either examples or an actual reduction to practice; a
constructive reduction to practice that in a definite
way identifies the claimed invention can satisfy the
written description requirement.” 598 F.3d at 1352
(citing Falkner, 448 F.3d at 1366-67). Here, as discussed, the claim language identifies the requisite elements of the subject invention—the p75 fusion protein combined with the hinge-CH2-CH3 domains of
IgG1—and, in conjunction with the specification, provides support of possession. Many of the examples in
the Patents-in-Suit further demonstrate that the
Roche Inventors had possession.15 Accordingly, the
Court is persuaded that the Roche Inventors had possession of the invention based on the specifications of

As mentioned above (I.C.1.), Immunex acquired the rights to
prosecute the Patents-in-Suit pursuant to a 2004 Accord and Satisfaction agreement between Roche and Immunex, which will be
discussed in further detail below in Section III.C.2.a.
14

Defendants assert that a POSA would not believe that the
Roche Inventors had possession of a p75 fusion protein because
none of the examples in the Patents-in-Suit are directed to a p75
TNFR or a p75-IgG1 fusion protein. Defs. Br. at 26-27. In opposition, Plaintiffs contend that the specifications, including the examples, disclose the known p75 protein and the p75 TNFR-IgG1
fusion protein “because [the specification in each Patent-in-Suit]
identifies both parts of the claimed p75-IgG1 fusion protein . . .
and describes how to combine them as the claims specify.” Pls.
Br. at 14-18.
15

72a
the Patents-in-Suit, including the examples within
the specifications, and the claims.
c) Amendments to the Prosecution File History Did Not Add New Material
The Court will now consider two amendments to the
Patents-in-Suit, both of which were approved by the
USPTO. First, in 2006, Amgen and Immunex, with
assistance from Roche, deposited a plasmid containing a p75 cDNA with American Tissue Culture Collection (“ATCC”)16, and gave it a designation of PTA
7942. PFOF ¶¶ 93-94; DFOF ¶ 75; see also JTX- 81 at
19-20 (Plaintiffs’ witness Dr. Wemer Lesslauer, one of
the Roche Inventors involved in this project, testifying
that Amgen deposited the p75 plasmid, Roche assisted
in the deposit, and it was designated PTA 7942). That
same year, Immunex amended the specification of the
’790 application (which resulted in the ’182 Patent) to
include a reference to Immunex’s PTA 7942 plasmid
deposit. 9/13 AM (Capon) Tr. at 50:9-51:1; JTX-16 at
29-31. The cDNA for the PTA 7942 plasmid encodes
the full-length p75 TNFR, which is identical to the sequence reported in Smith 1990. JTX-16 at 29-31. Second, in 2007, Immunex amended the specification of
the ’791 application (which resulted in the ’522 Patent) to expressly incorporate the Smith 1990 protein
by reference. Defs. Br. at 33. Immunex also inserted
a new figure, Figure 5, that included the Smith 1990
sequence (in addition to the reference previously included). Id.
ATCC is a public depository where cell structures and microorganisms are deposited and made available for public access.
See “Who We Are,” https://lgcstandards-atcc.org/en/About/About
_ATCC/Who_We_Are.aspx (last visited August 9, 2019).
16

73a
Defendants assert that Immunex’s decision to take
over the prosecution and amend the specifications of
the Patents-in-Suit is a clear indication that the original specifications as filed by Roche were deficient. Id.
at 32-33. In addition, Defendants assert that the
USPTO did not have complete information when it approved the amendments because the Plaintiffs informed the USPTO that the Smith 1990 protein was
“99% identical” to Figure 4, when in fact Defendants
contend the two proteins are meaningfully different.
Id. at 33-34. Defendants argue that Plaintiffs’ amendments added what amounts to “new matter” not previously included in the application, which is a ground
for a patent rejection.17 See 35 U.S.C. § 132 (“No
Defendants appear to have relinquished their anticipation argument, which focused on PTA 7942, because their expert on the
topic, Dr. Blobel, did not provide related testimony at trial and
their post-trial briefs relegate the substance of the argument to
a footnote. See Defs. Br. at 35 n. 5. Invalidity based on anticipation “requires that the same invention, including each element
and limitation of the claims, was known or used by others before
it was invented by the patentee.” Hoover Grp., Inc. v. Custom
Metalcraft, Inc., 66 F.3d 299, 302 (Fed. Cir. 1995). To the extent
they maintain an anticipation argument, Defendants argue that
claims 35-36 of the ’182 Patent, which specifically claim the 2006
PTA 7942 plasmid deposit, are invalid for anticipation because
Enbrel® had been on sale and publicly available for 8 years at
the time of the amendment. Defs. Br. at 35 n.5. The USPTO
Board’s allowance of the amendment and specific finding that it
did not add new matter is “entitled to an especially weighty presumption of correctness in a subsequent validity challenge based
on the alleged introduction of new matter.” See Commonwealth
Sci. & Indus. Research Org. v. Buffalo Tech. (USA), Inc., 542 F.
3d 1363, 1380 (Fed. Cir. 2008) (quotation marks omitted); see
also Pls. Br. at 16 n.2. Accordingly, insofar as Defendants maintain this anticipation argument, it has not been proven by clear
and convincing evidence.
17

74a
amendment shall introduce new matter into the disclosure of the invention.”); see also Defs. Reply Br. at
16 n.13.
By contrast, Plaintiffs contend that each amendment did not contain new matter and that the USPTO
properly approved the valid amendments. Pls. Br. at
16 n.2, 18 n.3; PFOF ¶¶ 11-14. Plaintiffs maintain
that the amendment to include the PTA 7942 plasmid,
which encodes the sequence reported in Smith 1990,
complies with USPTO rules because the plasmid (1)
contains p75 cDNA that was identified in the original
specification as variants of a “DNA sequence[] encoding the 75/65 kD,” (2) was made prior to August 1990,
and (3) was properly deposited with the ATCC in
2006. Pls. Br. at 16 n.2; PFOF ¶¶ 11-14.
The Court concludes that the deposited PTA 7942
plasmid was properly made part of the Patents-inSuit and did not add new matter. The Federal Circuit
has held that where information is properly deposited
with an independent source, “[a]n accession number
and deposit date add nothing to the written description of the invention” and are therefore, not considered new matter. In re Lundak, 773 F.2d 1216, 1223
(Fed. Cir. 1985). Further, the deposited plasmid was
appropriately made part of the Patents-in-Suit as of
their 1990 priority dates because as long as the plasmid was described in the application as-filed, it is not
considered new and may be deposited at any time before issuance. See In re Lundak, 773 F.2d at 1222-23
(“Lundak’s deposit with the ATCC, which was made
after filing but prior to issuance of his patent, and
which is referred to in his specification, meets the
statutory requirements.”); see also 37 C.F.R.
§ 1.804(a) (“ . . . an original deposit . . . may be made

75a
. . . subject to § 1.809, during pendency of the application for patent.”).18 The Court agrees with the USPTO
and finds that the properly deposited plasmid reflected one of these variants and did not add new matter. Accordingly, the Court finds that Plaintiffs’
amendments adequately described the inventive concept at the time of the invention.
As to the Smith 1990 incorporation, the Court does
not find that Immunex’s decision to amend is proof
that the original specifications were deficient. As discussed above, the Court finds that the Smith 1990 protein was sufficiently described when it was originally
referred to and did not need to be amended to expressly incorporate it by reference. See, e.g., Falkner,
448 F.3d at 1365 (finding that “the absence of incorporation by reference is not problematic.”). The Court
therefore finds that the amendments to the Patentsin-Suit were proper and do not alter the written description analysis.
2. The Specification Enables Etanercept
Finally, Defendants argue that the claims of the Patents-in-Suit are not enabled. DFOF ¶ 180; Defs. Br.
at 35. Plaintiffs assert that Defendants’ enablement
challenge fails because the Patents-in-Suit identify
both p75 TNFR and IgG1 (which were well-known),
sufficiently describe how to combine them to enable a
POSA to produce etanercept, and Defendants’ own experts concede that a POSA could have produced the
Defendants argue that the amendment occurred much sooner
in time in Lundak than in the instant case, however, the Court
has not been provided with any legal authority to suggest a time
limit on specification amendments during the course of prosecution of a patent. See Defs. Br. at 13 n. 11.
18

76a
claimed fusion protein without undue experimentation by using known methods as of August 1990. See
Pls. Br. at 2, 21-22; see also 9/12 PM (Blobel) Tr. at
53:19-56:13; 9/13 PM (Capon) Tr. at 61:22-62:16.
To be enabling, “[t]he specification must ‘enable one
of ordinary skill in the art to practice the claimed invention without undue experimentation.’” Transocean
Offshore Deepwater Drilling, Inc. v. Maersk Contractors USA, Inc., 617 F.3d 1296, 1305 (Fed. Cir. 2010)
(quoting Nat’l Recovery Techs., Inc. v. Magnetic Separation Sys., Inc., 166 F.3d 1190, 1196 (Fed. Cir. 1999)).
“Enablement is not precluded by the necessity for
some experimentation such as routine screening.” In
re Wands, 858 F.2d at 736-37. However, the experimentation needed to practice the art must not be undue. Id. at 737. The test for undue experimentation
“is not merely quantitative, since a considerable
amount of experimentation is permissible, if it is
merely routine, or if the specification in question provides a reasonable amount of guidance with respect to
the direction in which the experimentation should
proceed.” Id. To determine whether a disclosure
would require undue experimentation, courts should
consider the Wands factors, which include: (1) the
quantity of experimentation necessary; (2) the
amount of direction or guidance presented; (3) the
presence or absence of working examples; (4) the nature of the invention; (5) the state of the prior art; (6)
the relative skill of those in the art; (7) the predictability or unpredictability of the art; and (8) the
breadth of the claims. Id.
The Court finds that Defendants have failed to show
by clear and convincing evidence that the Patents-inSuit do not meet the enablement standard.

77a
Preliminarily, both parties agree to a POSA’s relative
skill in the art, and each party used nearly identical
definitions and qualifications for their respective hypothetical POSA. Compare 9/11 PM (Blobel) Tr. at
30:24-32:5 with 9/20 AM (Wall) Tr. at 18:6-25.19 Specifically, the parties’ experts agreed that the p75 protein and the exon-encoded hinge-CH2-CH3 portion of
the IgG1 immunoglobulin sequences were known before August of 1990, which is the initial date of the
applications. 9/11 PM (Blobel) Tr. at 14:19-15:5 (Dr.
Blobel noting that the claims in the ’182 Patent were
directed at “essentially etanercept”); 9/20 AM (Wall)
Tr. at 19:2-12, 92:16-93:2 (Dr. Wall explaining that
the components of etanercept were known by August
1990). Both of Defendants’ experts, namely Dr. Blobel
and Dr. Capon, agreed that a POSA in 1990 would
have been able to produce a fusion protein that is similar to etanercept. 9/12 PM (Blobel) Tr. at 55:20-56:5
(Dr. Blobel testifying that a POSA would have been
able to produce a fusion protein similar to etanercept
using “ordinary and routine methods utilized in the
art”); 9/13 PM (Capon) Tr. at 73:5-14 (Dr. Capon testifying to the same). These experts also testified that
the claim scope is both limited to and covers etanercept. 9/11 PM (Blobel) Tr. at 14:19-15:5; 9/13 PM (Capon) Tr. at 82:22-83:3. Regarding the state of the art
at the time of the invention, the parties explicitly
agreed that technology relating to recombinant DNA
Plaintiffs cite to expert Randolph Wall, Ph.D. as part of their
enablement argument. Dr. Wall is an expert in the fields of immunology, molecular biology, and antibody engineering. (ECF
No. 688 at 122 ¶ 22). Plaintiffs more heavily rely on his testimony
on obviousness and therefore he is fully introduced in the obviousness section of this Opinion.
19

78a
was developed by 1990 and allowed for the creation of
fusion proteins like etanercept. 9/12 PM (Blobel) Tr.
at 54:13-56:13 (Dr. Blobel testifying regarding the
state of the art in August 1990); see also ECF No. 688
at 65 ¶ 247.
Furthermore, the Patents-in-Suit, and in particular
the ’522 Patent, provide a POSA with sufficient guidance on how to make etanercept. Specifically, both
Patents-in-Suit explain to a POSA how to prepare a
cDNA encoding the extracellular region of the known
p75 protein. ’182 Patent (JTX-1) col. 16:22-48, 5:2224, 7:24-46; 9/18 AM (Naismith) Tr. at 60:13-62:6; 9/18
PM (Naismith) Tr. at 53:12-54:6; 9/20 AM (Wall) Tr.
at 93:14-94:16. The specifications also provide a
POSA with information regarding how to prepare a
cDNA encoding all of the domains of a human IgG1
constant region, except the first, including identifying
a publicly accessible exemplary vector pCD4-Hγl. ’182
Patent (JTX-1) col. 8:56-9:3; 9/20 AM (Wall) Tr. at
94:17-95:19.
Finally, Plaintiffs’ witnesses Dr. Naismith and Dr.
Loetscher credibly testified that the ’182 Patent directs a POSA to follow the recipe set forth in Example
11 contained in the specification. 9/17 (Loetscher) Tr.
at 56:5-9 (Dr. Loetscher noting that the example “describe[s] the process [of] how to make TNF receptor
fusion proteins”); 9/18 AM (Naismith) Tr. at 53:2254:2. Defendants’ expert Dr. Capon even appeared to
acknowledge that Example 11 in conjunction with the
prior art would have enabled a POSA to construct
etanercept. See 9/13 PM (Capon) Tr. at 72:3-73:14.
Hence, as Plaintiffs submit, a POSA could have easily
made the claimed fusion protein (i.e., a fusion protein
that had the extracellular region of the p75 receptor

79a
with an exon-encoded hinge and the CH2-CH3 region
of the IgG1 immunoglobulin) of the ’182 Patent in or
before August 1990 with only routine experimentation
by adapting Example 11 to make the claimed fusion
protein. 9/17 (Loetscher) Tr. at 58:18-59:5; 9/18 AM
(Naismith) Tr. at 93:12-22 (Dr. Naismith explaining
that a POSA would have been able to make Example
11 in August of 1990); 9/20 AM (Wall) Tr. at 95:17-19
(Dr. Wall testifying that a POSA would have “been
able to adapt Example 11 to make the claimed fusion
protein.”); JTX-82 (Lesslauer Deposition) at 298:1114, 17. The Court finds that based on this evidence,
Defendants have not met their burden of proving by
clear and convincing evidence that the Patents-in-Suit
fail to meet the enablement standard.
B. Obviousness (35 U.S.C. § 103)
To prove that an asserted claim of a patent is invalid
as obvious under 35 U.S.C. § 103, a patent challenger
bears the burden of establishing by clear and convincing evidence that the “differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to a
[POSA].”20 35 U.S.C. § 103(a); see also Pfizer, Inc. v.
Apotex, Inc., 480 F.3d 1348,1360-61 (Fed. Cir. 2007).
Obviousness is a question of law that is predicated on
several factual inquiries. See Graham v. John Deere
Co. of Kansas City, 383 U.S. 1, 17 (1966). Specifically,
there are four basic factual inquiries which concern:
(1) the scope and content of the prior art; (2) the level

The pre-America Invents Act version of 35 U.S.C. § 103 applies
to the Patents-in-Suit.
20

80a
of ordinary skill in the art;21 (3) the differences between the claimed subject matter and the prior art;
and (4) objective indicia (secondary considerations) of
non-obviousness, including unexpected results, success and praise in the industry, long-felt but unsolved
need, failure of others, and other indicia. See id.
Defendants assert that the Patents-in-Suit are invalid because they are obvious in view of prior art that
would have motivated a POSA to create etanercept
prior to the relevant patent applications.22 Defs. Br. at
35-43; see also Defs. Reply Br. at 19-22. At trial, Defendants asserted six obviousness combinations of
prior art references, two of which disclose the protein
sequence of, and the DNA sequence that encodes, the
p75 extracellular region (Smith 1990 and Immunex’s
U.S. Patent No. 5,395,760 (JTX-65) (the “Smith ’760
Patent”)). PFOF ¶ 147. The other asserted prior art
references disclose Ig fusion proteins, which combine
a receptor protein with various portions of an Ig heavy
chain. Id. Specifically, the first five (5) combinations
are the Smith ’760 in view of: (1) the Seed European
The parties agree as to the level of ordinary skill in the art.
Defendants present that a POSA is “a scientist with an M.D. or
a Ph.D. degree in biology, molecular biology, biochemistry, chemistry, or a similar field.” 9/11 PM (Blobel) Tr. at 30:14-31:18. Such
a person would “have one to two years of experience in the field
of immunology or molecular immunology, including experience
with cloning and expression of DNA, protein biochemistry on cell
culture, protein purification, and immunological assays.” Id.
Plaintiffs offered a definition that is not materially different. See
9/20 AM (Wall) Tr. at 18:5-22; Pls. Br. at 24.
21

The Court notes that the USPTO considered these prior art
references and concluded that the Patents-in-Suit were not obvious in light of these references. 9/12 AM (Blobel) Tr. at 33:2539:4; PTX-1089 at 19; PTX-6.456 at 7-8.
22

81a
Patent Application No. 0325262 (“Seed ’262”); (2)
Byrn, R. et al., Biological Properties of a CD4 Immunoadhesin, Nature 344: 667-70 (1990) (“Bryn 1990”);
(3) Watson, S. et al., A Homing Receptor-IgG Chimera
as a Probe for Adhesive Ligands of Lymph Node High
Endothelial Venules, J. Cell. Bio. 110: 2221-2229
(1990) (“Watson 1990”); (4) the Karjalainen European
Patent Application No. 0394827 (“Karjalainen ’827”);
and (5) the Capon U.S. Patent No. 5,116,964 (“Capon
’964”) in further view of Traunecker, A. et al., Highly
Efficient Neutralization of HIV with Recombinant
CD4-immunogloblin Molecules, Nature 339: 68-70
(1989) (“Traunecker 1989”). The sixth combination
was Smith 1990 in view of Watson. Id. ¶ 147 n.3. Defendants’ post-trial arguments regarding these prior
art references focus on motivation. Defs. Br. at 35
(“[T]he only real dispute as to obviousness of the asserted claims concerned motivation.”). The Court has
examined the asserted prior art references both alone
and in combination, as discussed below, to determine
motivation and whether it would have been obvious to
a POSA to create etanercept.
In addition, Defendants argue that certain secondary considerations prove, rather than refute, that the
Patents-in-Suit are invalid for obviousness. Id. at 4450. In support of their obviousness arguments, Defendants primarily rely on (1) Dr. Blobel, introduced
above; and (2) Arne Skerra, Ph.D, Chair of Biological
Chemistry at the Technical University of Munich,
Center of Life Sciences at Weihenstephan, Freising,
Germany. ECF No. 688 at 131-32 ¶¶ 43, 49.23
Plaintiffs assert that the testimony of Defendants’ expert Dr.
Blobel should be completely disregarded because he ignored the
23

82a
Plaintiffs contend that Defendants’ obviousness arguments fail because a POSA would not have been
motivated to create etanercept based on the prior art
and, in fact, would have actually been dissuaded by
the prior art to create a TNFR-Ig fusion protein to
treat inflammation. Pls. Br. at 22-23. Further, Plaintiffs counter each of Defendants’ secondary consideration arguments as set forth below and contend that
the secondary considerations support nonobviousness. Id. at 33-39. Plaintiffs rely on (1) Randolph
Wall, Ph.D., a Distinguished Professor in the Department of Microbiology, Immunology, and Molecular Genetics at the Molecular Institute, University of California at Los Angeles (UCLA) and the David Geffen
School of Medicine at UCLA, as an expert on obviousness (ECF No. 688 at 122 ¶ 22); and (2) Warner C.
Greene, M.D., Ph.D., the Founder and Director of the
Gladstone Institute of Virology and Immunology in
San Francisco and a Distinguished Professor of
agreed upon claim construction. Pls. Br. at 23-24; ECF No. 688
at 20 ¶ 68. While the parties agreed to construe the claim term
“all of the domains of the constant region of a human immunoglobulin IgG[1] heavy chain other than the first domain of said
constant region” as having a three-cysteine hinge (“the exon-encoded-hinge-CH2-CH3 region of human [IgG/IgG1]”), Dr. Blobel
inconsistently testified that a two-cysteine hinge would be within
the scope of the claims of the Patents-in-Suit. 9/12 AM (Blobel)
Tr. at 30:19-24; ECF No. 688 at 20 ¶ 68. Although an obviousness
analysis based on “an incorrect understanding of the claim construction” may be disregarded, the Court will still consider Dr.
Blobel’s testimony to the extent it is not inconsistent with the
agreed upon claim construction, including his testimony about
other fusion proteins referenced in the prior art and testimony
about what would have motivated a POSA to create etanercept
before August 1990. See Cordis Corp. v. Bos. Sci. Corp., 658 F.3d
1347, 1357-58 (Fed. Cir. 2011).

83a
Translational Medicine with over 40 years of experience in biomedical research, as an expert on etanercept’s effect on the immune system (Id. at 124-25 ¶ 29).
For the reasons discussed below, the Court finds
that Defendants have failed to prove by clear and convincing evidence that the Patents-in-Suit are invalid
based on obviousness pursuant to 35 U.S.C. § 103.
1. Scope of the Prior Art and Differences Between the Prior Art and the Claimed Invention
The Patents-in-Suit provide for a fusion protein,
etanercept (’182 Patent), consisting of the extracellular portion of a p75 TNFR combined with a three-cysteine, exon-encoded hinge-CH2-CH3 portion of an
IgG1, and a method of making this fusion protein (’522
Patent). See generally ’182 Patent (JTX-1) and ’522
Patent (JTX-2). Therefore, to prove obviousness, Defendants have to show by clear and convincing evidence that the claimed invention, which consists of a
precise combination of specific portions of p75 TNFR
and IgG1, would have been obvious to a POSA.
Defendants point to various scientific publications
and patent applications that they contend render the
claimed invention obvious. Some of these prior art references relate to p75 TNFRs—Smith 1990 and Smith
’760—and others disclose Ig fusion proteins without
p75—Capon 1989, Traunecker 1989, Seed ’262, Capon
’964, Byrn 1990, and Watson 1990. DFOF ¶¶ 208-09,
217-20. Defendants contend that a POSA would have
been motivated, when viewing these references alone
and in combination, to select p75 and IgG1 and combine them to create etanercept. Id.; Defs. Br. at 37-41.
According to Plaintiffs, these references would not

84a
have motivated a POSA to make the precise construct
of etanercept because there was no clear direction in
the prior art, and in fact, the prior art would have
taught away from creating etanercept. Pls. Br. at 2429. The Court will address the prior art concerning
both TNFRs and Ig fusion proteins individually and
then discuss the motivation to combine the two elements in the specific way necessary to create the
claimed invention.
a) The Prior Art Would Not Have Motivated a POSA to Select the Individual
Components of Etanercept, and in Fact
Taught Away from Using these Components
i. Selecting p75 TNFR
The Patents-in-Suit identify p75 TNFR as one of the
two components of etanercept, a fusion protein used
to treat rheumatoid arthritis. As noted above, rheumatoid arthritis is an inflammatory autoimmune disease that arises when an overactive immune system
attacks a person’s own body. PFOF ¶ 32; 9/12 AM
(Blobel) Tr. at 39:24-40:2. Chronic inflammation in
rheumatoid arthritis patients causes bone erosion and
also destroys tendons and ligaments. PFOF ¶¶ 33-34.
As such, scientists studying auto-immune disorders,
such as rheumatoid arthritis, in 1990 were seeking to
reduce inflammation by interrupting the body’s immune system. 9/20 AM (Wall) Tr. at 39:24-40:3.
According to scientists, there was a prevailing view
at the time that many cytokines, including TNF, were
thought to be involved in excess inflammation. PTX34 at 6 (“It is a misconception to think that TNF[] was
an obvious therapeutic target in the early 1990s since

85a
it is pro-inflammatory. . .”). As previously discussed,
cytokines are messenger proteins with a wide variety
of functions in the body. PFOF ¶ 27. TNF was one of
dozens of cytokines known in 1990. Id. ¶ 28. Critically, the prior art demonstrates that researchers at
the time were concerned that TNFRs could aggravate
pro-inflammatory responses by binding TNF and then
releasing it back into the body in active form, causing
inflammation. 9/20 AM (Wall) Tr. at 28:24-33:15. At
trial, Dr. Wall testified that this would be “a very undesirable outcome” for a POSA trying to block inflammation possibly caused by excess TNF. Id. Because
the treatment of auto-immune disorders was based on
trying to inhibit inflammation caused by the TNF response, a POSA would have been discouraged from using TNFR as a treatment option.
Additionally, a POSA in 1990 would have considered cytokines to be “poor therapeutic targets” and
therefore TNFR would not have been an obvious
choice. PFOF ¶ 149; 9/20 AM (Wall) Tr. at 20:4-10. By
August of 1990, the art had identified several cytokines and discovered that these cytokines were redundant, which means that they had “overlapping functions.” 9/20 AM (Wall) Tr. at 37:16-25. Because of this
redundancy, a POSA would not have considered any
individual cytokine to be a good therapeutic target because it was understood that if you blocked one cytokine, another cytokine would be able to fill in the missing function, thereby eliminating any beneficial effect.
Id. Moreover, cytokines, including TNF, were difficult
to study due to their many different roles in the body,
causing their function in treating various diseases to
remain unclear. Id. at 21:7-22:18. Furthermore, if a
POSA targeted cytokines at all, a POSA would have

86a
looked to a different cytokine, called IL-1, to treat inflammatory diseases because IL-1 was known in August 1990 to have stronger potential as a mediator in
rheumatic diseases. Id. at 23:17-24:14; PTX-10 at 8.
However, even if TNFR were chosen as the starting
point, it would not have been obvious to use a p75
TNFR. The parties agree that at least two TNF receptors were known as of August 1990, namely p55 and
p75. PFOF ¶¶ 36-37; DFOF ¶ 2. Much of the literature
at the time showed that p55 bound TNF with five
times greater strength than p75 and was superior in
neutralizing TNF. PFOF ¶ 153; JTX-47 at 3; 9/18 PM
(Greene) Tr. at 108:21-109:24. Equipped with this
knowledge, a POSA deciding to select TNFR to treat
pro-inflammatory diseases would have likely used
p55. Id. Finally, even assuming a POSA decided to
use p75 instead of p55, a POSA would have also had
to decide between the soluble and insoluble form of
p75, which could be a partial or full-length extracellular region of the p75 TNFR. PFOF ¶¶ 154, 157; 9/12
PM (Blobel) 15:21-17:6; Smith 1990 (JTX-24) at 4;
Smith ’760 Patent (JTX-65) col. 4:12-21, 9:17-60.
ii. Selecting IgG1
The second necessary element of etanercept is the
exon-encoded, three-cysteine hinge-CH2-CH3 domain
of an IgG1. At the time etanercept was being created
as a possible treatment for auto-immune disorders
like rheumatoid arthritis, researchers were also studying Ig fusion proteins as a viable treatment option to
combat the HIV/AIDS epidemic.
PFOF ¶ 171.
HIV/AIDS is a disease that greatly weakens or destroys the immune system so that the immune system
becomes unable to kill HIV-infected cells on its own.

87a
Id. ¶¶ 171-72. Therefore, the goal of HIV/AIDS treatment was to trigger pro-inflammatory responses in
the immune system to kill the HIV-infected cells
within the body. Id. ¶ 173.
By August of 1990, prior art related to HIV/AIDS
research demonstrated that Ig caused increased inflammation and aggregation, the opposite objective of
treatment for auto-immune conditions. According to
the prior art, Ig fusion proteins were effective in eliciting pro-inflammatory responses in the body, known
as effector functions. Id. ¶¶ 173-75; 9/18 PM (Greene)
Tr. at 72:13-74:13, 77:17-78:2. There are two pro-inflammatory effector functions, which are separate,
complex pathways by which the immune system kills
other cells. PFOF ¶ 26. First, the pathway known as
complement dependent cytotoxicity (“CDC”) pertains
to the effector functions trigged by the CH2 domain.
Id. ¶ 174. Second, the pathway known as antibody dependent cellular cytotoxicity (“ADCC”) refers to the effector functions triggered by the junction between the
CH2 domain and the hinge. Id. The HIV/AIDS research at the time demonstrated that Ig fragments in
fusion proteins successfully triggered both CDC and
ADCC effector functions within the immune system.
Id. ¶ 173; 9/18 PM (Greene) Tr. at 76:8-77:2.
Against this backdrop, a POSA studying auto-immune diseases would have avoided Ig because the inflammatory immune response elicited by Ig fusion
proteins was extremely undesirable. In fact, six of the
asserted prior art references cited by Defendants, all
of which discuss using Ig to increase inflammatory responses in the body, would have taught a POSA to
look away from Ig fusion proteins as a potential treatment option for auto-immune disorders. See Capon

88a
1989 (JTX-58), Traunecker 1989 (JTX-25), Seed ’262
(JTX-57), Capon ’964 (JTX-61), Byrn 1990 (JTX-56),
and Watson 1990 (JTX-59).24
For example, in his 1989 article, Defendants’ expert
Dr. Capon reported experimental results of CD4-Ig fusion proteins that successfully triggered pro-inflammatory immune responses in HIV-infected patients by
eliciting effector functions. JTX-58 at 4 (demonstrating that effector functions were “found in the constant
region of the heavy chain”). The Traunecker 1989
prior art reference found a similar result with CD4-Ig
fusion proteins using mouse IgG2a and mouse IgM
Although Watson 1990 (JTX-59) concerned studies outside of
the body for which effector functions would not be relevant and
therefore were not specifically discussed, similar constructs to
those discussed in Watson 1990 (e.g., Byrn 1990) were demonstrated through experimental evidence to have retained cell-killing effector functions. 9/20 AM (Wall) Tr. at 61:9-13, 259:12-22;
JTX 59 at 3, 8.
24

Defendants also cite to Karjalainen ’827, a European patent
application published in October 1990. JTX-60 at 1; PFOF ¶ 191.
The parties’ experts agreed that this reference is not prior art for
purposes of their analysis. 9/12 AM (Blobel) Tr. at 84:3-12; 9/20
AM (Wall) Tr. at 84:11-16. Moreover, Karjalainen ’827 is exempt
as prior art under § 103(c)(1) because the inventors of Karjalainen ’827 and the Patents-in-Suit “were at the time the
claimed invention was made . . . [both] subject to an obligation of
assignment to the same person,” F. Hoffmann-La Roche AG. 35
U.S.C. § 103(c)(1) (“Subject matter developed by another person
. . . shall not preclude patentability under this section where the
subject matter and the claimed invention were, at the time the
claimed invention was made, owned by the same person or subject to an obligation of assignment to the same person.”); 9/17
(Loetscher) Tr. at 21:11-13; JTX-3 at 875-79; JTX-4 at 706-10;
JTX-60 at 1. In any event, Karjalainen ’827 also taught use of a
CD4-Ig fusion protein to elicit effector functions to treat AIDS.
PFOF ¶ 192.

89a
sequences. JTX-25 at 1-2; 9/12 AM (Blobel) Tr. at
51:11-16; 9/18 PM (Greene) Tr. at 84:12-19; 9/20 AM
(Wall) Tr. at 56:24-57:13. Published in July 1989,
Seed ’262 described CD4-Ig fusion proteins designed
to treat HIV/AIDS patients and emphasized the importance of preserving effector functions to properly
combat HIV-infected cells. JTX-57 at 5. Similarly,
Capon ’964 described many different Ig fusion protein
configurations that were intended to retain effector
functions. JTX-61 col. 4:43-47; 9/12 AM (Blobel) Tr. at
60:24-61:13; PFOF ¶¶ 185-86. Moreover, Byrn 1990
provided experimental evidence demonstrating that a
protein with only a partial Ig hinge would still successfully induce ADCC effector functions. JTX 56 at
1-2; 9/12 AM (Blobel) Tr. at 70:18-71:16; 9/18 PM
(Greene) Tr. at 87:5-19. Based on these prior references, a POSA would have refrained from using Ig fusion proteins for anti-inflammatory treatments, which
sought to reduce effector functions in the body.
Defendants also assert that the Patents-in-Suit are
obvious in light of the combination of Watson 1990
and Smith 1990. PFOF ¶ 147 n.3. Smith 1990 disclosed the amino acid sequence of p75 TNFR but did
not suggest using p75 TNFR in a fusion protein.
DFOF ¶ 4. Moreover, Watson 1990 also did not contemplate a TNFR-Ig fusion protein and instead discussed a construct with a partial region of an Ig fused
with a receptor known as a lymphocyte homing receptor. JTX-59 at 1-3; 9/20 AM (Wall) Tr. at 61:9-13;
PFOF ¶ 194. Therefore, a POSA looking to these two
prior art references either individually or in combination would not have been motivated to create etanercept.

90a
Defendants further point to Capon ’964 and additional prior art, namely Brennan 1989, to assert that
researchers at the time were not concerned about the
negative effects from effector functions. DFOF ¶ 22627.25 However, prior art published in June 1990 shows
that effector functions were in fact a concern with Ig
fusion proteins at the time of the invention. See Gerd
Zettlmeissl, et al., Expression and Characterization of
Human CD4: Immunoglobulin Fusion Proteins, DNA
& Cell Biology 9: 347-53 (1990) (PTX-26 at 5-10) (discussing CD4-Ig fusion proteins created to treat
HIV/AIDS and reporting that “one of the most important issues confronting” Ig fusion proteins was “the
extent of autoimmune damage” caused by effector
functions); see also 9/12 AM (Blobel) Tr. at 81:1583:13. Additionally, a well-known immunology textbook by William E. Paul and Dr. Wall’s credible testimony further demonstrate that a POSA would have
expected that pro-inflammatory effector functions
would have been triggered when a fusion protein, like
etanercept, attached to a soluble TNF. See Paul, William E., Fundamental Immunology (2d ed., Raven
Press 1989) (PTX-3); 9/20 AM (Wall) Tr. at 46:1848:22, 49:6-53:8. Furthermore, the fact that the papers cited by Defendants did not report effector functions as problematic is reasonable in the context of
HIV/AIDS research where effector functions were a
desired result, rather than an obstacle. Thus, the
It appears that many of the prior art references cited by the
Defendants used to support the modification of Smith ’760 were
published prior to Smith ’760. Pls. Reply Br. at 12 (noting that
Traunecker 1989, Seed ’262, Capon ’964, and Byrn 1990 were
published before Smith ’760 and did not motivate the Smith ’760
inventors to remove the light chain or CHI domain).
25

91a
Court finds that a POSA would have expected from
the prior art that an Ig fusion protein could lead to
autoimmune damage caused by effector functions.
9/20 AM (Wall) Tr. at 39:14-40:9, 59:3-18; 9/18 PM
(Greene) Tr. at 90:25-91:16.
The prior art also taught that Ig fusion proteins
would cause another detrimental effect, known as aggregation, inpatients with inflammatory conditions.
Plaintiffs’ expert in immunology, Dr. Greene, opined
that an Ig fusion protein would likely cause aggregation—the formation of large immune complexes in the
human body—that would then lead to increased inflammation in the kidney, skin, and joints. 9/18 PM
(Greene) Tr. at 98:1-16, 137:4-12. Based on the prior
art, a POSA would have believed that an Ig fusion protein, like etanercept, would have likely aggregated
and caused an inflammatory response, as Defendants’
expert Dr. Blobel similarly opined. 9/18 PM (Greene)
Tr. at 70:17-71:2; see also 9/12 AM (Blobel) Tr. at
53:23-54:24 (testifying that researchers at the time
were intentionally creating CD4-Ig fusion proteins to
cause aggregation and attack infected cells). Therefore, a POSA would have refrained from selecting Ig
for the treatment of auto-immune disorders because it
was shown to increase aggregation, resulting in
heightened inflammation.
Additionally, a POSA seeking to avoid using Ig at
the time would have had a number of non-Ig options
to achieve desirable outcomes while avoiding effector
functions. PFOF ¶ 155. In fact, prior art at the time
suggested joining proteins with polyethelene glycol
(“PEG”), a non-Ig option that did not cause effector
functions and was also associated with longer halflives and better drug properties at that time. Id.; 9/20

92a
AM (Wall) Tr. at 68:19-70:24; see, e.g., Smith ’760 Patent (JTX-65) col. 10:39-44. By August 1990, numerous PEG-modified proteins were in clinical trials and
at least one PEGylated compound had been approved
by the FDA. PFOF ¶ 155; 9/20 AM (Wall) Tr. at 68:2270:24; see Smith ’760 Patent (JTX-65) col. 10:35-53.
Given that the prior art showed that Ig was increasing
inflammation, PEG was a more obvious choice to use
in a fusion protein than Ig.
Nevertheless, even if a POSA was undeterred by the
research that predicted an inflammatory response
and decided to create an Ig fusion protein, a POSA
would have had numerous options when determining
what type and conformation of Ig to select. While
etanercept used IgG1, there were many alternative Ig
constructions that a POSA could have selected, none
of which was more obvious than the other. For example, a POSA would have had to choose from many
known classes of immunoglobulins (Ig), such as IgG,
and further choose between the subclasses of IgG, including IgG1, IgG2, IgG3, and IgG4. 9/18 AM (Naismith) Tr. at 51:11-13; see supra I.B.1. Moreover, a
POSA would have had to consider and decide between
the variety of Ig conformations in the prior art including a full hinge, an exon-encoded hinge, a two-cysteine
hinge, or no hinge. PFOF ¶ 159; 9/20 AM (Wall) Tr. at
82:24-83:8; see also 9/12 PM (Blobel) Tr. at 34:5-13,
39:24-40:11 (Dr. Blobel testifying that it was “not so
obvious” to use a three-cysteine hinge as opposed to a
two-cysteine hinge). Finally, as reflected in the prior
art above, a POSA selecting Ig would have had to decide whether to use a linker, and if so, would have also
had to determine which length to use. PFOF ¶ 159;
9/20 AM (Wall) Tr. at 82:1-4, 88:17-90:1. Accordingly,

93a
a POSA choosing to select Ig, despite the scientific research teaching that this was not a desirable option,
would still have had many different variations and
configurations of Ig to opt for when creating the fusion
protein. Defendants have failed to sufficiently prove
by clear and convincing evidence that it was obvious
for a POSA to select IgG1, as used in etanercept,
among all of these alternatives.
b) It Would Not Have Been Obvious to a
POSA to Combine p75 with the ExonEncoded Hinge-CH2-CH3 Region of
IgG1
Furthermore, even assuming it was obvious to select
both p75 TNFR and IgG1, a claim cannot be held obvious merely because its elements were independently
known in the prior art. KSR Int’l Co. v. Teleflex, Inv.,
550 U.S. 398,418-19 (2007); Polaris Indus., Inc. v. Arctic Cat, Inc., 882 F.3d 1056, 1068 (Fed. Cir. 2018)
(stating that the “genius of invention is often a combination of known elements which in hindsight seems
preordained”). Defendants must prove by clear and
convincing evidence that a POSA would have been
motivated to combine the essential components from
the prior art teachings to create the claimed invention, and would have had a reasonable expectation of
success in doing so. Arctic Cat Inc. v. Bombardier Recreational Prods. Inc., 876 F.3d 1350, 1359-61 (Fed.
Cir. 2017).
Moreover, Defendants must show by clear and convincing evidence that a POSA would have been motivated to combine the specific parts of each component
that make up the claimed invention, rather than only
showing it was obvious to combine p75 and IgG1. See

94a
id. (finding that the required motivation is a motivation to combine prior art to achieve the particular
claimed invention). Merely combining p75 TNFR
and IgG1 would not have resulted in etanercept because the claimed invention specifically joins the extracellular region of p75 and only a portion of IgG1,
namely the exon-encoded hinge-CH2-CH3 domain.
’182 Patent (JTX-1); ’522 Patent (JTX-2). Therefore,
Defendants must demonstrate that a POSA would
have been motivated to create the precise TNRF-IgG1
construct that is etanercept.
As addressed above, the prior art cited by Defendants taught that Ig fusion proteins activated effector
functions leading to inflammation in the body. See supra III.B.1.a.ii. Given this prior art, a POSA would
have expected a fusion protein combining TNFR and
IgG1 to lead to autoimmune damage caused by effector functions. 9/20 AM (Wall) Tr. at 39:14-40:9, 56:716; 9/18 PM (Greene) Tr. at 90:25-91:16. Therefore,
for all of the reasons stated above, a POSA looking to
treat an autoimmune condition, such as rheumatoid
arthritis, would have been dissuaded from combining
TNFR with IgG1.
Despite the prior art, Defendants assert that a
POSA would have been motivated to combine p75 and
IgG1 to produce etanercept because this combination
was already described in the Smith ’760 Patent. Defs.
Br. at 37. However, this argument fails because, as
discussed below, (1) Smith ’760 was an unconstructed,
untested chimeric antibody that would not have been
an obvious starting point; (2) the Smith ’760 construct
was distinct from etanercept; and (3) a POSA would
not have been motivated to modify Smith ’760 in the
precise ways necessary to create etanercept.

95a
i. A POSA Would Not Have Ignored the
Prior Art Concerning Effector Functions in Ig Fusion Proteins Because
of the Smith ’760’s Hypothetical Antibody
First, the Smith ’760 Patent, filed in May 1990, described a hypothetical construction of a TNFR-IgG1
chimeric antibody that was never made. PFOF ¶ 164;
DFOF ¶ 210; 9/12 PM (Blobel) Tr. at 84:5-7. There is
no prior art that suggests exactly how the Smith ’760’s
construct may have been used, much less that it was
known to have desirable therapeutic properties. Defendants argue that a POSA would have obviously
looked to the Smith ’760 fusion protein because this
protein was expected to have advantageous properties, including an “extended in vivo half-life, ease of
purification, and enhanced TNF binding.” Defs. Br. at
38. However, as outlined above, the prior art actually
taught away from using an Ig fusion protein, such as
the one proposed in Smith ’760, to treat auto-immune
diseases because such a construct would have likely
elicited an inflammatory response in the body. See supra III.B.1.a.ii. The speculative expectations of Smith
’760’s unconstructed chimeric antibody would not
have been enough to compel a POSA to ignore the numerous experimental studies that revealed that Ig
proteins elicited an inflammatory response and use
the Smith ’760’s fusion protein as a starting point to
create an anti-inflammatory drug. It is not obvious
that a POSA would have selected this idea as a possible solution for patients with pro-inflammatory conditions when the therapeutic effects of this chimeric antibody were uncertain, at best.

96a
ii. Etanercept Is Distinct from Smith
’760 Such That it Cannot Render the
Patents-in-Suit Obvious
Second, etanercept is not an obvious variant of the
Smith ’760 Patent because the Patents-in-Suit claim
a distinct fusion protein. Smith ’760 teaches fusing a
portion of TNFR to a human IgG1 containing both the
CH1 and the light chain (see generally Smith ’760 Patent (JTX-65)), whereas the Patents-in-Suit require
the removal of the CH1 and the light chain from the
constant region domain of IgG1 (see ’182 Patent (JTX1) col. 39:12-42:34; ’522 Patent (JTX-2) col. 45:4448:4). The Smith ’760 Patent also discussed a number
of ways to construct the fusion site of the TNFR, none
of which suggested directly fusing the TNFR to the
hinge. See Smith ’760 Patent (JTX-65) col. 10:33-56;
PFOF ¶ 166. The Patents-in-Suit directly fused the
extracellular region of p75 to the exon-encoded hingeCH2-CH3 region of IgG1. ’182 Patent (JTX-1) col.
39:12-42:34; ’522 Patent (JTX-2) col. 45:44-48:4.

In contrast to Smith ’760, etanercept specifically
uses only a portion of IgG1, namely the partial exonencoded hinge-CH2-CH3.
Defendants have not

97a
pointed to any prior art that recommends using the
exon-encoded hinge-CH2-CH3 of IgG1 for such a fusion protein, or any reference that advises fusing this
portion to the extracellular region of p75. This concept was not taught in the prior art, rendering etanercept a distinct, nonobvious construction from Smith
’760. Compare ’182 Patent (JTX-1) and ’522 Patent
(JTX-2) with Smith ’760 Patent (JTX-65) at 10:53-68.
Defendants have failed to show why a POSA would
have been motivated to combine the specific parts of
IgG1 and p75 that make up the claimed invention.
Moreover, the specific construct within Smith ’760
that Defendants compare to the distinct construct of
etanercept, as pictured above, was only one of many
contemplated in Smith ’760. In hindsight, Defendants
assert that this one construct contemplated in Smith
’760 would have obviously motivated a POSA to create
etanercept. This assertion ignores the fact that had a
POSA looked to Smith ’760 in its entirety, the POSA
would have had to consider and select among a broad
array of options as the patent suggested a variety of
different constructs to pursue, none of which were
ever actually constructed or determined to be preferred. The Smith ’760 Patent embraces many variations, including both monovalent and polyvalent
forms of TNFR, and further reports a wide variety of
choices for the polyvalent forms. See Smith ’760 Patent (JTX-65) at 13; PFOF ¶¶ 165-67. Among these
possibilities was combining p75 with PEG, which as
mentioned above was a widely used and FDA approved non-Ig construct. It appears Defendants focused on a single construct “out of the sea” of alternatives based on hindsight reasoning notwithstanding
other potential constructs contemplated in Smith ’760

98a
that refuted their assertions. See WBIP, LLC v.
Kohler Co., 829 F.3d 1317, 1337 (Fed. Cir. 2016).
Therefore, Defendants have failed to show by clear
and convincing evidence that a POSA looking to Smith
’760 for motivation would have decided on the specific
construct of p75 and IgG1.
iii. A POSA Would Not Have Been Motivated to Modify Smith ’760 by Removing the Light Chain, Removing
the CH1 Domain, and Directly Fusing the p75 Protein to the Exon-Encoded Hinge-CH2-CH3 Region
Third, a POSA would not have been motivated to alter the Smith ’760 fusion protein in the specific ways
necessary to create etanercept. To modify Smith ’760
and construct etanercept, a POSA would need to have
been motivated to remove the CH1 domain, eliminate
the light chain, and directly fuse the extracellular region of p75 to the exon-encoded hinge-CH2-CH3.
As to the removal of the CH1 domain and the light
chain, a POSA would not have been motivated to
make these modifications to Smith ’760 based on the
patent itself. First, Smith ’760 specifically states that
its construct must have “unmodified constant region
domains[,]” signifying to a POSA that the light chain
and CH1 should not be modified if the POSA wished
to maintain all of the alleged advantageous properties
of Smith ’760. See Smith ’760 Patent (JTX-65) col.
10:53-57; Defs. Br. at 38. Accordingly, a POSA looking
to Smith ’760 for motivation would have been discouraged from altering the constant region by removing
the light chain and CH1. However, even if a POSA
were to ignore this statement, there was no clear

99a
evolution in the prior art that would have taught a
POSA to eliminate the light chain or the CH1 domain.
If anything, the prior art would have dissuaded a
POSA from making these modifications to Smith ’760
based on their proven increase in effector functions.
Furthermore, in analyzing the cited prior art beyond Smith ’760, it would not have been obvious to a
POSA to remove the CH1 and light chain because
there was no clear direction in the prior art. When the
prior art provides no reason to select, among several
unpredictable alternatives, the exact route that would
guide and/or motivate a POSA to the patented invention, then it is not obvious. Ortho-McNeil Pharm., Inc.
v. Mylan Labs., Inc., 520 F.3d 1358, 1364 (Fed. Cir.
2008). Researchers at the time, many of whom were
seeking treatment for HIV/AIDS patients, were modifying fusion proteins in a number of different ways
and no one way was known to definitively work better
than the other. For example, with respect to removal
of the light chain, Defendants point to Dr. Capon’s
1989 article, mentioned above, that disclosed several
CD4-Ig fusion proteins, including proteins that retained the light chains and those that lacked the light
chain. DFOF ¶ 216; JTX-58 at 1-2. Additionally, prior
art references that contemplated removing the CH1
domain, such as the Seed ’262 and Capon ’964 publications, disclosed a variety of constructs, including
proteins with the CH1 domain and those that deleted
it. JTX-57 at 10; JTX-61 at 28; 9/20 AM (Wall) Tr. at
79:12-21. No one arrangement could have been considered to be predictable in its effect as even Dr. Capon found the results of his own constructs to be “surprising.” JTX-58 at 4-5; 9/12 AM (Blobel) Tr. at 46:811. Therefore, the prior art was in a state of

100a
uncertainty and had many variables, such that creating etanercept using only the CH2-CH3 domain of the
IgG1 immunoglobulin would not have been obvious.
In fact, a POSA would have been disincentivized to
remove the CH1 chain because the prior art established that Ig fusion proteins without the CH1 domain
created additional effector functions, thereby intensifying the inflammatory response. 9/20 AM (Wall) Tr.
at 78:20-79:6. According to the prior art, HIV/AIDS
researchers were removing CH1 to successfully increase the effector functions—an undesired response
for an anti-inflammatory drug. 9/18 PM (Greene) Tr.
at 84:12-19 (Dr. Greene explaining that removal of the
CH1 domain was shown to cause an inflammatory response). For example, Byrn 1990 provided experimental evidence that CD4-Ig fusion proteins lacking
CH1 would trigger the ADCC effector function as desired for HIV/AIDS treatments. JTX-56 at 1-2; 9/12
AM (Blobel) 70:18-71:15. Such a result would have
been contrary to a goal of reducing inflammation, and
therefore a POSA would have been dissuaded to alter
the Smith ’760 protein in this way. Moreover, Defendants point to Traunecker 1989, which found that the
pro-inflammatory response of the Ig fusion protein remained strong despite eliminating the CH1 domain in
mouse fusion proteins. JTX-25; 9/20 AM (Wall) Tr. at
78:18-79:1. Based on this finding, a POSA seeking
new therapies for auto-immune disorders would not
have been motivated to remove the CH1 domain because Traunecker 1989 showed that removing CH1
retained the inflammatory effects. See 9/20 AM (Wall)
Tr. at 78:20-79:1.
Defendants specifically aver that a POSA would
have been motivated to eliminate the CH1 domain

101a
and the light chain of the Smith ’760 protein, as was
done in etanercept, because these deletions were
known to improve the secretion of fusion proteins, a
desirable feature because it allowed the fusion protein
to leave the cell. See Defs. Br. at 39; DFOF ¶ 325.
However, Dr. Capon’s 1989 paper that Defendants use
to support this argument reported that secretion problems actually arose when the light chain was removed
from CD4 fusion proteins. JTX-58 at 2. Furthermore,
even if the deletion of the CH1 domain did increase
secretion, a POSA would have likely avoided eliminating the CH1 domain because removal was known to
elicit effector functions and increase inflammation, as
discussed above.
Lastly, a POSA would not have been motivated to
remove the linker and directly fuse the p75 extracellular region to the full exon-encoded hinge. Again, Defendants cite to a number of references teaching multiple variations of what fragments a POSA could use,
including many references that recommend using a
partial hinge and/or a linker. See, e.g., JTX-57 at
10:57-11:2 (Seed ’262 describing the use of a five
amino acid linker); JTX-56 at 1-2 (Byrn 1990 using a
partial two-cysteine hinge); JTX-25 at 1 (Traunecker
1989 contemplating the removal of the entire hinge).
Based on the uncertainty in the art, it would not have
been obvious to a POSA to remove the linker or to use
the full exon-encoded hinge.
See Ortho-McNeil
Pharm., 520 F.3d at 1364 (holding that the patented
invention was not obvious where a POSA had no reason to select the exact route among several unpredictable alternatives).
Defendants have failed to show by clear and convincing evidence that it would have been obvious to a

102a
POSA to create etanercept by precisely combining
specific portions of TNFR and IgG1 prior to August
1990.
2. Objective Indicia of Nonobviousness
As part of its obviousness analysis, the Court must
also consider evidence regarding objective considerations of nonobviousness when present. In re Cyclobenzaprine Hydrochloride Extended-Release Capsule Patent Litig., 676 F.3d 1063, 1075-77 (Fed. Cir. 2012).
Secondary considerations such as unexpected results,
success, long felt but unsolved needs, and the failure
of others may be relevant indicia of nonobviousness.
See Graham, 383 U.S. at 17-18; Eli Lilly & Co. v. Zenith Goldline Pharms., Inc., 471 F.3d 1369, 1380 (Fed.
Cir. 2006). Moreover, evidence of copying, simultaneous invention, and licensing may also be considered.
See Diamond Rubber Co. v. Consol. Rubber Tire Co.,
220 U.S. 428, 441 (1911); Geo. M. Martin Co. v. Alliance Mach. Sys. Int’I LLC, 618 F.3d 1294,1304 (Fed.
Cir. 2010); Stratoflex, Inc. v. Aeroquip Corp., 713 F.2d
1530, 1539 (Fed. Cir. 1983).
The parties have both presented evidence of certain
objective indicia that they argue support their obviousness arguments, all of which are discussed below.
A number of witnesses opined on these objective indicia including, for the Plaintiffs, (1) Dr. Naismith, as
mentioned above; (2) Dr. Greene, as mentioned above;
and (3) Dr. Fleischmann, an expert in the field of rheumatic diseases and disorders, who is the Founder and
Co-Medical Director of the Metroplex Clinical Research Center in Dallas, Texas, and a Clinical Professor in the Department of Internal Medicine at the
University of Texas, Southwestern Medical Center at

103a
Dallas (ECF No. 688 at 121 ¶¶ 19-21); and for the Defendants, (1) Dr. Blobel, as mentioned above; and (2)
Dr. Skerra, as mentioned above. While both parties
offered evidence of objective indicia to support their
positions, the burden always remains on Defendants
to prove by clear and convincing evidence that the
claimed invention is obvious. In re Cyclobenzaprine
Hydrochloride, 676 F.3d at 1075-79 (concluding that,
when considering secondary considerations of nonobviousness, the burden never shifts to the patentee to
prove nonobviousness and instead always remains on
the party challenging the patent to prove by clear and
convincing evidence that the patent at issue is obvious).
As to the objective indicia, Defendants challenge
whether there is a sufficient nexus between the merits
of the claimed invention and the objective evidence.
Plaintiffs contend that the appropriate nexus is present and such evidence is commensurate in scope with
the claims. See Tokai Corp. v. Easton Enters., Inc.,
632 F.3d 1358, 1369-70 (Fed. Cir. 2011) (concluding
that, to establish a nexus to the merits of a claimed
invention, the offered secondary consideration must
actually result from what is both claimed and novel in
the patent); see also Dome Patent L.P. v. Rea, 59 F.
Supp. 3d 52, 86 (Fed. Cir. 2014) (holding that objective
evidence of secondary considerations must be proportional to the scope of the claims to be probative of nonobviousness). Here, the Court finds that the secondary considerations discussed below have a sufficient
nexus to, and are commensurate in scope with, the
claimed invention because the proffered evidence is
linked to etanercept, which the Court has found was
adequately described in the Patents-in-Suit. To the

104a
extent more specific arguments concerning nexus and
scope were made by the parties, such assertions are
addressed in the relevant sections below.
a) Unexpected Results
Unexpected or surprising results can support nonobviousness. To demonstrate unexpected results, a
party must “show that the claimed invention exhibits
some superior property or advantage that a person of
ordinary skill in the relevant art would have found
surprising or unexpected.” In re Soni, 54 F.3d 746, 750
(Fed. Cir. 1995). “The principle applies most often to
the less predictable fields, such as chemistry, where
minor changes in a product or process may yield substantially different results.” Id. Plaintiffs assert that
etanercept exhibits three unexpected properties: (1) a
lack of aggregation with TNF due to Mode 2 binding;
(2) a superior binding affinity to, and inhibition of,
TNF; and (3) little to no effector functions. Pls. Br. at
33. Defendants disagree that these properties were
unexpected. Defs. Br. at 45-48.
First, the Court finds that etanercept’s ability to
bind in Mode 2 with little to no aggregation was an
unexpected result. For background, in order for
etanercept to be effective, the TNFR in etanercept has
to bind to TNF. 9/20 PM (Fleischmann) Tr. at 149:1117. Etanercept is a bivalent fusion protein, which
means that it has two binding sites. DFOF ¶ 238. Dr.
Naismith explained that fusion proteins like etanercept can potentially bind to TNF in either one of two
ways: (1) Mode 1 binding, which occurs when a bivalent fusion protein binds two TNF cytokines at each of
its two separate binding sites, (9/18 AM (Naismith)
Tr. at 110:13-21 (explaining that etanercept has two

105a
“hand[s],” and that in “Mode 1” binding each hand
would attach to a different TNF molecule)); or (2)
Mode 2 binding, which occurs when a bivalent fusion
protein binds one TNF with both binding sites.26
DFOF ¶ 238; 9/24 AM (Skerra) Tr. at 39:25-41:24; 9/18
AM (Naismith) Tr. at 110:10-111:13; Defendants’
Trial Exhibit-84 at 5. While Mode 1 binding is very
common in protein constructs similar to etanercept,
(see 9/18 AM (Naismith) Tr. at 112:1-5), Mode 2 binding, which occurs in etanercept, is much rarer because
the receptors have to be precisely arranged for Mode
2 binding to work. See id. at 110:22-111:8.

DFOF ¶ 238.
Despite the fact that Mode 2 binding was uncommon
in proteins similar to etanercept, etanercept surprisingly engages in Mode 2 binding, which is one of the
reasons why it effectively treats rheumatoid

The Court notes that the parties’ experts also discussed Mode
3 binding, which is an intermediate or transient step that could
lead to either Mode 1 or Mode 2 binding. See 9/24 AM (Skerra)
Tr. at 39:25-41:24; 9/18 AM (Naismith) Tr. at 111:9-13; DFOF ¶
238.
26

106a
arthritis.27 9/18 AM (Naismith) Tr. at 114:19-115:23.
Plaintiffs’ expert Dr. Naismith credibly explained that
a POSA in 1990 would have expected etanercept to
bind in Mode 1 because Mode 1 had fewer limitations
and, as a result, was much more likely in antibodies
similar to etanercept. Id. at 111:14-114:25. Etanercept’s unexpected ability to bind in Mode 2 has important consequences. If etanercept had engaged in
Mode 1 binding, aggregation would have resulted in
the body—an undesired result for rheumatoid arthritis treatment as it leads to further inflammation. Id.
at 112:13-19, 114:21-25. Mode 2 binding, however, results in little to no aggregation. 9/18 AM (Naismith)
Tr. at 110:22-111:8. Hence, based on the state of the
art in 1990, the Court finds that there is sufficient evidence to support the fact that etanercept’s lack of aggregation due to Mode 2 binding was an unexpected
and crucial result.
Second, a POSA would not have expected etanercept
to bind fifty times stronger to TNF or to exhibit superior TNF-neutralizing properties. PFOF ¶ 254; PTX73 at 4; 9/18 AM (Naismith) Tr. at 116:7-118:3. According to Defendants’ expert, Dr. Capon, a POSA at
the time would have thought that the binding power
of an Ig fusion protein, such as etanercept, would have

Defendants’ expert, Dr. Skerra, who testified that a POSA
would not have expected aggregation, was later impeached on
this point because he based his opinions on a molecule that was
different from etanercept and ultimately agreed that a POSA
would have expected a molecule with etanercept’s exact construction to have caused aggregation. 9/24 AM (Skerra) Tr. at 81:684:l.
27

107a
been weak.28 JTX-58 at 2 (stating that Ig fusion proteins exhibit binding that is “indistinguishable” from
binding as exhibited by soluble receptors, which were
known to have weak binding strength at the time).
Therefore, the fact that etanercept has strong binding
capabilities would have been surprising to a POSA at
the time. Moreover, etanercept’s Mode 2 binding led
to increased neutralization of TNF because etanercept
bound to TNF more efficiently, reducing the amount
of TNF left in the cells and thereby decreasing TNF’s
inflammatory effect. 9/18 AM (Naismith) Tr. at
117:17-118:3. A POSA would have also been surprised by etanercept’s ability to powerfully neutralize
TNF given that etanercept’s ability to bind without
aggregation was unexpected. Id. at 117:9-19 (Dr. Naismith concluding that prior to August 1990, a POSA
would not have expected etanercept to produce the
1000-fold efficacy in TNF neutralization that etanercept is now known to produce).
Third, prior to August 1990, a POSA would not have
expected etanercept to produce little to no undesired
effector functions. 9/18 PM (Greene) Tr. at 91:1793:12, 100:10-101:10 (Dr. Greene testifying that it was
a “surprise” and “unexpected result” that etanercept
produced little or no CDC or ADCC effector functions.
Defendants, relying on Galderma Labs., L.P. v. Tolmar, Inc.,
737 F.3d 731,739 (Fed. Cir. 2013), argue that etanercept’s ability
to strongly bind to, and effectively neutralize, TNF was not unexpected because TNF was already known to bind and neutralize
soluble TNFRs. Defs. Br. at 46. However, this argument fails because the ability of TNF to effectively bind to etanercept—a
TNFR-Ig fusion protein—rather than to a soluble TNFR, was unknown and unexpected. See JTX- 58 at 2; 9/18 AM (Naismith) Tr.
at 116:10-16, 117:7-118:3.
28

108a
As discussed at length above, this result would have
been unknown to a POSA prior to August 1990 and
supports the assertion that etanercept produced unexpected results. Id. at 70:17-71:2 (Dr. Greene comparing etanercept to the prior art and testifying that,
given the results of the testing with the CD4 fusion
proteins, a POSA would have expected etanercept to
exhibit effector functions); see also supra III.B.1.a. Accordingly, the Court concludes that this evidence of
unexpected results weighs in favor of finding that the
claims of the Patents-in-Suit are nonobvious.
b) Praise and Clinical Success
“Evidence that the industry praised a claimed invention or a product which embodies the patent
claims weighs against an assertion that the same
claim would have been obvious. Industry participants, especially competitors, are not likely to praise
an obvious advance over the known art.” WBIP, LLC,
829 F.3d at 1334. The Court may also look to evidence
of Enbrel®’s clinical success. See KSR, 550 U.S. at 415
(concluding that with respect to the question of obviousness, courts should take “an expansive and flexible
approach[,]” and noting that Graham “set forth a
broad inquiry and invited courts, where appropriate,
to look at any secondary considerations that would
prove instructive”). Here, Plaintiffs offered ample evidence of praise and clinical success. In fact, Defendants’ counsel conceded this at the beginning of trial.
9/11 AM (Opening) Tr. at 49:20-25 (Defendants’ counsel stating that they were “not going to dispute that
Enbrel[®], the product, the etanercept product . . . has
not been . . . commercially successful[,] . . . clinically
successful[,] . . . [and] praised.”). In any event, the evidence at trial confirmed that etanercept has been

109a
highly praised as a drug that has “changed the practice of medicine.” 9/14 (McCamish) Tr. at 41:13-17.
Enbrel® has been widely prescribed since its approval
in 1998 and the number of prescriptions rose rapidly
through 2008, despite shortages in supply and the entry of two major competitors into the market. 9/21
(Vellturo) Tr. at 14:22-15:19.
Nevertheless, Defendants assert that Enbrel®’s
success and praise is unpersuasive because Enbrel®’s
achievements are not sufficiently connected to the asserted claims of the Patents-in- Suit. See DFOF ¶ 335;
9/11 AM (Opening) Tr. at 49:25-50:10. The testimony
at trial, however, established that Enbrel®’s success
was largely rooted in the unexpected ability of etanercept, the claimed invention, to bind and neutralize
TNF and its stability in the human body. 9/20 PM
(Fleischmann) Tr. at 148:16-149:20 (Dr. Fleischmann
testifying that the success of etanercept was due to its
molecular properties and efficacy). Therefore, the
Court concludes that there is a sufficient nexus between the claimed invention, etanercept, and Enbrel®
because the drug’s successes result from the effectiveness and novelty of etanercept, Enbrel®’s active ingredient. WBIP, LLC, 829 F.3d at 1331 (holding that a
nexus can be presumed when the asserted objective
indicia is tied to a specific product and the product is
the invention claimed in the patent).
Moreover, as to whether this secondary consideration is reasonably commensurate in scope with the
claims, Defendants contend that the evidence of
Enbrel®’s success and praise ignores etanercept’s failures in treating other conditions, such as Crohn’s disease. Defs. Br. at 49. The Court has considered this
argument and nonetheless concludes that Enbrel®’s

110a
success in treating rheumatoid arthritis—the focus of
the litigation and the only use for which etanercept
was FDA-approved in 1998—is probative of nonobviousness as etanercept was highly praised and extremely successful in helping vast numbers of rheumatoid arthritis patients.29 9/20 PM (Fleischmann)
Tr. at 148:16-150:20. Thus, praise and clinical success
also weighs in favor of nonobviousness.
c) Long-Felt Need and Failure of Others
“Evidence is particularly probative of obviousness
when it demonstrates both that a demand existed for
the patented invention, and that others tried but
failed to satisfy that demand.” In re Cyclobenzaprine
Hydrochloride, 676 F.3d at 1082-83. In order to show
satisfaction of long-felt need, one must establish that
(1) a POSA recognized a problem that existed for a
long period of time without a solution, (2) the long felt
need had not been satisfied by another before the
claimed invention, and (3) the invention in fact satisfied the long-felt need. See Newell Cos., Inc. v. Kenney
Mfg. Co., 864 F.2d 757, 768 (Fed. Cir. 1988); In re
Cavanagh, 436 F.2d 491, 495-96 (C.C.P.A. 1971); In re
Gershon, 372 F.2d 535, 538-39 (C.C.P.A. 1967).
The trial testimony showed that there was a longfelt need for a better treatment for rheumatoid arthritis and that Enbrel® was the first drug to successfully
satisfy this need. Prior to Immunex’s sale of Enbrel®,
The Court has similarly considered that Plaintiffs presented
data focusing on Enbrel®’s success during its first ten years on
the market. The Court has weighed this evidence accordingly
and finds that the evidence of Enbrel®’s success over this tenyear span is persuasive of nonobviousness. See Defs. Br. at 4950.
29

111a
a drug known as methotrexate “was a drug of choice”
to treat rheumatoid arthritis. 9/20 PM (Fleischmann)
Tr. at 131:22-24, 135:21-136:3 (Dr. Fleischmann testifying that methotrexate was the best drug available
to treat rheumatoid arthritis in the mid-1990s, and
that it was “the gold standard”). However, methotrexate could help only a small minority of patients. Pls.
Br. at 35; 9/20 PM (Fleischmann) Tr. at 146:20-147:9.
Although other research groups tried for decades to
inhibit inflammation in the body, they failed to develop an effective solution before the claimed invention. 9/11 PM (Blobel) Tr. at 66:13-67:6. After
Enbrel® was introduced into the market, approximately 70% of patients with rheumatoid arthritis
found relief from this treatment. 9/20 PM (Fleischmann) Tr. at 139:2-17.
In analyzing Plaintiffs’ evidence as to this factor, the
Court finds that a nexus is established because the
community’s long-felt need for an effective, widereaching rheumatoid arthritis drug was satisfied by
the claimed invention itself. See id. at 139:8-24, 149:29, 146:20-147:9, 151:3-17. Enbrel® was able to satisfy
this need because of etanercept’s ability to effectively
neutralize and bind TNF while suppressing pro-inflammatory effector functions. 9/20 AM (Wall) Tr. at
87:11-24. Accordingly, the Court finds that Plaintiffs
have presented sufficient evidence to show that
etanercept met a long-felt need that many others
failed to successfully address prior to etanercept.
d) Copying
There is no dispute that Defendants’ biosimilar has
the same amino acid sequences and structure as
Enbrel®. See DFOF ¶¶ 258-59. Plaintiffs ask the

112a
Court to find Defendants’ copying as probative of nonobviousness. Pls. Br. at 12. Defendants draw a comparison to Hatch-Waxman Act Abbreviated New Drug
Application (“ANDA”) cases with generic drugs, and
counter that copying a biologic drug should not be evidence of nonobviousness for creation of a biosimilar
because “copying by Sandoz reflects its efforts to meet
the FDA standards for approval of biosimilar products.” Defs. Br. at 50, DFOF ¶¶ 258-59, 337.
It is well settled that the copying of an invention can
be indicative of nonobviousness. Diamond Rubber,
220 U.S. at 440-41 (finding “imitation” of a certain tire
as a “concession to its advance beyond the prior art
and of its novelty and utility”). In the pharmaceutical
realm, however, copying is generally not considered
evidence of nonobviousness for matters in the ANDA
context. See, e.g., Bayer Healthcare Pharms., Inc. v.
Watson Pharms., Inc., 713 F.3d 1369, 1377 (Fed. Cir.
2013) (“evidence of copying in the ANDA context is not
probative of nonobviousness because a showing of bioequivalence is required for FDA approval”) (citation
omitted).30
Plaintiffs cite to Merck Sharp & Dohme Corp. v. Hospira, Inc.,
an ANDA case in which the Federal Circuit found copying evidence of nonobviousness where the alleged infringer copied the
“process of manufacturing the drug” in the patent. 874 F.3d
724, 726, 731 (Fed. Cir. 2017) (emphasis in original). The Court
finds the facts of this case distinguishable from Merck. Here, Defendants presented credible testimony that they began developing their biosimilar in 2006, prior to the issuance of the Patentsin-Suit and prior to the BPCIA, and that they developed the biosimilar by utilizing etanercept’s amino acid sequence directly
from the commercial product Enbrel® due to an understanding
that the amino acid sequence would need to be identical to
etanercept for approval as a biosimilar. See 9/14 (McCamish) Tr.
30

113a
In order to obtain FDA approval for a biosimilar under the Biologics Price Competition and Innovation
Act (“BPCIA”), “the applicant may piggyback on the
showing made by the [original] manufacturer of a previously licensed biologic (reference product)” if the applicant can “show that its product is ‘highly similar’ to
the reference product and that there are no ‘clinically
meaningful differences’ between the two in terms of
‘safety, purity, and potency.’” Sandoz Inc. v. Amgen
Inc., 137 S. Ct. 1664, 1670 (2017) (quoting 42 U.S.C.
§ 262(i)(2)(A), (B) and citing § 262(k)(2)(A)(i)(1)). Specifically, as compared to the original biologic, the biosimilar is permitted to have “minor differences in clinically inactive components,” but must be “interchangeable with the reference product.” 42 U.S.C.
§ 262(i)(2)(A), (k)(4). This is similar to the ANDA process for FDA approval of generic drugs, which requires “a generic drug company [to] submit information to show, inter alia, that its generic drug and
the relevant listed drug share the same active ingredients and are bioequivalent.” Caraco Pharm. Labs.,
Ltd. v. Forest Labs., Inc., 527 F.3d 1278, 1282 (Fed.
Cir. 2008) (citing 21 U.S.C. § 355(j)(2)(A)(ii), (iv)). At
trial, Plaintiffs presented testimony by deposition
from Graham B. Jones, Ph.D., their expert on the
FDA’s practices and policies regarding demonstrating
biosimilarity, which was not inconsistent with the
Court’s analysis in this Opinion. See generally JTX87 (Jones Deposition); DFOF at xv.31 Given the BPCIA
at 17:17-18:15, 84:15-85:6; JTX-83 (Alliger Deposition) at 9:8510:90; DFOF ¶¶ 258-59; Defs. Br. at 50.
Jones testified that theoretically a proposed biosimilar could
“encode a different primary amino acid sequence than the reference product,” however the FDA guidance calls for evaluation “on
31

114a
abbreviated pathway for FDA approval and the testimony on the active ingredient at issue here, the Court
finds that the same logic for not considering copying
in ANDA cases would apply in this circumstance.32
Thus, this factor cannot be used herein as evidence of
nonobviousness.
e) Simultaneous Invention
Evidence of an independently made, simultaneous
invention may be used in “some rare instances” to provide objective indicia of obviousness by showing that
persons of ordinary skill in the art identified the same
particular solution to a known problem. Geo. M. Martin, 618 F.3d at 1304 (citations and internal quotations omitted); see Lindemann Maschinenfabrik
GmbH v. Am. Hoist & Derrick Co., 730 F.2d 1452,
1460 (Fed. Cir. 1984). “Unlike the ultimate determination of obviousness, which requires courts to answer the hypothetical question of whether an invention ‘would have been obvious, ’35 U.S.C. § 103, simultaneous invention demonstrates what others in the
a case-by-case basis.” JTX-87 (Jones Deposition) at 5:33-34, 7:4950, 8:54. Jones confirmed that he had not reviewed either of the
Patents-in-Suit nor was he offering an opinion on whether
Sandoz specifically “was required to use the same primary amino
acid sequence as Enbrel® to obtain licensure of its etanercept
product under the abbreviated pathway.” Id. at 4:28. Furthermore, Jones could not “provide any examples of a biosimilar drug
that’s been approved by the FDA with an expression construct
that encodes a different primary amino acid sequence as its reference product.” Id. at 8:56.
The Court notes that even if this factor could be used as evidence of nonobviousness in favor of Plaintiffs, such finding would
not have any material impact on the outcome of the Court’s obviousness analysis.
32

115a
field actually accomplished.” Trustees of Columbia
Univ. v. Illumina, Inc., 620 F. App’x 916, 930 (Fed.
Cir. 2015) (emphasis in original). Defendants assert
four instances of alleged simultaneous invention of
etanercept by: (1) Dr. Beutler at the University of
Texas; (2) Dr. Ashkenazi at Genentech; (3) Dr. Lauffer
of Behringwerke, who was working in collaboration
with Immunex; and (4) Dr. Goodwin of Immunex. See
DFOF ¶¶ 10, 223, 228, 233.
Dr. Beutler, Dr. Ashkenazi, and Dr. Lauffer did not
make etanercept, but rather different fusion proteins,
and therefore their constructs cannot be used as evidence of simultaneous invention. See Endo Pharms.
Inc. v. Actavis Pharms., LLC, 922 F.3d 1365, 1378
n.14 (Fed. Cir. 2019), aff’g Endo Pharms. Inc. v. Amneal Pharms., LLC, 224 F. Supp. 3d 368, 381 (D. Del.
2016) (finding that alleged evidence of simultaneous
invention can be disregarded for obviousness if it is
not the same compound as the claimed invention); see
also Shire Orphan Therapies LLC v. Fresenius Kabi
USA, LLC, No. 15-1102, 2018 WL 2684097, at *20 (D.
Del. June 5, 2018). Dr. Beutler of the University of
Texas was working on a fusion protein that consisted
of the extracellular region of p55 fused to a mouse
IgG1 with a two-cysteine hinge. See JTX-67 col. 7:58; DFOF ¶ 235; 9/18 PM (Greene) Tr. at 103:12-21; see
also 9/20 AM (Wall) Tr. at 89:19-90:1. Dr. Ashkenazi
at Genentech similarly constructed a fusion protein
with p55 and a partial two- cysteine hinge. JTX-69 at
1; PFOF ¶ 267; DFOF ¶ 233. Behringwerke’s Dr. Lauffer made a fusion protein with p75 and a three-cysteine hinge but deleted the last five amino acids of the
C-terminus of the TNFR and also added a linker.
PFOF ¶¶ 269-71. The record does not demonstrate

116a
that Dr. Lauffer or anyone at Behringwerke contemplated using the full extracellular region of p75 or removing the linker, as was done in etanercept. Based
on the evidence presented, the Court finds that the
constructs of Dr. Beutler, Dr. Ashkenazi, and Dr.
Lauffer do not support a finding of obviousness because these inventions did not contemplate etanercept.
Roche’s patent applications were already pending
when Immunex created etanercept in November or
December 1990. PFOF ¶¶ 51, 263. Immunex’s subsequent decision to license the Patents-in-Suit from
Roche demonstrates etanercept’s inventive nature
and undermines an obviousness finding. See id. ¶¶ 6970; DFOF ¶ 228. Moreover, a single instance of simultaneous invention cannot alone support a finding of
obviousness for the following reasons. First, if one instance of simultaneous invention were sufficient to
show obviousness, any claims involved in an interference would be unpatentable for obviousness, making
interference proceedings futile. Lindemann Maschinenfabrik GmbH, 730 F.2d at 1460 (Fed. Cir. 1984)
(concluding that because the statute governing interference “recognizes the possibility of near simultaneous invention by two or more equally talented inventors working independently, that occurrence may or
may not be an indication of obviousness when considered in light of all the circumstances”). Second, even
when evidence of simultaneous invention exists, the
unexpected success of the claimed invention can preclude a finding of obviousness because surprising results demonstrate the true novelty of the invention,
even if multiple inventors happened to discover it
within a similar time period. See Regents of Univ. of

117a
Cal. v. Broad Inst., Inc., 903 F.3d 1286, 1291, 1295-96
(Fed. Cir. 2018) (declining to find obviousness despite
strong evidence of six different simultaneous inventions because the results of the claimed invention
were unpredictable and unexpected, thereby outweighing any potential probativeness of the simultaneous inventions). Accordingly, the Court finds that
the Defendants’ argument concerning the factor of
simultaneous invention fails to support obviousness.
f) Licensing
The licensing of a patent is also objective indicia
that a patent is not obvious. See Stratoflex, 713 F.2d
at 1539 (“Recognition and acceptance of the patent by
competitors who take licenses under it to avail themselves of the merits of the invention is evidence of nonobviousness.”). Here, Defendants concede that Immunex obtained a license for the Patents-in-Suit from
Roche in 1998. DFOF ¶ 52; JTX-13. As such, the
Court finds that the licensing factor also weighs in favor of nonobviousness.
Accordingly, for all of the above reasons, the Court
finds that Defendants have failed to prove by clear
and convincing evidence that the Patents-in-Suit are
obvious.
C. Obviousness-Type Double Patenting
The judicially-created doctrine of obviousness-type
double patenting prevents a party from extending
their right to exclude by obtaining a later patent with
claims that are not patentably distinct from claims in
a commonly-owned previous patent. In re Longi, 759
F.2d 887, 892 (Fed. Cir. 1985). “The purpose of the
rule against double patenting is to prevent an

118a
inventor from effectively extending the term of exclusivity by the subsequent patenting of variations that
are not patentably distinct from the first-patented invention.” Applied Materials, Inc. v. Advanced Semiconductor Materials Am., Inc., 98 F.3d 1563, 1568
(Fed. Cir. 1996); see also Procter & Gamble Co. v. Teva
Pharms. USA, Inc., 566 F.3d 989, 999 (Fed. Cir. 2009).
Thus, a preliminary step to find that the rule against
obviousness-type double patenting was violated is to
assess whether the patents or patent applications
have a common inventor or common ownership. See
Applied Materials, Inc., 98 F.3d at 1568; In re Longi,
759 F.2d at 895.
Double patenting entails a two-pronged analysis.
“First, as a matter of law, a court construes the claim
in the earlier patent and the claim in the later patent
and determines the differences.” Eli Lilly & Co. v.
Barr Labs., Inc., 251 F.3d 955, 968 (Fed. Cir. 2001)
(citing Ga.-Pac. Corp. v. U.S. Gypsum Co., 195 F.3d
1322, 1326 (Fed. Cir. 1999)). “Second, the court determines whether the differences in subject matter between the two claims render the claims patentably
distinct.” Id. (citing Ga.-Pac. Corp., 195 F.3d at 1327).
If the later claim is an “obvious variant” or obvious
modification of the earlier claim, then the later claim
is invalid for double patenting. In re Basell Poliolefine
Italia S.P.A., 547 F.3d 1371, 1378-79 (Fed. Cir. 2008).
An analysis of step two requires a determination of
whether or not the claims are “patentably distinct,” by
“ask[ing] whether the identified difference renders
the claims of the . . . [two] patents non-obvious to a
person of ordinary skill in the art in light of the prior
art.” Amgen Inc. v. F. Hoffmann-La Roche, Ltd., 580
F.3d 1340, 1361 (Fed. Cir. 2009); see also Pfizer, Inc.

119a
v. Teva Pharms. USA, Inc., 518 F.3d 1353, 1363 (Fed.
Cir. 2008); In re Kaplan, 789 F.2d 1574, 1580 (Fed.
Cir. 1986). “This part of the obviousness-type double
patenting analysis is analogous to an obviousness
analysis under 35 U.S.C. § 103, except that” the alleged invalidating reference patent itself “is not considered prior art” for purposes of the analysis. Amgen,
580 F.3d at 1361. Specifically, an obviousness-type
double patenting analysis requires an inquiry into the
scope and content of the prior art, the level of skill in
the art, and what would have been obvious to a POSA.
See Studiengesellschaft Kohle mbH v. N. Petrochemical Co., 784 F.2d 351, 355 (Fed. Cir. 1986).
Defendants argue that the Patents-in-Suit (i.e., the
’182 and ’522 Patents) should be invalidated because
Immunex has used the Patents-in-Suit to “obtain[] an
unjustified timewise extension of its etanercept monopoly” in violation of 35 U.S.C. § 121. Defs. Br. at 615. Specifically, Defendants contend that the Patentsin-Suit are invalid for obviousness-type double patenting over (1) Roche’s ’279 Patent; (2) Immunex’s U.S.
Patent No. 5,605,690 (“the ’690 Patent”); and (3) three
Immunex patents aimed at psoriasis and psoriatic arthritis, U.S. Patent Nos. 7,915,225 (“’225 Patent”),
8,119,605 (“’605 Patent”), and 8,722,631 (“’631 Patent”) (collectively, “the Finck Patents”). Id. Plaintiffs
counter that Defendants’ challenges fail because (1) a
safe harbor provision applies to the Roche ’279 Patent,
preventing an obviousness-type double patenting violation; (2) Defendants employ an incorrect doctrine to
find common ownership over Immunex’s ’690 Patent
and Finck Patents, which is required before even conducting the traditional two-step analysis; and (3) the
Patents-in-Suit are patentably distinct from the

120a
Roche ’279 Patent, Immunex’s ’690 Patent, and Immunex’s Finck Patents. Pls. Br. at 39-50.
In support of their arguments on obviousness-type
double patenting, Defendants relied, to a large extent,
on the following two of their witnesses: (1) Dr. Blobel,
previously introduced in sections III.A and III.B, who
is an expert in biophysics, particularly focusing on arthritis and tissue degeneration; and (2) John Parise,
who testified via deposition and was Roche’s former
Senior Counsel and Managing Attorney involved in
drafting and negotiating the 2004 Accord and Satisfaction on behalf of Roche. ECF No. 688 at 131 ¶ 43,
137 at ¶ 71; DFOF ¶¶ xvi, 66. Plaintiffs relied heavily
on (1) expert Stephen G. Kunin, J.D., an attorney who
is the former Deputy Commissioner for Patent Examination Policy in the Office of the Commissioner for
Patents in the USPTO and an expert in USPTO policies, practices, and procedures; and (2) Stuart Watt,
former Vice President of Law and Intellectual Property Officer at Amgen, who was involved in the prosecution of the Patents-in-Suit and the negotiation and
drafting of licensing agreements for the company.
ECF No. 688 at 128 ¶ 39, 137 ¶ 73.
The Court will first address Defendants’ arguments
with respect to Roche’s ’279 Patent, followed by Immunex’s ’690 Patent, and finally Immunex’s Finck Patents. For the reasons set forth, the Court agrees with
Plaintiffs that the Patents-in-Suit are not invalid for
obviousness-type double patenting.

121a
1. The ’182 Patent Is Not Invalid in View of
Roche’s ’279 Patent
Defendants argue that the ’182 Patent should be invalidated based on Roche’s ’279 Patent.33 Defs. Br. at
6-15. There is no dispute that Roche is the owner of
both the ’279 Patent and the ’182 Patent and therefore
common ownership exists. However, Plaintiffs contend that any challenge based on the ’279 Patent must
fail because of the safe harbor provision in 35 U.S.C.
§ 121 (“Safe Harbor”). The Safe Harbor provision protects applicants from obviousness-type double patenting invalidity when they are forced to pursue inventions in separate patent applications as a result of a
“restriction requirement” set by the USPTO, here in
the filing of related divisional applications. See 35
U.S.C. § 121; Pls. Br. at 39-41. The Court will first
examine Plaintiffs’ argument that the Safe Harbor
provision protects the ’182 Patent from being invalidated by Roche’s ’279 Patent for obviousness-type
double patenting and then go through the traditional
obviousness-type double patenting analysis comparing the asserted claims of the ’182 Patent to Roche’s
’279 Patent claims.

Defendants stipulated at trial that the Safe Harbor provision of 35 U.S.C. § 121 protects the ’522 Patent against a challenge based on Roche’s ’279 Patent. Pls. Br. at 39; 9/21 Tr. at 9:716 (defense counsel acknowledging, at trial, that the Safe Harbor
provision protects the ’522 Patent from any challenge based on
the ’279 Patent). The analysis herein will therefore solely focus
on the validity of the ’182 Patent as it relates to Roche’s ’279 Patent.
33

122a
a) Roche’s ’279 Patent
i. Background on the ’279 Patent
Roche’s first patent application covering the claimed
invention, the ’013 Application, was filed in September 1990. PFOF ¶ 51; DFOF ¶ 38. That application
was abandoned and the ’640 Application, which also
covered the claimed invention, was filed in July 1993.
PFOF ¶ 57; DFOF ¶¶ 38-39. During patent prosecution, the USPTO placed a restriction requirement on
the ’640 Application, requiring Roche to “elect one of
three distinct inventions” and choose “between the
p55 and p75 protein.” DFOF ¶ 40. Roche elected to
pursue claims related to the p55 fusion protein, which
resulted in the ’279 Patent being issued in March
1997. PFOF ¶ 57; DFOF ¶¶ 39-40. In order to pursue
the non-elected claims, i.e. those related to the p75 fusion protein, Roche was required to file separate divisional applications. In May 1995, Roche filed the ’790
Application, which eventually issued as the ’182 Patent. PFOF ¶ 57.
ii. The Safe Harbor Provision Protects
the Claims of the ’182 Patent in View
of the ’279 Patent
The Court finds that the Safe Harbor provision protects the claims of the ’182 Patent from Defendants’
invalidity argument based on the ’279 Patent. Under
the Safe Harbor provision, a patent cannot be invalidated for obviousness-type double patenting if the
subject patent was issued from a divisional application that was filed as a result of a requirement for restriction. 35 U.S.C. § 121; see Symbol Techs., Inc. v.
Opticon, Inc., 935 F.2d 1569, 1579 (Fed. Cir. 1991).
There are three requirements for invoking the

123a
protection of the Safe Harbor provision: (1) a restriction requirement, (2) a divisional application filed
as a result of the restriction requirement, and (3) consonance with the restriction requirement. 35 U.S.C.
§ 121.
At trial, Plaintiffs’ expert Steven G. Kunin explained the USPTO’s policy, practice, and procedure
related to the Safe Harbor protection afforded to “applicants who are forced to file multiple patent applications.” 9/21 (Kunin) Tr. at 69:18-20. Based on his experience with the USPTO for more than thirty-four
years, ten of which were spent as the Deputy Commissioner, Mr. Kunin described the procedure for restriction requirements and divisional applications.
Id. at 66:5-68:9, 69:21-70:24. He explained that if an
“applicant claimed more than one independent and
distinct invention” in a parent application, the applicant would be forced to file a divisional patent application to ensure “administrative efficiency and effectiveness.” Id. at 69:23-70:7. If the applicant still
wished to obtain a patent for the other inventions initially included in the parent application, the applicant
would need to file a “divisional application.” Id. at
70:8-24. This divisional application would be prohibited from rejection on obviousness-type double patenting grounds over the claims of the parent application
based on the Safe Harbor provision. Id. The Safe Harbor provision was created for the specific purpose of
preventing “unfairness by penalizing the applicant
who would do . . . what the examiner had requested by
electing an invention, filing a divisional and seeking
the examination of the withdrawn claims in the parent in the divisional.” Id. at 70:25-71:7.

124a
As to the instant case, Mr. Kunin testified that the
USPTO placed a restriction requirement on the ’640
Application (which became the ’279 Patent) during its
prosecution. PFOF ¶¶ 278-82; DFOF ¶¶ 40-41; see also
9/21 (Kunin) Tr. at 69:23-70:2 (Mr. Kunin testifying
generally that when “the examiner required the applicant to elect only one of those inventions for search
and examination” it is “known as a restriction requirement”). According to the restriction requirement,
Roche was obligated to choose between prosecuting
claims of either p55 or p75 TNFR. PFOF ¶ 280; DFOF
¶ 50. Roche elected claims relating to p55 TNFR,
which resulted in the ’279 Patent. PFOF ¶ 285; DFOF
¶ 50. Thereafter, the p75 TNFR claims were pursued
in a divisional application that led to the ’182 Patent.
PFOF ¶ 285. Plaintiffs therefore meet the first two
requirements because there was both a restriction on
the application underlying the ’279 Patent and a divisional application filed as a result of that restriction.
Defendants do not challenge the fact that there was
a restriction on the application for the ’279 Patent and
that the Patents-in-Suit were the result of divisional
applications filed based on that restriction. DFOF ¶¶
40-41, 45 (“[d]uring the prosecution of the ’279 patent,
the examiner issued a restriction requirement” and
“[f]ollowing the restriction requirement, Roche filed
divisional applications from the ’279 patent application,” one of “which led to the ’182 patent”). The focus
of Defendants’ Safe Harbor challenge for the ’182 Patent therefore appears to be based on the third requirement of consonance. Id. ¶¶ 298-301. Consonance
is a judge-made principle that states that the divisional application cannot reclaim the invention, which
was elected and examined in the parent. See Symbol

125a
Techs., 935 F.2d at 1579 (“Consonance requires that
the line of demarcation between the ‘independent and
distinct inventions’ that prompted the restriction requirement be maintained.”) (quoting Gerber Garment
Tech., Inc. v. Lectra Sys., Inc., 916 F.2d 683, 688 (Fed.
Cir. 1990)); see also 9/21 (Kunin) Tr. at 76:5-8. In
other words, just as the parent patent application
must elect a distinct invention as a result of the restriction requirement, so too must the subsequent divisional application refrain from claiming the elected
invention from the parent application. Where the
principle of consonance is violated, the Safe Harbor
provision “will not apply to remove the parent [patent]
as a reference” in an obviousness-type double patenting analysis. See Symbol Techs., 935 F.2d at 1579.
Here, Roche’s ’279 Patent elected claims relate to
p55 TNFR from the original patent application as a
result of the restriction requirement. Immunex and
Amgen then amended the subsequent ’790 Application (a divisional of the ’279 Patent application) which
became the ’182 Patent, to include claims for p75. See
PTX-6.280. That amendment was made in response
to a rejection by the USPTO, approximately ten years
after the application for the ’182 Patent was originally
filed34 and brought the claims into consonance with
the restriction requirement. PTX-6.332; 9/21 (Kunin)
Tr. at 87:19-90:9 (Mr. Kunin explaining the patent
As discussed further below, the Court notes that Plaintiffs’ expert Mr. Kunin testified that he reviewed the prosecution history
and prior to the amendment, there “was something like three
years, in which the applicant submitted like six status requests
because the Office hadn’t been working on them” and also “the
’182 patent . . . was lost for a couple of years” by the USPTO. 9/21
(Kunin) Tr. at 104:15-105:18.
34

126a
prosecution history and when the patent applications
were brought into consonance). Defendants take the
position that the amount of time it took for Roche to
amend the claims of the ’182 Patent to bring them into
consonance with the restriction requirement should
result in invalidity of the patent, “because the applicants failed to maintain consonance throughout the
prosecution of the ’182 patent application.” (DFOF ¶¶
298-99).
The USPTO allows application amendments at any
time and does not provide temporal limits for the Safe
Harbor provision to apply. See 35 U.S.C. § 121 (including no time limits as to when Safe Harbor applies,
so long as “divisional application is filed before the issuance of the patent on the other application”); see
also 9/21 Tr. (Kunin) at 90:22-91:5 (Mr. Kunin testifying that “[t]here’s nothing in [the relevant section
that] talks about time limits. So long as the applicant
is still permitted to amend claims, then if the claims
during that period prior to issuance are amended to
bring them back into consonance, then the safe harbor
will apply.”). Moreover, an inquiry into whether the
Safe Harbor rule applies requires analysis of the issued claims. Boehringer Ingelheim Int’l GmbH v.
Barr Labs, Inc., 592 F.3d 1340, 1354 (Fed. Cir. 2010)
(explaining that, when doing a Safe Harbor analysis,
the proper inquiry is on the issued claims). Defendants have not presented case law or trial testimony to
indicate by clear and convincing evidence that the
timing of the amendment or the content of pre-amendment application claims bear any legal significance.
Based on its analysis of the issued claims, the Court
concludes that the Safe Harbor provision protects the
’182 Patent such that it cannot be invalidated for

127a
obviousness-type double patenting because the ’182
Patent was (1) the result of a divisional application,
(2) based on a restriction requirement issued by the
USPTO, and (3) in consonance with that restriction
requirement.
b) The Claims of the ’279 Patent Are Patentably Distinct from the ’182 Patent
Even assuming the Safe Harbor provision did not
protect the ’182 Patent from invalidity based on obviousness-type double patenting, the Court nonetheless
finds that the ’182 Patent is patentably distinct from
the ’279 Patent and therefore not invalid for obviousness-type double patenting. To determine whether
the claims are patentably distinct, the Court must
compare the two patents at issue and decide whether
the ’182 Patent is an obvious modification of the earlier-issued ’279 Patent. If the later claim is an “obvious variant” or obvious modification of the earlier
claim, according to a POSA, then the later claim is invalid for non-statutory double patenting. In re Basell
Poliolefine Italia S.P.A., 547 F.3d at 1378-79. The
Court concludes that the claims of the ’182 Patent are
patentably distinct from the ’279 Patent for the reasons stated herein.
The ’279 Patent relates to an “invention [that] is
concerned with non-soluble proteins and soluble or insoluble fragments thereof, which bind TNF, in homogenous form.” ’279 Patent (JTX- 5) at “Abstract”. All
claims of the ’279 Patent relate to a p55 TNFR. Id. at
col. 24:11-21. Claim 1 is for a p55 TNFR and all of the
remaining claims in the ’279 Patent depend on Claim
1. Hence, the ’279 Patent involves a p55 TNFR that
is fused to an immunoglobulin Id.

128a
In contrast, the ’182 Patent claims, in part, an insoluble human TNFR that “has an apparent molecular
weight of about 75 kilodaltons,” which specifically
binds human TNF. ’182 Patent (JTX-1) col. 39:18-19.
Throughout Defendants’ contentions regarding the
patent specification, Defendants acknowledge that
p55 TNFR is distinct from p75 TNFR. DFOF ¶ 125.
During prosecution of the ’279 Patent application, the
USPTO required Roche to elect either the p55 or the
p75, acknowledging that p55 and p75 were patentably
distinct. JTX-9 at 118 (“The proteins are unobvious in
view of each other . . . .”); see also 9/21 (Kunin) Tr. at
83:5-84:19. Accordingly, the Court finds that there are
significant distinctions between the ’279 and ’182 Patents such that the patents would not have been modifications obvious to a POSA in 1990. Therefore, the
Court concludes that the ’182 Patent is not invalid for
obviousness-type double patenting based on the ’279
Patent.
2. The Patents-in-Suit Are Not Invalid
over the ’690 Patent and the Finck Patents
Defendants argue that the Patents-in-Suit are obvious over Immunex’s ’690 Patent and Immunex’s Finck
Patents (consisting of the ’225, ’605, and ’631 Patents)
(collectively, the “Immunex Patents”). Defs. Br. at 620. However, common ownership is required for obviousness-type double patenting. In re Longi, 759 F.2d
at 893-95. While Roche is the recorded owner of the
Patents-in-Suit, Defendants contend that the 2004
Accord and Satisfaction was tantamount to an assignment to Immunex, making Immunex a common owner
of the Patents-in-Suit and the Immunex Patents.
Defs. Br. at 6-15. Specifically, Defendants claim that

129a
the Accord and Satisfaction transferred “all substantial rights” from Roche to Immunex, resulting in Immunex’s ownership of the Patents-in-Suit and an impermissible extension of Plaintiffs’ monopoly over
etanercept. Id. at 7-14. Plaintiffs argue that the Accord and Satisfaction did not transfer ownership from
Roche to Immunex, and instead granted a license.
Pls. Br. at 41-47. Plaintiffs further aver that even if
the Patents-in-Suit were commonly owned, Defendants have not met their burden to show that the Patents-in-Suit are patentably indistinct from the Immunex Patents. Id. at 47-50.
The Court will first address the common ownership
issue and then discuss the ’690 Patent and the Finck
Patents.
a) The Accord and Satisfaction Does Not
Create Common Ownership
In 1999, Immunex licensed Roche’s pending patent
applications, which became the Patents-in-Suit, effective back to the FDA approval date of Enbrel® in
1998. PFOF ¶ 170. Under the license, Immunex was
required to pay Roche “tens of millions of dollars.” Id.
Non-party Amgen Inc. acquired Immunex in 2002. Id.
¶ 71. Later, Roche entered into the Accord and Satisfaction with Amgen Inc. and its affiliates, including
Immunex, which was executed on June 7, 2004. JTX12; PFOF ¶ 71. Thereunder, Amgen Inc. and Immunex fully paid their outstanding royalty obligations
to Roche and received an exclusive license to the Patents-in-Suit.35 PFOF ¶ 71. Immunex and Amgen Inc.
At that time, the applications for the Patents-in-Suit were still
pending and had not yet been issued.
35

130a
received the following rights as they pertained to the
eventual Patents-in-Suit and their then-pending applications: (1) an “irrevocable, exclusive license, with
the sole right to grant sublicenses” of the Patents-inSuit; (2) the exclusive right to practice under the Patents-in-Suit in North America; (3) the exclusive right
to prosecute the Patents-in-Suit; (4) the right to select
outside counsel for the prosecution of the Patents-inSuit; (5) the first right to bring an infringement action
in connection with the Patents-in-Suit; and (6) the
right to retain all profits that result from any infringement litigation brought by Amgen Inc. or Immunex
JTX-12 at 4-7 (§§ 3.1-3.6). Roche retained the rights
to (1) sue for infringement if Amgen Inc. does not, (2)
choose its partners under the license agreement, and
(3) use the inventions for non-clinical research. PFOF
¶¶ 304-06; DFOF ¶¶ 53, 62. The rights conferred by
Roche through the Accord and Satisfaction were later
consolidated in Immunex by a separate agreement,
and Immunex “sublicensed exclusive rights related to
Enbrel®’s commercialization to Amgen.”36 JTX-14;
9/24 PM (Watt) Tr. at 28:20-29:8; JTX-15 at 3; PFOF
¶¶ 4-5.
To use the Immunex Patents to invalidate the Patents-in-Suit, Immunex must first be a common owner
to both sets of patents, in accordance with the obviousness-type double patenting doctrine. In re Longi,
759 F.2d at 892. Defendants’ argument of common
ownership is that the 2004 Accord and Satisfaction
While the Accord and Satisfaction was negotiated with nonparty Amgen Inc., the rights were later consolidated in Immunex. JTX-14. For ease of reference the Court will refer to Immunex, which is a party to this action and currently retains the
rights discussed in the Accord and Satisfaction.
36

131a
transferred “all substantial rights” from Roche to
Amgen and Immunex and any rights that Roche did
retain were illusory. Defs. Br. at 7-20; see also
Speedplay, Inc. v. BeBop, Inc., 211 F.3d 1245, 1249-50
(Fed. Cir. 2000). Defendants therefore ask the Court
to find first that the transfer of all substantial rights
is the legal equivalent of common ownership, which is
necessary for obviousness-type double patenting invalidation, and second that the Accord and Satisfaction transferred all substantial rights.
Defendants’ cases in support of their common ownership argument all analyze indicia of common ownership for the purpose of determining whether a party
had what is referred to as “prudential standing” to
sue, and not ownership for the purpose of obviousnesstype double patenting. See Diamond Coating Techs.,
LLC v. Hyundai Motor Am., 823 F.3d 615, 618-19
(Fed. Cir. 2016); Luminara Worldwide, LLC v. Liown
Elecs. Co., 814 F.3d 1343, 1349-50 (Fed. Cir. 2016);
Speedplay, 211 F.3d at 1249-50; Vaupel Textlimaschinen KG v. Meccanica Euro Italia SPA, 944 F.2d 870,
875 (Fed. Cir. 1991); EMC Corp. v. Pure Storage, Inc.,
165 F. Supp. 3d 170, 178 (D. Del. 2016). For example,
although the Federal Circuit in Diamond Coating
made observations about what constitutes ownership,
Defendants correctly concede that the observations
were made in the context of deciding whether the
plaintiff had standing or the right to sue under the
subject patent, which is not the question currently before this Court.37 See Diamond Coating, 823 F.3d at
617-19; see also Speedplay, 211 F.3d at 1250.
Defendants have not cited to, nor has this Court found, any
caselaw that has extended or applied the “all substantial rights”
37

132a
Here, the matter is not within the “standing to sue”
context, and thus the ownership caselaw presented by
Defendants is not directly applicable. However, even
assuming those cases apply, the Court finds that
Roche remained the owner of the Patents-in-Suit because the Accord and Satisfaction did not confer all
substantial rights on Immunex. First, the Court finds
that the parties specifically intended for the Accord
and Satisfaction to be a license such that Roche would
remain the owner of the Patents-in-Suit. “To determine whether an exclusive license is tantamount to an
assignment, [the Court] ‘must ascertain the intention
of the parties [to the license agreement] and examine
the substance of what was granted.’” Alfred E. Mann
Found. For Sci. Research v. Cochlear Corp., 604 F.3d
1354, 1359 (Fed. Cir. 2010) (quoting Mentor H/S, Inc.
v. Med. Device All., Inc., 240 F.3d 1016, 1017 (Fed. Cir.
2001)); see also AsymmetRx, Inc. v. Biocare Med., LLC,
582 F.3d 1314, 1319 (Fed. Cir. 2009) (“To determine
whether an assignment of patent rights was made, we
must examine whether the agreement transferred all
substantial rights to the patents and whether the surrounding circumstances indicated an intent to do so.”)
(internal citations omitted)). A district court’s interpretation of a contract presents a question of law. Alfred E. Mann, 604 F.3d at 1359. To the extent that
test to render a patent invalid pursuant to the obviousness-type
double patenting doctrine. The purpose of the doctrine of obviousness-type double patenting is to prevent the same inventor
and/or owner of an invention from extending their patent terms
over the same invention or an obvious variant thereof. Gilead
Scis., Inc. v. Natco Pharma Ltd., 753 F.3d 1208, 1212 (Fed. Cir.
2014) (“[T]he doctrine of double patenting was primarily designed to prevent . . . harm [to the public] by limiting a patentee
to one patent term per invention or improvement.”).

133a
determining the intention of the parties to the license
agreement requires evaluation of evidence outside of
the contract, the district court’s evaluation presents a
question of fact. Id.
The evidence during trial demonstrated that the
parties agreed to draft the Accord and Satisfaction as
a license, and not an assignment of all rights. On the
face of the Accord and Satisfaction itself, the transfer
of rights in North America to Amgen is expressly
called a “[l]icense,” in contrast to the transfer of rights
outside of North America to non-party Wyeth BV,
which is expressly called an “[a]ssignment.” Compare
JTX-12 at 4 (“Article 3 License to Amgen” granting “to
Amgen and its Affiliates a paid-up, irrevocable, exclusive license, with the sole right to grant sublicenses”)
with id. at 3 (“Article 2 Assignment to Wyeth BV” stating Roche “hereby agrees to assign, and will cause its
Affiliates to assign”). Under the Accord and Satisfaction with respect to the Patents-in-Suit in North
America, Roche maintained a second right to sue for
infringement, including a right to determine whether
an assignment or sublicence would be granted to cure
the infringement, and retained the right to practice
the invention. PFOF ¶¶ 304-05; DFOF ¶¶ 53, 62. In
contrast, the Accord and Satisfaction expressly assigned to non-party Wyeth BV “all right, title and interest in and to” the Patents-in-Suit outside of North
America and acknowledges that “Wyeth BV has succeeded to all of Roche’s and its Affiliates’ right, title,
interest, benefit, and standing to receive all rights and
benefits” pertaining to the Patents-in-Suit outside of
North America. JTX-12 at 3-4.
Moreover, the Court heard the testimony of Stuart
Watt, Amgen’s Vice President of Law and Intellectual

134a
Property Officer, who engaged in negotiations with
Roche on behalf of Immunex and Amgen. See 9/24 PM
(Watt) Tr. at 20:21-23, 25:15-18. Watt credibly testified that it was more valuable to Immunex for Roche
to remain as the owner of the Patents-in-Suit. See id.
at 29:11-22. Watt stated that, based on his past litigation experience, it was important for Roche to have
an obligation to participate in litigation as a party, rather than have the mere contractual duty, which could
easily be breached. Id. at 29:15-31:14. The fact that
the parties thoughtfully negotiated and ultimately
agreed to draft the portion of the Accord and Satisfaction pertaining to North America and Amgen as a license presents strong evidence that the parties intended for the Accord and Satisfaction to be treated as
a license, rather than an assignment.
While Defendants believe the rights retained by
Roche for the Patents-in-Suit in North America are
“illusory” or insignificant, the Court disagrees. As explained at trial, Roche still possessed the power to
bring a patent infringement action if the Immunex
Plaintiffs failed to do so. See 9/24 PM (Watt) Tr. at
39:2-25. The Federal Circuit has found that a second
right to sue is in fact a substantial right retained. Alfred E. Mann, 604 F.3d at 1361-62. According to the
language of the Accord and Satisfaction, if Roche initiates a suit for infringement, the suit is solely within
the control of Roche but Immunex has a duty to cooperate during the suit. See JTX-12 at 6 (§ 3.6). Importantly, while Immunex had the right to sublicense,
Immunex could not end a Roche-initiated lawsuit by
granting a sublicense on its own. See id. Moreover,
Roche could veto the assignment of Immunex’s rights
to a third party, which suggests that the parties

135a
envisioned the agreement to be a license. See id. at 14
(§ 11.4). This scenario is distinguishable from a situation where the licensee can grant a license to end a
licensor-initiated lawsuit. See, e.g., Speedplay, 211
F.3d at 1251. Ultimately, Roche’s own enforcement
capabilities, in the event Immunex chooses not to sue,
are not nullified by Immunex’s separate right to sublicense.
Furthermore, Roche maintained the right to practice the invention. JTX-12 at 4 (§ 3.2) (Roche “reserves for itself and its Affiliates the right to practice”
the invention in North America “for internal, non-clinical research”). In AsymmetRx, Inc., the licensor also
retained the right to practice the patents “for academic research” and the court noted that as one factor
in finding that the licensor did not transfer all substantial rights. 582 F.3d at 1320 (considering the retained “right to make and use the [patented compound] for its own academic research purposes,” in ultimate conclusion that rights conveyed were a license). Because Roche retained not only a right to sue
for infringement, but a right to veto assignments or
sublicenses, and the right to practice the patent, the
Court finds that Roche did not convey all substantial
rights.
In sum, should the “all substantial rights” test have
a place in this case, Roche has nonetheless retained
certain substantial rights and accordingly, ownership
of the Patents-in-Suit did not transfer to Immunex.
As stated above, common ownership or having at least
one common inventor is a required element for the Patents-in-Suit to be invalid under the obviousness-type
double patenting doctrine. In re Longi, 759 F.2d at
893-95. Hence, Defendants cannot establish common

136a
ownership and/or inventorship to support invalidity of
the Patents-in-Suit pursuant to the doctrine of double
patenting over the ’690 and the Finck Patents based
on Defendants’ all substantial rights argument.
b) The Claims of the Immunex Patents Are
Patentably Distinct from the Patents-inSuit
Due to the Court’s finding of no common ownership,
the remaining portions of this Opinion are not necessary to the Court’s ultimate conclusion on obviousness-type double patenting. Nevertheless, even assuming the Court had found common ownership, the
Court finds that the Immunex Patents (the ’690 and
Finck Patents) are patentably distinct from the Patents-in- Suit and therefore the Patents-in-Suit are
not invalid. According to the law of double patenting,
the Court must first ask: “[i]s the same invention being claimed twice?” Gen. Foods Corp. v. Studiengesellschaft Kohle mbH, 972 F.2d 1272, 1278 (Fed. Cir.
1992) (citing In re Vogel, 422 F.2d 438, 442 (C.C.P.A.
1970)). If the answer to the first question is no, then
the Court must ask: “[d]oes any claim in the application define merely an obvious variation of an invention claimed in the patent asserted as supporting double patenting?” Id. If the answer to that question is
no, there is no double patenting. Id. That is, if the
claim at issue “defines more than an obvious variation, it is patentably distinct” and any double patenting argument would fail. Id. When conducting this
analysis, the claims must be read as a whole. Id.
When construing a claim in an earlier patent
against a claim in a later patent, the Court needs to
determine whether the differences in subject matter

137a
between the two claims render the claims patentably
distinct. Eli Lilly & Co., 251 F.3d at 968 (citing Ga.Pac. Corp., 195 F.3d at 1326). If, according to a POSA,
the later claim is an obvious modification of the earlier
claim, then the later claim is invalid for non-statutory
double patenting. In re Basell Poliolefine Italia
S.P.A., 547 F.3d at 1378-79.
The Court will first address Defendants’ claims as
to the ’690 Patent, and then will examine the claims
regarding the Finck Patents.
i. The ’690 Patent Is Patentably Distinct from the Patents-in-Suit
The ’690 Patent, entitled “Methods of Lowering Active TNF-a Levels in Mammals Using Tumor Necrosis
Factor Receptor,” issued on February 25, 1997 and expired on February 25, 2014. ’690 Patent (JTX-42);
DFOF ¶ 97. There is no dispute that Immunex is the
proper owner of the ’690 Patent. ECF No. 688 at 36 ¶¶
147-48. The parties dispute whether the asserted
claims from the Patents-in-Suit are invalid in view of
Claim 3 of the ’690 Patent. Primarily, the parties dispute the meaning of the term “fused to the constant
domain of an immunoglobulin” contained in the ’690
Patent. Defendants argue that the ’690 Patent’s claim
scope includes etanercept because the claimed chimeric antibody could have been fused to an immunoglobulin in the same way described in the Patents-inSuit. Defs. Br. at 17. Plaintiffs disagree and state
that the Patents-in-Suit do not cover the fusion of a
TNFR to “the constant domain of an immunoglobulin”
because etanercept’s construction requires the removal of a portion of the constant domain, namely
CH1 and the light chain of the IgG1 immunoglobulin.

138a
Pls. Br. at 48. In the alternative, Defendants assert
that even if the claim is not construed to cover etanercept exactly, the prior art would have led a POSA to
modify the claimed protein to create etanercept. Defs.
Br. at 15. By contrast, Plaintiffs contend that Claim
3 of the ’690 Patent does not include etanercept and
therefore the inventions claimed in the Patents-inSuit are patentably distinct. Pls. Br. at 48. The Court
finds that Defendants have not demonstrated by clear
and convincing evidence that the claims in the ’690
Patent are patentably indistinct from the claims in
the Patents-in-Suit—the ’182 and ’522 Patents.
Claim 3 of the ’690 Patent is directed to “a method
for lowering the levels of active TNF-a” by using a chimeric antibody38 consisting of “a TNF receptor comprising the sequence of amino acids 3-163 of SEQ ID
NO:1 fused to the constant domain of an immunoglobulin molecule.” ’690 Patent (JTX-42) col. 33:6634:54. In other words, Claim 3 “requires that the p75
TNF receptor has to be fused to the constant domain
of an immunoglobulin molecule” which “would include
CH1, the hinge, CH2, CH3 and the constant region on
the variable region.” 9/12 PM (Blobel) Tr. at 69:15-18,
70:2-7. In fact, the specification of the ’690 Patent describes a chimeric antibody as a molecule “having
TNFR sequences substituted for the variable domains
of either or both of the immunoglobulin heavy and
light chains and having unmodified constant region
As defined in the ’690 Patent, a chimeric antibody is a “molecule having TNFR sequences substituted for the variable domains of either or both of the immunoglobulin heavy and light
chains and having unmodified constant region domains.” 9/12
(Blobel) AM Tr. at 24:9-18.
38

139a
domains.” ’690 Patent (JTX-42) col. 7:42-46 (emphasis
added).
In comparison, the Patents-in-Suit claim a fusion
protein with “all of the domains of the constant region
of a human immunoglobulin IgG heavy chain other
than the first domain of said constant region” (’182 Patent (JTX-1) col. 39:13-25) (emphasis added) and
methods of making it (’522 Patent (JTX-2)). Critically,
both the ’182 and the ’522 Patents exclude the CH1
and the light chain of the IgG1 immunoglobulin. See
’182 Patent (JTX-1) col. 39:13-25; ’522 Patent (JTX-2)
col. 46:59-47:3. The Patents-in-Suit cover the fusion
of p75 to the hinge-CH2-CH3 of the constant domain
of IgG1. Id.
Therefore, the Court finds that the chimeric antibody of the ’690 Patent could not have been etanercept
because the constant region domains include CH1. In
other words, the ’690 Patent requires the use of the
CH1 domain and light chain of the IgG1, while the Patents-in-Suit specifically require the removal of both
of these items. Compare ’690 Patent (JTX-42) col.
33:66-34:54 with ’182 Patent (JTX-1) col. 39:46-49 and
’522 Patent (JTX-2) col. 45:57-60. Thus, the Patentsin-Suit are patentably distinct from the ’690 Patent.
Lastly, Defendants argue that even if Claim 3 of the
’690 Patent was strictly construed to include the complete constant domain for the light chain and the
heavy chains, etanercept only differs in the removal of
the light chain and the CH1 domain from the IgG1,
which would have been obvious to a POSA. Defs. Br.
at 15. However, as the Court previously stated above,
it would not have been obvious to a POSA to modify

140a
the constant region domain in this way and combine
it with a p75 TNFR. See supra III.B.
For these reasons, the Court finds that Defendants
have failed to prove by clear and convincing evidence
that the Patents-in-Suit are invalid in light of the ’690
Patent based on obviousness type double patenting.
ii. The Patents-in-Suit Are Not Invalid
In View of the Finck Patents
The patents referred to collectively as the Finck Patents are comprised of the following three patents: (1)
the ’225 Patent entitled “Soluble Tumor Necrosis Factor Receptor Treatment of Medical Disorders,” issued
on March 29, 2011; (2) the ’605 Patent entitled “Soluble Tumor Necrosis Factor Receptor Treatment of
Medical Disorders,” issued on February 21, 2012; and
(3) the ’631 Patent entitled “Soluble Tumor Necrosis
Factor Receptor Treatment of Medical Disorders,” issued on May 13, 2014. JTX-39 (“’225 Patent”); JTX40 (“’605 Patent”); JTX-41 (“’631 Patent”). The Finck
Patents will expire on August 13, 2019 and there is no
dispute that Immunex is the proper owner.39 Defendants claim that the Patents-in-Suit are invalid for obviousness-type double patenting in view of the Finck
patents. Defs. Br. at 14-15. The parties disagree as
to whether the one-way test or two-way test shall be
used to compare the Finck Patents and the Patentsin-Suit.40 Part of that issue is a question of how and to
The Finck Patents expire on the same day because each is subject to a terminal disclaimer pursuant to 37 CFR § 1.321.
39

Plaintiffs alternatively argue that even under the one-way
test, Defendants have failed to prove by clear and convincing evidence that any claims in the Patents-in-Suit are invalid for obviousness-type double patenting over the Finck Patents. PFOF ¶
40

141a
what extent the amendments to the General Agreement on Tariffs and Trade (“GATT”) impact an obviousness-type double patenting analysis.41 Next, the
parties disagree as to whether the Patents-in-Suit are
patentably distinct from the Finck Patents. These arguments will be addressed in turn.
a. The Two-Way Test Shall Apply to Analysis of the Finck Patents
Invalidity for obviousness-type double patenting is
a question of law based on underlying factual inquiries. See Eli Lilly & Co. v. Teva Parenteral Meds., Inc.,
689 F.3d 1368, 1376 (Fed. Cir. 2012). Under the “oneway” test, the court determines whether the asserted
patent claim is patentably distinct from—i.e., obvious
over or anticipated by—the reference patent claim.
See In re Berg, 140 F.3d 1428, 1432 (Fed. Cir. 1998).
For purposes of the two-way analysis, “the order of issuance is, in effect ignored, and the relevant determination becomes whether the improvement is patentably distinct from the generic invention.” In re Braat,
937 F.2d 589, 593-94 (Fed. Cir. 1991); see also In re
325. Plaintiffs contend that even if the Finck Patents were proper
obviousness-type double patenting references, their claims could
not have been rendered invalid given that the Finck Patents’
claims are directed to a method of treatment with etanercept
whereas the claims of the Patents-in-Suit are directed to a compound and the method of composition. Pls. Br. at 49. The facts on
patentable distinctness, discussed infra, may be considered in accordance with either test.
The Uruguay Round Agreements Act was enacted on December 8, 1994. See Pub. L. No. 103-465, 108 Stat. 4809. This Act
implemented various agreements during the Uruguay Round of
General Agreement on Tariffs and Trade. Id. The Act is commonly referred to as “GATT.”
41

142a
Hubbell, 709 F.3d 1140, 1149 (Fed. Cir. 2013). The
two-way test is a “narrow exception to the general rule
of the one-way test” and is only applied when “(1) a
second-filed application issues prior to a first-filed application, and (2) ‘the [US] PTO is solely responsible
for the delay’ in the issuance of the first-filed application.” In re Janssen Biotech, Inc., 880 F.3d 1315, 1325
(Fed. Cir. 2018); see also Smith & Nephew, Inc. v. Arthrex, Inc., 355 F. App’x 384, 388 n.4 (Fed. Cir. 2009).
The two-way test arose to “prevent rejections for obviousness-type double patenting when the applicants
filed first for a basic invention and later for an improvement, but, through no fault of the applicants, the
[US] PTO decided the applications in the reverse order of filing.” In re Hubbell, 709 F.3d at 1149 (quoting
In re Berg, 140 F.3d at 1432). “The two-way exception
can only apply when the applicant could not avoid separate filings, and even then, only if the [US]PTO controlled the rates of prosecution to cause the later filed
species claims to issue before the claims for a genus in
an earlier application.” In re Berg, 140 F.3d at 1435.
Whether the one-way or two-way test applies is a
question of law, but the determination can be based
on underlying factual findings.42 See In re Emert, 124
F.3d 1458, 1460 (Fed. Cir. 1997).
The applications for the Patents-in-Suit were both
filed in May 1995, however the ’182 Patent issued in
November 2011, and the ’522 Patent issued in April
The Court notes that the Finck Patents are the only patents as
to which a two-way test argument has been made. The other patents analyzed for obviousness-type double patenting were all
earlier-filed and earlier-issued compared to the Patents-in-Suit
and therefore were evaluated under a one-way test.
42

143a
2012. The Finck Patent applications, which describe
a method of treating psoriasis and psoriatic conditions, were filed four years after the applications for
the Patents-in-Suit, in August 1999. However, the
’225 Finck Patent issued in March 2011 prior to the
issuance of the Patents-in-Suit, the ’605 Finck Patent
issued in February 2012, after the ’182 Patent but
prior to the ’522 Patent, and the ’631 Finck Patent issued in May 2014, after the Patents-in-Suit. As the
Court has already determined that the Patents-inSuit and Finck Patents lack the requisite common
ownership for an obviousness-type double patenting
analysis, the Court need not look any further to address the issue of patentable distinctness. Nevertheless, the Court has reviewed the evidence presented
at trial and the prosecution file history and determines that if common ownership existed, the two-way
test should apply.
At trial, Plaintiffs’ expert Mr. Kunin reviewed the
prosecution history for the Patents-in-Suit and testified that there was a period of “something like three
years” where Roche submitted “six status requests because the Office hadn’t been working” on the applications for the Patents-in-Suit. 9/21 (Kunin) Tr. at
104:21-105:1; see also JTX-4 at 354-55. He later testified that the application for the “’182 Patent . . . was
lost for a couple of years” by the USPTO. 9/21 (Kunin)
Tr. at 105:2-18. Then, in August 2010, a Director at
the relevant USPTO Technology Center sent a letter
to Plaintiffs’ legal representative acknowledging that
a petition decision mailed in August 2007 “relied upon
an image file wrapper which mistakenly contained papers from an unrelated application.” JTX-4 at 4239.
The letter additionally acknowledged that “only one

144a
substantive office action has been set forth in the last
five years” and therefore “the Examiner has been advised to treat this application as special and expedite
its prosecution to conclusion.” Id. at 4240. Further,
the applications for the Patents-in-Suit faced several
rejections from the patent examiners, which ultimately were found to be unjustified and reversed by
the BPAI on appeal. See BP AI Opinion, PTX-6.456
(reversing all of the Examiner’s rejections, and finding
Plaintiffs’ “evidence . . . convincing to rebut the Examiner’s . . . rejection” as well as stating the BPAI was
“persuaded by Appellants’ argument”); PFOF ¶¶ 32122. While Plaintiffs did make several proper requests
for extensions, the Court finds that, to the extent the
earlier-filed Patents-in-Suit were issued after the
later-filed Finck Patents, as a matter of fact the
USPTO was solely responsible for the delay that resulted. See PFOF ¶¶ 321-25. The Court additionally
finds that, based on the record presented, Plaintiffs
acted in good faith to diligently prosecute the Patentsin-Suit. Therefore, the Court will apply the two-way
test.
b.

Impact of GATT on the Patentsin-Suit

The parties also disagree about the impact of GATT
on the obviousness-type double patenting analysis. In
particular, the parties argue as to whether an earlierexpiring post-GATT patent can cut short the statutory
term of a pre-GATT later-expiring patent. Pls. Br. at
47-48; Defs. Reply Br. at 9-10. Among other things,
GATT changed the term of a patent and how to calculate its expiration. See Avanir Pharms., Inc. v. Actavis
S. Atl. LLC, 987 F. Supp. 2d 504, 516 n.20 (D. Del.
2013). Prior to GATT, “[p]atents claiming priority to

145a
applications filed before June 8, 1995, . . . have a patent term which is the greater of 20 years from the
date of the filing of the application or 17 years from
the date of the grant of the patent, subject to any terminal disclaimers.” Id. (citing 35 U.S.C. § 154(a)(2))
(emphasis in original). However, due to the GATT
amendment, “[p]atents that issued from applications
filed after June 8, 1995 receive a 20-year term” from
the effective filing date.
Id. (citing 35 U.S.C.
§ 154(a)(2)) (emphasis in original).
Here, the applications for the Patents-in-Suit were
filed pre-GATT in May 1995, and therefore were
granted a patent term of seventeen years from the
date of issuance (from November 2011 until November 2028 for the ’182 Patent and from April 2012 to
April 2029 for the ’522 Patent). The Finck Patents,
however, were filed post-GATT, and therefore will expire in August 2019, twenty years from the earliest
effective filing date of August 1999 for the applications. Defendants’ arguments focus on Claim 1 and
the term TNFR:Fc in the Finck Patents, which is identical in each Finck Patent. Based on the times of filing, issuance, and expiration, at least one Finck Patent would properly serve as a reference patent for the
Patents-in-Suit for an obviousness-type double patenting analysis, which is all that is needed because
the claim terms at issue in the Finck Patents are identical in each one.43
An obviousness-type double patenting analysis requires a comparison between the earlier patent, referred to as the reference
patent, and the later patent. See Eli Lilly & Co., 251 F.3d at 968.
For patent applications filed pre-GATT, the issuing date is used
to ascertain which patent was earlier and which was later. Gilead, 753 F.3d at 1214-15 (Fed. Cir. 2014). For applications filed
43

146a
Next, because obviousness-type double patenting is
“intended to address unjustifiable extensions of patent terms,” a post-GATT later-granted and earlierexpiring patent cannot cut short the term of a preGATT “valid, earlier-granted patent with a longer
term.” Abbott Labs. v. Lupin Ltd., No. 09-152, 2011
WL 1897322, at *9-10 (D. Del. May 19, 2011) (citing
Brigham & Women’s Hosp. Inc. v. Teva Pharms. USA
Inc., 2011 WL 63895 (D. Del. Jan. 7, 2011). Here as
in Abbott, an act of Congress, rather than “improper
gamesmanship by the patentee” or “strategic abuse of
the patent system[,]” led to the Patents-in-Suit having
a longer patent term and the expiration date for the
Patents-in-Suit is “the same as it would have been had
the [Finck Patents] never issued.” Id. The Court
therefore finds that the statutory term for the Patents-in-Suit may not be cut short to mirror the statutory term for the Finck Patents.

post-GATT, however, the patent expiration date determines
the earlier and later patents. Id. at 1216. In the instant matter,
because the validity challenge is to the Patents-in-Suit, which
are not subject to GATT, the issuance date should determine the
reference patent. See id. at 1214-15 (finding that issuing date is
used in an obviousness-type double patenting analysis for patents to which GATT does not apply). Looking to the issuance
dates, the ’225 Finck Patent is the only one which issued prior to
both of the Patents-in-Suit and therefore is the only Finck Patent
which could be properly considered an “earlier patent” for an obviousness-type double patenting analysis. The Court notes that
alternatively looking to expiration date, all of the Finck Patents
could serve as reference patents because they expire prior to the
Patents-in-Suit, and therefore under either analysis at least one
Finck Patent properly serves as the reference patent.

147a

c. The Finck Patents Are Patentably Distinct from the Patents-in-Suit
At issue here is the patentable distinctness of
Claims 11 and 35 of the ’182 Patent and Claims 3 and
8 of the ’522 Patent in comparison to Claim 1 of the
Finck Patents in light of the definition of etanercept
in the Finck specification. DFOF ¶¶ 92-95. The Patents-in-Suit claim etanercept itself and the method of
making it. See generally ’182 Patent (JTX-1); ’522 Patent (JTX-2). In contrast, the Finck Patents cover a
method of treating psoriasis and psoriatic conditions
with etanercept. See, e.g., ’225 Patent (JTX-39) col.
21:33-36. For example, Claim 1 of the ’225 Finck Patent claims “a method for treating a patient having
psoriasis comprising administering to the patient a
therapeutically effective dose of TNFR:Fc [i.e. etanercept], wherein the patient attains at least fifty percent
improvement in PASI score.” See, e.g., id.
The Court first notes that a biologic manufacturer
“may hold multiple patents covering the biologic, its
therapeutic uses, and the processes used to manufacture it.” Sandoz, 137 S. Ct. at 1670. Here, the ’182
Patent claims the compound etanercept, the ’522 Patent claims a process used to manufacture etanercept,

148a
and the Finck Patents claim a therapeutic use of
treating psoriasis and psoriatic variants using etanercept. In support of their argument that the Finck Patents and the Patents-in-Suit are not patentably distinct, Defendants cite to Geneva Pharm., Inc. v. Glaxo
Smith Kline PLC, 349 F.3d 1373 (Fed. Cir. 2003),
wherein the court found that a claimed compound for
which a POSA “would recognize a single use” was not
distinct from a patent that “simply claims that use as
a method.” See id. at 1385-86; see also Astellas
Pharma, Inc. v. Ranbaxy Inc., No. 05-2563, 2007 WL
576341, at *6 (D.N.J. Feb. 21, 2007). In that case,
however, the court determined that the claimed use of
the compound was not only an inherent property of
the compound but its sole use. Geneva Pharm., 349
F.3d at 1385. Geneva is distinguishable from the instant case because, while the Finck Patents use
etanercept for the treatment of psoriasis and related
conditions, psoriasis treatment is neither an inherent
property nor the sole use of etanercept.44 See PFOF ¶
316; cf. Geneva Pharm., 349 F.3d at 1385.
Plaintiffs contend that practicing the claimed invention of the Patents-in-Suit to make etanercept would
not result in the practice of the Finck Patents, because
merely making etanercept would not result in treating psoriasis. See PFOF ¶ 316. Reviewing the Finck
Patents and the Patents-in-Suit, the treatment methods for psoriasis and psoriatic conditions contained in
Furthermore, Plaintiffs argue that etanercept can be made using methods other than the one detailed in the ’522 Patent,
namely “by using a host cell” other than the type specified in the
patent and therefore the Finck Patents’ treatment method could
be accomplished without infringing on the ’522 Patent. See PFOF
¶ 316.
44

149a
the Finck Patents are not found in the Patents-inSuit. Therefore, based on the Court’s analysis, the
Finck Patents’ claim to a psoriasis treatment method
using etanercept cannot be used to invalidate the Patents-in-Suit. See In re Braat, 937 F.2d at 593-94.
Furthermore, the Finck Patents and the Patents-inSuit could not have been combined into a single application because they do not share common owners. See
supra III.C.2.a. Accordingly, the Court finds that Defendants have not demonstrated by clear and convincing evidence that the Patents-in-Suit are invalid for
obviousness type double patenting.
IV.

CONCLUSION

For the foregoing reasons, the Court finds that Defendants have failed to show by clear and convincing
evidence that the Patents-in-Suit are invalid. An appropriate Order accompanies this Opinion.
Dated: August 9, 2019
[signature]
HON. CLAIRE C. CECCHI
United States District Judge

150a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
IMMUNEX CORP., et
al.,
v.

Civil Action No.:
16-1118 (CCC)
ORDER

SANDOZ INC., et al.
CECCHI, District Judge.
This matter comes before the Court on a patent action brought by Plaintiffs Immunex Corporation (“Immunex”), Amgen Manufacturing, Limited (“Amgen”),
and Hoffiman-La Roche, Inc. (“Roche”) (collectively,
“Plaintiffs”) against Defendants Sandoz Inc., Sandoz
International GmbH and Sandoz GmbH (collectively,
“Defendants”). It appearing that:
1. Defendants have asserted invalidity of claims in
two patents: U.S. Patent No. 8,063,182 (the “’182
Patent”) and U.S. Patent No. 8,163,522 (the “’522
Patent”). Specifically, this action relates to the
validity of claims 11-12 and 35-36 of the ’182 Patent, and claims 3, 8, and 10 of the ’522 Patent.
2. Defendants do not contest infringement of claims
11-12 and 35-36 of the ’182 Patent, and claims 3,
8, and 10 of the ’522 Patent in accordance with
the September 10, 2018 Stipulation of Infringement based on Defendants’ submission of abbreviated Biologics License Application (“aBLA”)

151a
No. 761042 for Defendants’ etanercept biosimilar. ECF No. 619.
3. The Court held a two-week bench trial in this
matter that began on September 11, 2018 and
concluded on September 25, 2018. The parties
submitted post-trial briefing and proposed findings of fact and conclusions of law through November 2018. Closing arguments were held on
November 19, 2018.
Accordingly, for the reasons set forth in this Court’s
accompanying Opinion,
IT IS on this 9th day of August, 2019
ORDERED that no finding of invalidity shall issue
as to the ’182 patent; and it is further
ORDERED that no finding of invalidity shall issue
as to the ’522 patent; and it is further
ORDERED that pursuant to the September 10,
2018 Stipulation of Infringement, Defendants infringe
claims 11-12 and 35-36 of the ’182 Patent, and claims
3, 8, and 10 of the ’522 Patent; and it is further
ORDERED that Defendants and Plaintiffs remain
bound by the terms of the Amended Consent Preliminary Injunction (ECF No. 509), pending further order
of the Court; and it is further
ORDERED that the parties are directed to submit
a joint proposed form of judgment consistent with this
Order and the accompanying Opinion by August 23rd
2019.
SO ORDERED.

152a
[signature]
CLAIRE C. CECCHI, U.S.D.J.

153a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
IMMUNEX CORPORATION; AMGEN MANUFACTURING, LIMITED;
and HOFFMANN-LA
ROCHE INC.;
Plaintiffs,
v.
SANDOZ INC.; SANDOZ
INTERNATIONAL
GMBH; and SANDOZ
GMBH;
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No.:
2:16-cv-01118CCC-MF

FINAL JUDGMENT AND ORDER OF
PERMANENT INJUNCTION
THIS MATTER was brought by Plaintiffs, Immunex Corporation, Amgen Manufacturing, Limited
(collectively, “Immunex”), and Hoffmann-La Roche
Inc. (“Roche”) (collectively, “Plaintiffs”), against Defendants, Sandoz Inc., Sandoz International GmbH,
and Sandoz GmbH (collectively, “Defendants”). After
a bench trial, the Court issued its Opinion and Order
in the above-captioned case on August 9, 2019 (ECF
No. 689, 690).
It is ORDERED, ADJUDGED, and DECREED as
follows:

154a
1. The Court has jurisdiction over the subject matter of the above-captioned case pursuant to 28 U.S.C.
§§ 1331 and 1338(a).
2. The Court has personal jurisdiction over the
parties, and venue is proper as to all parties pursuant
to 28 U.S.C. §§ 1391(b), (c), and 1400(b).
3. The Court retains jurisdiction to enforce or supervise performance under this Final Judgment and
Order of Permanent Injunction.
I.

The Patents-in-Suit

4. Sandoz Inc.’s submission of abbreviated Biologics License Application (“aBLA”) No. 761042 infringed
claims 11-12 and 35-36 of U.S. Patent No. 8,063,182
(the “’182 Patent”).
5. Defendants’ making, using, offering to sell, or
selling of any product containing the fusion protein
known as etanercept and described in the Court’s
opinion in this case at ECF No. 689 at 6 (“etanercept”)
within the United States, or Defendants’ importation
of any product containing etanercept into the United
States, will infringe claims 11-12 and 35-36 of the ’182
Patent.
6. For the reasons stated in the Court’s August 9,
2019 Opinion (ECF No. 689), the Court finds that Defendants failed to prove that claims 11-12 and 35-36
of the ’182 Patent are invalid or unenforceable.
7. Judgment is hereby entered against Defendants regarding infringement of the ’182 Patent.
8. Any claim of infringement of any claims of the
’182 Patent other than claims 11-12 and 35-36 is
hereby dismissed with prejudice.

155a
9. Sandoz Inc.’s submission of aBLA No. 761042
infringed claims 3, 8, and 10 of U.S. Patent No.
8,163,522 (the “’522 Patent”).
10. Defendants’ making, using, offering to sell, or
selling of any product containing etanercept within
the United States, or Defendants’ importation of any
product containing etanercept into the United States,
will infringe claims 3, 8, and 10 of the ’522 Patent.
11. For the reasons stated in the Court’s August 9,
2019 Opinion (ECF No. 689), the Court finds that Defendants failed to prove that claims 3, 8, and 10 of the
’522 Patent are invalid or unenforceable.
12. Judgment is hereby entered against Defendants regarding infringement of the ’522 Patent.
13. Any claim of infringement of any claims of the
’522 Patent other than claims 3, 8, and 10 is hereby
dismissed with prejudice.
14. Based on the stipulation dated October 7, 2019,
Defendants, and each of them, and each of their affiliates, subsidiaries, successors, and partners, and all
of their officers, agents, servants, employees, and attorneys, and all persons and entities acting on behalf
or at the direction of, or in active concert or participation or privity with any of them, are hereby enjoined
from making, using, offering to sell, or selling within
the United States, or importing into the United States
any product containing etanercept. This paragraph
does not restrict Defendants’ activities that fall within
the scope of 35 U.S.C. § 271(e)(1). This permanent injunction shall terminate no later than the later of the
expiration of any infringed and valid claim of the ’182

156a
Patent on November 22, 2028 or any infringed and
valid claim of the ’522 Patent on April 24, 2029.
II.

Immunex Patents

15. Pursuant to the stipulation filed June 7, 2018
(ECF No. 510), any claim of infringement under 35
U.S.C. § 271(b) or 35 U.S.C. § 271(e)(2)(C) of any claim
in U.S. Patent No. 7,915,225, U.S. Patent No.
8,119,605, or U.S. Patent No. 8,722,631 is hereby dismissed with prejudice. (ECF No. 1 ¶¶ 114-167.)
III.

Prior Preliminary Injunctions

16. Prior stipulated preliminary injunctions ECF
Nos. 95, 96, and 509 are hereby terminated. Paragraph 5(b) of Confidential ECF No. 510 remains in effect until the issuance of a mandate from the Federal
Circuit. Paragraph 8 of Confidential ECF No. 510 remains in effect until the conclusion of (or expiration of
time to seek) review by the United States Supreme
Court of the Federal Circuit’s decision and shall terminate if any one of claims 11-12 and 35-36 of the ’182
Patent or claims 3, 8, and 10 of the ’522 Patent is not
rendered invalid following the conclusion of (or expiration of time to seek) such review. The remainder of
Confidential ECF No. 510 is hereby terminated.
17. Pursuant to Fed. R. Civ. P. 58(a), this is the FINAL JUDGMENT of the Court.
SO ORDERED:
Dated: October 8, 2019

[signature]
Hon. Claire C. Cecchi,
U.S.D.J.

157a
APPENDIX E
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
IMMUNEX CORPORATION, AMGEN
MANUFACTURING, LIMITED,
Plaintiffs-Appellees
HOFFMANN-LA ROCHE INC.,
Plaintiff
v.
SANDOZ INC., SANDOZ INTERNATIONAL
GMBH, SANDOZ GMBH,
Defendants-Appellants
2020-1037
Appeal from the United States District Court for the
District of New Jersey in No. 2:16-cv-01118-CCC-MF,
United States District Judge Claire C. Cecchi.
ON PETITION FOR REHEARING EN BANC

158a
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, and HUGHES, Circuit Judges*.
PER CURIAM.
ORDER
Appellants Sandoz GmbH, Sandoz Inc. and Sandoz
International GmbH filed a petition for rehearing en
banc. A response to the petition was invited by the
court and filed by Appellees Amgen Manufacturing,
Limited and Immunex Corporation. The petition was
first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 6,
2020.
FOR THE COURT
September 29, 2020
Date

*

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Stoll did not participate.

